<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2014

                              ----------                              


                        THURSDAY, APRIL 18, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Harkin, Mikulski, Landrieu, 
Begich, Graham, Coats, and Johanns.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. JOHN F. KERRY, SECRETARY


             opening statement of senator patrick j. leahy


    Senator Leahy. Good afternoon, and I welcome our Secretary 
of State. We have new members of the subcommittee--Senators 
Shaheen and Begich, Johanns, Boozman.
    This is a good subcommittee and one I wanted to stay on 
because of what we do and how we support United States 
leadership around the world.
    Of course, the Secretary of State knows this budget 
backward and forward from his years as a member and then as one 
of the most distinguished chairs of the Foreign Relations 
Committee. I told the Secretary that he was born for this job. 
I can't think of anybody better.
    I also want to note on a personal basis, I have visited 
then-Senator Kerry on occasions at his home in Boston. We have 
done things together there and I know how much he loves that 
city, as I do, as one who remembers going there as a little boy 
with my parents and so many times since.
    And I think, Mr. Secretary, you know that the whole country 
grieves for Boston, having seen the Boston Marathon, such a 
quintessential American event and on Patriots' Day. But I think 
I also know the people of Boston and Massachusetts, they are 
not going to run and hide. Their spirit will still be strong, 
just as you have always shown.
    I also want to mention that Senator Graham is on his way 
over. He has been a huge asset to this subcommittee. He works 
hard and travels around the world to see which programs are 
working or not working.
    What we try to do is to make sure on this subcommittee that 
we work in a bipartisan fashion. Usually, the bills that come 
out of this subcommittee, they have been nearly unanimous--
Republicans and Democrats have worked together.
    We focus today on North Korea, a nuclear power, a young, 
untested dictator recklessly threatening its neighbors. In the 
Middle East, we see Syria, a humanitarian catastrophe on a 
scale few would have imagined. The revolution in Egypt, which 
held such promise, now there is a troubling turn. The economy 
is on life support and the military is cracking down on its 
critics.
    There are so many areas. We have fought two costly and, I 
feel, misguided wars. I remember some testifying in the past 
about how we were going to remake Afghanistan and Iraq.


                           prepared statement


    Well, we haven't, and we have requested written testimony 
for this hearing from the State Department Inspector General, 
the Special Inspector General for Iraq, and the Special 
Inspector General for Afghanistan. They have showed us how we 
can save money and I will put that in the record.
    [The statement follows:]
             Prepared Statement of Senator Patrick J. Leahy
    I want to welcome our new Members, Senators Shaheen, Begich, 
Johanns, and Boozman. This subcommittee may not be the most popular, 
and what we do may not get the most attention, but it is the 
counterpart to the Defense Appropriations subcommittee for how we 
project United States leadership and protect our interests around the 
world.
    I want to welcome Secretary of State Kerry who knows this budget 
backward and forward from his years as a member and chairman of the 
Foreign Relations Committee. It is hard to conceive of anyone better 
qualified for the job of Secretary, and we are fortunate to have you 
there.
    I also want to acknowledge Senator Graham, who has been such an 
asset to this subcommittee. He works hard, travels around the world to 
see how programs are working--or not working--and he has been a strong 
defender of this budget and the vital priorities it implements.
    This subcommittee has produced bipartisan bills for as long as I 
have been here, and when we are given the chance to debate them on the 
floor they pass overwhelmingly. We do not want a Democratic foreign 
policy or a Republican foreign policy. We want an American foreign 
policy.
    The world today is focused on North Korea, a nuclear power whose 
young, untested dictator is recklessly threatening to attack its 
neighbors, presumably to extort food aid and other economic 
concessions.
    In the Middle East, Syria has become a humanitarian catastrophe on 
a scale few would have imagined, and the end does not appear to be in 
sight.
    The revolution in Egypt, which held such promise, has taken a 
troubling turn and the economy is on life support.
    Around the world, from Russia to Ethiopia, civil society 
organizations, which are as fundamental to democracy as a credible 
justice system, are harassed and persecuted to the point of being 
unable to function.
    As we extract ourselves from two misguided, costly wars, I recall 
the starry eyed testimony of Pentagon, State Department, and USAID 
officials in years past about how we were going to remake those 
societies. There have been achievements, but I can't help but wonder 
how we could have been so naive. We need to be a lot smarter about how 
we spend the public's money.
    We requested written testimony for this hearing from the State 
Department Inspector General, the Special Inspector General for Iraq, 
and the Special Inspector General for Afghanistan. All of them have 
identified ways to save money.
    I agree with the Chairwoman when she says our job is not only to 
appropriate money, it is also to find ways to save money.
    The administration's 2014 budget request for this subcommittee 
represents a cut of almost $1.5 billion below the 2013 level. A lot of 
that is because of reduced Overseas Contingency costs, and we need to 
work together to achieve the right balance for the rest of the world.
    We cannot act as if what happens in the world around us does not 
matter. We cannot treat the United Nations, or the World Health 
Organization, as if they do not matter.
    Every Republican and Democratic President and Congress since the 
1950s has recognized this, and in many ways the world is more 
competitive and dangerous today than it was back then.
    Countering foreign threats, building stable democracies, and 
reforming foreign economies cost money. If we don't do it others will, 
but not necessarily in ways that we would want.
    Mr. Secretary, I know you will have more to say about this in your 
testimony.
    After Senator Graham makes his opening remarks we will hear from 
Chairwoman Mikulski [and Ranking Member Shelby], and then Secretary 
Kerry.
    We will then have 7 minute rounds of questions in order of 
appearance.

    Senator Leahy. When Senator Graham gets here, after 
Secretary Kerry has finished his opening statement, I will 
yield to Senator Graham for any statement he wishes to make.
    But Mr. Secretary, considering the schedule you have 
followed the past few weeks I think it is remarkable you are 
able to be here, and I thank you. Please go ahead.

               SUMMARY STATEMENT OF SENATOR JOHN F. KERRY

    Secretary Kerry. Well, Mr. Chairman, President pro tem, 
thank you very, very much.
    Senator Harkin, Senator Johanns, great to be here with you 
guys. And I am still getting used to being on this side of the 
dais, but it is a pleasure to be in front of this subcommittee.
    And Mr. Chairman, let me say to you, I know you caused a 
lot of consternation. I was here when you were making your 
decisions about where to stay. I am so glad you stayed here 
because the converse is true. You know this budget, and you are 
dedicated to these issues, and you have had a profound impact 
on them. And I am just thrilled that that continuity will be 
here, and I think we will have a terrific partnership because 
of that.
    Thank you also for your comments about Boston. It is no 
secret that I really wish I had been in Boston today with the 
President and with the mayor and the former Governors and 
everybody. I would have really liked to have been there. But I 
am here, obviously, doing this, and I am not complaining about 
it.
    I watched a little bit during the lunch break of the 
President. I thought he was magnificent. Gave a great, great 
speech. Touched the hearts of everybody and captured Boston.
    And there is just no way to express the feelings everybody 
has. I watched, as everybody did, the graphic video of the 
explosions, and what struck me, frankly, was just the way 
volunteers from the Marathon rushed toward the blasts and the 
way--you know, we learned later runners went to the hospital to 
give blood, and people opened their homes to receive strangers.
    And what really struck me was the place where the first 
explosion took place. You see all those flags, all the 
international flags, and you realize, wow, it was just so much 
bigger than Boston.
    And you can't help but be impressed by the global component 
of it, and then you have this breach of peace with this mayhem 
of blood and sheered limbs and so forth on the sidewalk. It is 
just such a contrast. I think the President's visit today 
really touched everybody.
    And then there are these moments that leap out at you, like 
last night at the Bruins game where the entire crowd broke into 
``The Star-Spangled Banner'', and it just reverberated. It was 
wonderful. At the end, there was a sign that said, ``We are 
Boston strong.'' And I think that is very true.
    And even our nemesis, the New York Yankees, interrupted--I 
don't remember which inning it was--but they sang, the whole 
place broke out in ``Sweet Caroline''. And that is pretty 
special, given the relationship between the ``evil empire'' and 
the Boston Red Sox.
    So I thank everybody. I really do. I know everybody in 
Boston and in Massachusetts and in the surrounding communities 
that live and breathe Boston to some degree are all grateful 
for everybody's compassion and thoughts about it.
    On this budget, Mr. Chairman, turning to it, which we need 
to do here this afternoon, I will try to just summarize 
quickly, and I know you want to get to the questions, and so do 
I. What is really--in the 2\1/2\ months now I have been 
privileged to serve President Obama as Secretary, I have 
traveled quite extensively and, I think, fruitfully with 
respect to efforts to get moving on the Middle East peace, 
efforts to deal with North Korea, efforts to deal with Syria 
and China, other issues.
    And what I find reinforced in me, notwithstanding 28 years 
in the Senate and serving as chairman of the Foreign Relations 
Committee, is a much more graphic, firsthand, day-to-day input 
of the degree to which the United States is relied on, looked 
to for leadership, and critical to the solutions of so many 
problems that we face on the planet. We are the indispensable 
nation, and I think that it is clear to me, more than ever 
before, there is no longer anything foreign about foreign 
policy.
    And I said in my confirmation hearing that I think so much 
of foreign policy today is economic policy, frankly. And we 
need to think about that more, as we transition, as we think 
about this budget. As Senator Graham, who is not yet here, but 
I look forward to talking with him when he is, very eloquently 
said, America's investment in foreign policy is national 
security insurance.
    And I think if we can make the right small investments up 
front and do things to preclude conflict or to avoid implosion 
and failed states and so forth, we actually can save ourselves 
a lot of burden and a lot of money. Not the easiest sell always 
to our constituents, but nevertheless, it is real.
    I also believe that it is clear that American engagement is 
essential, and let me just give you a couple of quick examples. 
Recently, the President and I were in Israel. Our engagement 
was essential. We worked on it. I actually had done some 
initial work on this 1\1/2\ years ago, 2 years ago.
    But the rapprochement that took place between Israel and 
Turkey, which is a positive step toward our stability in the 
region and, hopefully, toward engagement in the peace process, 
came about through the President's intervention, the power and 
prestige of America, and the interests that we were able to 
bring together there.
    On Syria, on Syria, we have contributed nearly $385 million 
to a growing humanitarian crisis. We are going to have to think 
more about obviously what we are going to do there and how. I 
am sure we will talk about it today. But it has made a 
difference that we just send something like food and flour to 
the Aleppo bakeries or that we have, in fact, provided food and 
sanitation to the Atmeh refugee camp.
    And having just returned from Seoul, Beijing, and Tokyo, 
where North Korea issue took center stage, I can tell you that 
once again it just comes back to you in every respect that we 
are the guardian of global security. And I think it is critical 
that we don't turn our back on the essentiality of that role.
    All of that, Mr. Chairman, underscores what I think you 
know as well as anybody, the rest of you on this subcommittee. 
The budget is not a collection of numbers. The budget is a 
representation of our values and of our priorities. And we are 
obviously making tough decisions about the budget this moment 
with our debt and deficit issues.
    We are grappling with those at the State Department, and I 
want to make it clear that I believe this budget helps us 
reduce the deficit responsibly while still investing in areas 
that will attract economic growth and create jobs for American 
workers, as well as secure our national interests.
    Our fiscal year 2014 budget request represents a 6-percent 
reduction from fiscal year 2012 funding levels, and it is also 
a reduction from fiscal year 2013. Fiscal year 2013 was a 
continuing resolution, as you all know. So that is why I did 
the comparison to fiscal year 2012.
    We have looked hard at where we can make savings. We have 
implemented reforms that reduce costs without jeopardizing 
vital contributions. And I think the budget delivers the 
maximum return on the invested dollar of our taxpayers, which 
is what they want.
    Let me give you a few examples of the kind of things we are 
doing at low cost. With just more than $3.5 million, the State 
Department's Bureau of Conflict and Stabilization Operations 
made key investments leading up to the recent elections in 
Kenya, and our Assistant Secretary for Africa Johnnie Carson 
and I were personally engaged with various parties, leaders, in 
helping to prevent the repeated violence of 5 years ago.
    Our antiterrorism assistance funding has helped save the 
lives of hundreds of people in places like Pakistan, India, 
Lebanon, by training local law enforcement to detect and 
neutralize explosive devices. And they have done so 
successfully and, therefore, saved the lives by virtue of that 
training.
    In addition, we have been able, through our cooperation, to 
prevent plots from playing out against the United States. Many 
of you are familiar with them through the classified process. 
They don't reach the light of day, but we know how dangerous it 
might have been had those people not been intercepted, had our 
law enforcement cooperative or intelligence cooperative or 
other foreign relationships not produced the leads that helped 
us intervene ahead of time.
    I have traveled to the Middle East already three times as 
Secretary, and North Africa. And there, we have a phenomenon 
taking place which requires a greater response, frankly, than 
even we are now currently able to provide, and we need to think 
about how we are going to change that, and I would love to talk 
to members about it.
    But leaders there are facing an enormous challenge with a 
huge burgeoning youth population, absence of jobs, increased 
radicalism, and we have to ask ourselves whether we are doing 
enough to respond to a growing pace of increase in extremism 
versus the adoption of rule of law and democratic process.
    That is our challenge, I think, in this generation, and I 
personally believe there are ways that we can address it. The 
President has directed me to evaluate a number of different 
options and propose them to him, and I think he is going to try 
to land on what he thinks is the best strategy. And then we 
will, undoubtedly, come to talk to you about this in greater 
length.
    Because in the Sahel, in the Maghreb, in the Arabian 
Peninsula, Syria, throughout the region, talk to any of the 
leaders, as I know you do, and they will tell you about their 
fears about radical extremism, religious exploitation, 
ideological extremism, and we need an answer to it. And I would 
say respectfully to everybody here, the answer is not just 
drones and SEAL teams. We have to find some other way of 
addressing this longer-term effort.
    To that end, the budget asks, at least initially, for $580 
million for the Middle East and North Africa Incentive Fund so 
that we can give reformers the tools and resources that they 
may begin to need in order to fight on behalf of these young 
people in the future. Remember, Tahrir Square was not an 
Islamic revolution. Nor was Tunisia.
    Tunisia was a fruit vendor who wanted dignity and respect 
and the ability to sell his goods. And he resented police 
officer intrusion on that process.
    Tahrir Square was a bunch of young people with their cell 
phones, excited about the possibilities of sharing the life 
that a lot of other people in the world get to live and hoping 
they could do so in Egypt. And it was later, when the military 
delivered an election, contrary to many people's expectations, 
that the Brotherhood came in and picked up the pieces.
    So we need to understand that as we go forward, and the 
simple fact is the United States cannot be strong at home if we 
are not strong in the world. And I think this is particularly 
true when it comes to our economic renewal.
    We believe we need to get out there and do more to stoke 
the engine of economic recovery for our country. The President 
has engaged in two critical initiatives to do that. One is the 
Transatlantic Trade and Investment Partnership, and the other 
is the Trans-Pacific Partnership.

                          PREPARED STATEMENTS

    And I would just share with colleagues how excited Europe 
is about that possibility. Turkey is excited and, though they 
are not in the European Union, would like to have a parallel 
negotiation because they don't want to be left out of it. 
Similarly, Japan has just come onboard in the Pacific, and I 
believe we have an enormous opportunity to kick our economies 
into gear, as well as raise the standards of trade on a global 
basis.
    [The statements follow:]
                  Prepared Statement of John F. Kerry
    Thank you Chairman Leahy and Ranking Member Graham. It's a 
privilege to be back among you all.
    Before I begin, I couldn't possibly come home to the Senate without 
addressing the terrorist attack in my home city of Boston, an attack 
that hit home for me--literally. I've talked with friends and family 
still wrestling with what happened to children and loved ones, and I am 
very sorry that I am unable to join President Obama at the memorial 
service today because my duties demanded I be here with you this 
morning. But I know just how resilient Bostonians are, and I want to 
echo all the admiration we hold for the people, both first responders 
and ordinary citizens, who didn't hesitate when the bombs went off--the 
people who ran into the chaos to help the victims, the marathoners who 
continued running to the hospital to donate blood, the citizens who 
opened their homes to offer comfort to strangers. Their actions are 
proof positive that the American people, and especially Boston, cannot 
be intimidated by cowardly acts of terrorism and destruction. My 
thoughts and prayers are with the families of the three victims who 
lost their lives--American victims and citizens of other countries, one 
just 8 years old--and with all those who were wounded. We will not rest 
until we have gotten to the bottom of these bombings and the 
perpetrators have been brought to justice.
    Turning to the business of the budget--promise to remember the most 
important lessons I learned during my time in the Senate. First, keep 
your remarks short so we can get to the questions.
    Second, a lesson which has hit home particularly during my travels 
as Secretary: there really is no longer anything foreign about foreign 
policy.
    As you have said yourself very eloquently, Senator Graham, 
America's investment in foreign policy is ``national security 
insurance.'' You're right. If we can make the small smart investments 
up front, we can avoid much more costly conflicts and burdens down the 
road.
    In the past few months, we have seen several developments that 
underscore the stakes for having a strong American presence in every 
part of the world. I've been in close contact with the Congress, and I 
have spoken with many of you--including Senator Leahy, Senator 
Lautenberg, and Senator Mikulski--to consult on key developments along 
the way.
    American engagement was essential to the rapprochement between two 
of our close partners--Israel and Turkey--a positive step toward 
stability in a volatile region of the world.
    This subcommittee is well aware of the ongoing crisis in Syria. We 
have contributed nearly $385 million in humanitarian relief to provide 
essential resources to the Syrian people, including sending flour to 
bakeries in Aleppo and providing food and sanitation in Atmeh refugee 
camp. I expect we will have the chance to discuss Syria at length 
today.
    Having just returned from Seoul, Beijing, and Tokyo where the North 
Korea nuclear issue took center stage, we are reminded once again that 
America is the guardian of global security. We will not turn our back 
on the prospect of peace, but neither will we hesitate to do what is 
needed to defend our allies and interests.
    All this speaks to why this budget isn't just a collection of 
numbers; it's an illustration of our values and priorities. Budgets, 
deficits, debt--these are weighty decisions, and I know each of you is 
grappling with them carefully.
    We are grappling with them at the State Department too, and I think 
our proposed budget is responsive to and reflective of our national 
economic reality. As part of the President's budget, it will help cut 
our deficit responsibly while investing in areas that attract economic 
growth, create good jobs for American workers, and secure our national 
interests.
    Our fiscal year 2014 budget request represents a 6-percent 
reduction from fiscal year 2012 funding levels. We have examined our 
request with a steely-eyed determination to improve efficiency and 
economize wherever possible. We have implemented reforms that reduce 
costs without jeopardizing vital contributions. This budget delivers 
maximum bang for the minimal possible taxpayer buck--actually, for 
about one single penny out of the taxpayer dollar.
    Let me give you a few examples of the kind of high-impact, low-cost 
work we do every day to make the world safer. With just more than $3.5 
million, the State Department's Bureau of Conflict and Stabilization 
Operations made key investments leading up to the recent elections in 
Kenya that helped prevent a repeat of the violence we saw 5 years ago.
    Our anti-terrorism assistance funding has helped save the lives of 
hundreds of people in places like Pakistan, India, and Lebanon by 
training local law enforcement to detect and neutralize explosive 
devices.
    Our fiscal year 2014 budget request maintains our commitments to 
advancing peace, security, and stability in places where all three can 
be scarce commodities. I've already traveled three times as Secretary 
to the Middle East and North Africa--a region struggling to respond to 
its citizens' growing expectations for dignity and opportunity. Leaders 
there are making difficult decisions, and the United States cannot make 
those decisions for them, but we can do more to be a partner for all 
those on the side of freedom and democracy.
    To that end, this budget includes a request for $580 million for 
the Middle East and North Africa Incentive Fund so that we can help 
give reformers the tools and resources they need to make the right 
decisions on behalf of their citizens. This fund allows us to say to 
people in the region: ``If you're willing to take on the deep-rooted 
challenges and make the tough choices, we are here for you.''
    When we look at the threats that emanate from failed and 
potentially failing states, we must heed the lessons of our past. The 
U.S. homeland will not be secure if violent extremists bent on 
attacking us find a safe haven in places like the Sahel or the Maghreb. 
The threats we're dealing with in that part of the world range from al-
Qaeda rebels to narcotraffickers. This budget sets aside $8.6 billion 
for our security, counterterrorism, and law-enforcement assistance. 
Compare that $8.6 billion to the more than $1 trillion we have spent 
fighting in Iraq and Afghanistan and I think you'll agree this is both 
a penny- and poundwise investment.
    The simple fact is, the United States cannot be strong at home if 
we're not strong in the world. This is particularly true when it comes 
to our domestic economic renewal.
    We need to do more to get out there and stoke our economic engines 
with the trade and business opportunities available in other countries. 
That's why the President is committed to successfully completing the 
Transatlantic Trade and Investment Partnership and the Trans-Pacific 
Partnership. We want to tap the growing markets of the Asia Pacific, 
which are vital to American economic recovery.
    When it comes to shoring up our economic health and protecting our 
national security, our development work is one of our strongest assets. 
Let me be clear: development is not charity. It's an investment in a 
strong America and a free world. Eleven of our top 15 trading partners 
were once beneficiaries of U.S. foreign assistance. We can't afford to 
pull back. But that doesn't mean we won't work in better, smarter ways.
    Let me highlight the reforms we are making with this budget to one 
of our most visible forms of assistance: U.S. food aid. By giving 
ourselves the flexibility to choose the most appropriate and efficient 
type of food assistance, the U.S. Government will reach an estimated 2-
4 million more people every year with the same discretionary funding. 
At the same time, we will save approximately $500 million in mandatory 
funding over the next decade, which we will use to reduce the deficit.
    American growers and producers will still play a major role in our 
food assistance. More than one-half of the funding we are requesting 
for emergency food aid must be used for the purchase and shipping of 
U.S. commodities overseas. But by giving us the ability to modernize, 
including the flexibility to also procure food aid in developing 
countries closer to crisis areas, not only can we feed more people, we 
can get food to malnourished people 11-14 weeks faster. Here's the 
bottom line: this change allows us to do more to help more people lift 
themselves out of hunger and poverty without spending any more money. 
That's a great deal for the American taxpayer.
    The final area I want to mention is how this budget cares for our 
most valuable resource: the brave men and women of the State Department 
and USAID. We have requested $4.4 billion to fortify our worldwide 
security protection and improve our overseas infrastructure. $2.2 
billion of this is set aside for constructing secure diplomatic 
facilities. This is part of our commitment to implement in full the 
recommendations of the independent Accountability Review Board so that 
we can mitigate the risk of future tragedies like the one we suffered 
last year in Benghazi.
    This has been a hard year for our State Department family--a family 
that knows how risky the work we signed up for can be in a very 
dangerous world. Just 2 weeks ago in Afghanistan we lost a bright, 
committed Foreign Service officer--Anne Smedinghoff. I met her on my 
last visit, and earlier this week, I sat with her parents. She was just 
25 years old. She wanted to make a difference in the lives of people 
she had never met, and she was willing to take risks to do it.
    Anne and Ambassador Chris Stevens really were cut from the same 
cloth. That's what made them such outstanding members of the State 
Department family, and such outstanding Americans.
    As Secretary, my most important job is to protect the men and women 
under my watch so they can carry out their national security mission. 
But we cannot do it by retreating from the world. We stand for optimism 
and opportunity and equality. And we stand in opposition to all those 
who would replace hope with hate. That's what we believe--and those are 
the values the State Department and USAID defend every day. Thank you.
                                 ______
                                 
   Prepared Statement of Harold W. Geisel, Deputy Inspector General, 
     Office of Inspector General, U.S. Department of State and the 
                    Broadcasting Board of Governors
    Chairman Leahy, Ranking Member Graham, and members of the 
subcommittee, I appreciate the opportunity to submit my written 
testimony in relation to your hearing on the administration's fiscal 
year 2014 budget request for the Department of State (Department).
    In its fiscal year 2014 budget guidance,\1\ the Office of 
Management and Budget (OMB) directed all Federal agencies to cut waste, 
set program priorities, and make targeted investments in critical 
areas. OMB also asked agencies to reduce overall requests by 5 percent 
below the net discretionary total of their fiscal year 2013 budgets. 
The Department's Quadrennial Diplomacy and Development Review (QDDR) 
also stressed the importance of working smarter and better prioritizing 
objectives.
---------------------------------------------------------------------------
    \1\ OMB Memorandum M-12-13, ``Fiscal Year 2014 Budget Guidance.''
---------------------------------------------------------------------------
                   department of state key challenges
    The Office of Inspector General (OIG) considers the following areas 
to be the most serious management and performance challenges to 
reducing waste, improving efficiencies, and achieving savings.
Contract and Procurement Management
    In fiscal year 2010, the OIG Office of Investigations (INV) 
refocused its mission, making procurement fraud its top priority. As a 
result, in the past 3 years INV referred 89 companies and/or 
individuals to the Office of the Procurement Executive (OPE) for 
suspension or debarment consideration, resulting in 83 of the companies 
or individuals being suspended and/or debarred. This is a marked 
increase from two total suspensions and/or debarments between fiscal 
year 2008-2010. In March 2012, an OIG investigation determined the 
principal officer of a then current Department contractor had been 
previously convicted on several fraud charges and was still debarred by 
the General Services Administration. INV issued Management Assistance 
Report C2010-031, recommending that OPE and the Bureau of 
Administration require all contractors to submit a list of all 
principal officers as part of the contract bidding package and to 
search the names of individuals listed to determine if any party had 
been suspended or debarred from Government contracting.
    Despite this progress in the fight against fraudulent activities, 
the Department continues to face challenges managing contracts and 
procurements. Although Departmental contracting activities have 
significantly increased from $1.8 billion in 2001 to $8.8 billion in 
2011,\2\ the Department has not met this considerable growth with a 
corresponding increase in contracting personnel to handle the 
workload.\3\ To meet the burgeoning demands for its services, the 
Department's Bureau of Administration increased its procurement staff 
from 109 contracting professionals in fiscal year 2009 to 146 in fiscal 
year 2011.\4\ In a draft report issued in April 2013, OIG cited other 
oversight agencies that had identified deficiencies in the Department's 
contract oversight.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2014 Bureau Resource Request, Bureau of 
Administration, May 31, 2012.
    \3\ State and DOD Should Ensure Interagency Acquisitions Are 
Effectively Managed and Comply with Fiscal Law (GAO-12-750, Aug. 2012).
    \4\ Fiscal Year 2014 Bureau Resource Request, Bureau of 
Administration, May 31, 2012.
---------------------------------------------------------------------------
    Specifically, between January 2009 and August 2012, OIG issued 17 
reports that included findings related to the lack of or inconsistent 
performance in monitoring procurements.
    For example, in September 2012, OIG assessed the Department's Motor 
Vehicle Fleet and found that the Department was not in compliance with 
regulations that require agencies to collect and report information on 
mileage, fuel use, and maintenance costs for each vehicle in the fleet 
and that available motor vehicle fleet utilization data were incomplete 
and not fully reliable. In compliance with OIG's recommendations, the 
Department expanded its fleet management plan and obtained usage 
information on more than 99 percent of vehicles in the fleet. As a 
result of these improved practices, the Department identified 2,124 
motor vehicles--with an estimated acquisition value of approximately 
$130 million--that could be eliminated from its inventory by the end of 
fiscal year 2015. The Department cited improved fleet management 
practices as a way to save future acquisition, maintenance, and fuel 
costs while still fulfilling mission requirements and providing world-
class customer service.
    To fulfill its unprecedented responsibilities in the Middle East, 
the Department has relied heavily on contractors for some critical 
goods and services,\5\ and OIG has identified instances in which poor 
contract monitoring resulted in increased costs and poor performance. 
OIG determined that the contracting officer's representatives (COR) for 
Embassy Baghdad's operations and maintenance contract had not verified 
contractor invoices against appropriate supporting documentation or the 
contract terms and conditions, resulting in erroneous payments to the 
contractor.\6\ OIG recommended that the Department direct the 
contracting officer to conduct a comprehensive review of all contractor 
invoices before the contract closed to ensure that unallowable costs 
are recovered.\7\ OIG conducted another audit \8\ of the Department's 
contract to provide movement security, specialized emergency services, 
and guard services for diplomatic missions in high threat areas. OIG 
found that only 253 of 513 movement security personnel provided by the 
contractor were used on average because the Department had not 
conducted a needs analysis for staffing requirements prior to awarding 
the task order. Consequently, the Department paid, at a minimum, $20.6 
million for unnecessary contractor security personnel rather than using 
the funds to address security needs in other regions.
---------------------------------------------------------------------------
    \5\ GAO-12-750.
    \6\ Evaluation of Invoices and Payments for the Embassy Baghdad 
Operations and Maintenance Contract (AUD-MERO-12-43, Aug. 2012).
    \7\ Ibid.
    \8\ Audit of Bureau of Diplomatic Security Worldwide Protective 
Services Contracts--Task Order 5 for Baghdad Movement Security (Feb. 
2013).
---------------------------------------------------------------------------
    OIG audits also found a pressing need for improved management and 
monitoring of grants and cooperative agreements in the Middle East. In 
Iraq, one grantee received eight grants, totaling about $130 million, 
to carry out local democracy-building programs. These eight grants 
exceeded their respective award budgets by a total of approximately 
$4.6 million because the Department did not adequately monitor program 
performance nor detect questionable charges. For example, security 
costs were not competed, and, as a result, the $64.3 million in 
security costs exceeded the $49.5 million in direct costs to carry out 
the Iraqi democracy-building programs. The Bureau of Near Eastern 
Affairs (NEA) had difficulty determining the origin and progress of 
some of its grants for capacity-building because of insufficient 
training, pressure to award grants quickly, and turnover in the bureau 
and at Embassy Baghdad.
    Proper oversight and accountability of grants, contracts, and 
cooperative and interagency agreements are continuing challenges in 
other regions as well. During inspections of the Bureau of 
Counterterrorism \9\ and the Bureau of Diplomatic Security's (DS) 
Office of Antiterrorism Assistance,\10\ which jointly manage 
antiterrorism assistance totaling about $200 million, OIG found that 
several program managers lacked program monitoring and evaluation 
training. In Beirut,\11\ the mission did not document the results of 
site visits to grantee locations, creating uncertainty on whether 
millions of dollars in grants and cooperative agreements were 
fulfilling intended purposes. In another audit, OIG found that a 
Department bureau did not always follow policy guidance on managing and 
monitoring more than $200 million in climate change grants and 
interagency acquisition agreements.
---------------------------------------------------------------------------
    \9\ Inspection of the Bureau of Counterterrorism (ISP-I-12-32A, 
June 2012).
    \10\ Inspection of the Bureau of Diplomatic Security, Office of 
Antiterrorism Assistance (ISP-I-12-31, June 2012).
    \11\ Inspection of Embassy Beirut, Lebanon (ISP-I-12-10A, Feb. 
2012).
---------------------------------------------------------------------------
    As of March 31, 2013, OIG's Office of Audits reported 36 additional 
``open'' OIG recommendations representing about $210.5 million in 
identified funds put to better use or questioned costs.
Transitions in Iraq and Afghanistan
    The United States completed its transition from a military-led to a 
civilian-led presence in Iraq in December 2011 and continues to plan 
and implement a similar transition in Afghanistan. In February 2012, 
the Department announced a formal effort to rightsize the United States 
mission in Iraq, resulting in a number of facility closures and 
staffing reductions.\12\ As the Department continues these efforts, it 
is important that mission priorities, security, and cost considerations 
are synchronized. The tradeoff between security and cost considerations 
when rightsizing a mission is made clear in recent analyses and 
estimates of the portion of costs that account for the security and 
support of programs in Iraq. In June 2012, the Government 
Accountability Office (GAO) reported that the Departments of State and 
Defense allocated approximately $4 billion toward the United States 
diplomatic presence in Iraq, 93 percent of which was designated solely 
for security and support costs.\13\ The Special Inspector General for 
Iraq Reconstruction (SIGIR) reported a similar analysis of the portion 
of support costs focused on the Police Development Program (PDP) in 
Iraq--a program to assist the Government of Iraq in strengthening rule 
of law. In July 2012, SIGIR reported that 94 percent of the PDP's 
projected fiscal year 2013 budget would be dedicated to support and 
security activities,\14\ and the Department continues to work with the 
Government of Iraq to define and facilitate a much smaller PDP than was 
originally envisioned.
---------------------------------------------------------------------------
    \12\ U.S. Embassy Baghdad, Special Briefing by Thomas Nides, Deputy 
Secretary of State for Management and Resources, ``Rightsizing U.S. 
Mission Iraq'', Feb. 8, 2012.
    \13\ Assessment of the Transition from a Military to a Civilian-Led 
Mission in Iraq: Hearing Before the Subcomm. on Nat'l Sec., Homeland 
Def. and Foreign Operations of the H. Comm. on Oversight and Gov't 
Reform, 112th Cong. (2012) (statement of Michael J. Courts, Acting 
Director, International Affairs and Trade, Government Accountability 
Office).
    \14\ Iraq Police Development Program: Lack of Iraqi Support and 
Security Problems Raise Questions about the Continued Viability of the 
Program (SIGIR 12-020, June 2012).
---------------------------------------------------------------------------
    On January 1, 2012, the Department became solely responsible for 
the U.S. Mission in Iraq and the associated foreign policy goals that 
aim to orient the Government of Iraq and the Iraqi economy towards 
self-sustainability and a strengthened democracy.\15\ Although the 
United States has completed the transition from a military-led to a 
civilian-led presence with significant measures of success, the nature 
and extent of the U.S. foreign policy goals and the attainment of those 
goals remain unclear amidst environmental and political uncertainty and 
lack of precedent for such a mission. The sustainment of the transition 
includes efforts to establish a long-term diplomatic presence leading 
to normalizing the bilateral relationship in economics, culture, 
diplomacy, and security; the internal stability of Iraq; and increased 
stability in the region and to provide the infrastructure necessary for 
the Department's long-term diplomatic mission including staffing, 
building, and supporting sites throughout Iraq.\16\
---------------------------------------------------------------------------
    \15\ These goals were laid out in two accords between the United 
States and the Government of Iraq: Agreement on the Withdrawal of 
United States Forces from Iraq and the Organization of Their Activities 
during Their Temporary Presence in Iraq, U.S.-Iraq, art. 24, par. 1, 
Nov. 17, 2008, Temp. State Dep't No. 09-6; Strategic Framework 
Agreement for a Relationship of Friendship and Cooperation, U.S.-Iraq, 
sec. III, Nov. 17, 2008, Temp. State Dep't No. 09-7.
    \16\ Staff of S. Comm. on Foreign Relations, 112th Cong., Iraq: The 
Transition from a Military Mission to a Civilian Led Effort (Comm. 
Print 2011).
---------------------------------------------------------------------------
    Embassy Baghdad, NEA, and the Bureau of Resource Management have 
made substantial progress establishing consulates and other support 
facilities and sustaining programs and operations. For example, the 
Department was able to assume responsibility for a multitude of support 
services that were previously provided by or procured by the Department 
of Defense, including security, air transportation, medical care, and 
some construction projects. Additionally, in January 2012, OIG reported 
that Embassy Baghdad's emergency action plan was adequately resourced 
and tested, which is key to the Embassy's ability to respond in 
emergency situations.\17\
---------------------------------------------------------------------------
    \17\ Evaluation of Emergency Action Plans for Embassy Baghdad and 
Consulates General Basrah and Erbil (AUD/MERO-12-18, Jan. 2012).
---------------------------------------------------------------------------
    In September 2011 and May 2012, OIG and the Special Inspector 
General for Afghanistan Reconstruction (SIGAR) reported on accounting, 
management, and cost reporting challenges the Department faced in 
conjunction with an increased civilian presence in Afghanistan.\18\ 
According to SIGAR's October 30, 2012, quarterly report to Congress, 
the Department was responsible for approximately $477 million (2.8 
percent) of $16.5 billion of U.S. Government funds spent on 
reconstruction programs in Afghanistan during fiscal year 2012.\19\ 
Challenges to the Afghanistan transition included increased costs 
associated with the assumption of Department of Defense security 
duties, costs of opening new consulates, and need for housing and 
office space for the increased civilian personnel. Establishment of 
additional facilities increased costs as the Department became 
responsible for supplies and all service provisions, including food, 
motor pools, vehicle repair, air traffic control at the airport, crash 
and rescue, medical evacuation, and hospital services, among others.
---------------------------------------------------------------------------
    \18\ The U.S. Civilian Uplift in Afghanistan Has Cost Nearly $2 
Billion, and State Should Continue to Strengthen Its Management and 
Oversight of the Funds Transferred to Other Agencies (AUD/SI-11-45, 
September 2011); Limited-Scope Audit of Department of State Management 
of the Afghanistan Civilian Uplift (AUD/SI-12-36, May 2012).
    \19\ Special Inspector General for Afghanistan Reconstruction, 
Quarterly Report to the United States Congress, Oct. 30, 2012.
---------------------------------------------------------------------------
Diplomacy with Fewer Resources
    OIG has also identified countries in other regions where the 
Department can carry out its mission with a smaller footprint. OIG has 
recommended that the Department consider closing or downsizing selected 
consulates; while the Department has downsized a number of consulates, 
none have been closed.
    OIG examined the Department's Regional Information Management 
Center (RIMC) in Frankfurt, Germany, and determined that moving 80 
percent of RIMC positions back to the United States would reduce the 
exposure of American personnel to security risks overseas and would 
save as much as $18.3 million a year in recurring administrative 
support costs. The RIMC deployed approximately 100 people overseas, but 
a majority of the work that staff members performed was not time 
sensitive and did not require their presence overseas. OIG believes 
that leaving 20 percent of the RIMC workforce deployed overseas would 
be sufficient to provide timely support for repairs or crises.
    In 2012, OIG recommended reducing overseas direct hire and locally-
employed staff positions. At Consulate General Hong Kong and the 
American Institute in Taiwan, consular officer visa workload declined 
significantly without commensurate staffing adjustments. OIG also found 
functions performed at overseas locations that could be performed more 
cost effectively from a lower cost mission or from domestic locations. 
In Vienna, OIG recommended that the Bureau of Population, Refugees and 
Migration (PRM) move a regional facility servicing refugees from Europe 
and the countries in the former Soviet Union to a lower cost location.
    In the 2011 inspection report \20\ of Embassy Berlin, OIG 
recommended that Consulates General Dusseldorf and Hamburg be 
significantly downsized, Hamburg's underutilized U.S. Government-owned 
property sold, and the replacement office space leased. Embassy Berlin 
concurred with OIG recommendations to drastically restructure the 
staffs at Consulates General Dusseldorf and Hamburg, to sell the U.S. 
Government-owned property in Hamburg, and to close the small consular 
operation in Leipzig. On August 20, 2012, Embassy Berlin implemented a 
major reduction in force of locally employed (LE) staff and planned the 
reprogramming or elimination of several U.S. direct-hire positions at 
the three consulates general.
---------------------------------------------------------------------------
    \20\ Inspection of Embassy Berlin, Germany (ISP-I-11-65A, Sept. 
2011).
---------------------------------------------------------------------------
    In fiscal year 2013, OIG inspected \21\ Embassy Bangui, Central 
African Republic, and determined that the embassy's management 
challenges were not being fully met. The embassy struggled to overhaul 
its operations after reopening in 2005, including doubling its U.S. 
direct-hire staff and a major restructuring of LE staffing--all in the 
absence of a permanent management officer. Excessive dependence on 
temporary duty support (about 10 temporary duty personnel a month in 
the past year) has compromised effective use of embassy resources and 
increased the cost of operating the embassy. Another issue is the 
Department's increasing dependence on automated management systems that 
impose a bureaucratic overhead on small posts with inexperienced staff. 
OIG strongly recommended that the Bureau of African Affairs assess the 
type of presence it wishes to maintain in the Central African Republic 
and develop a strategy to staff and support the embassy appropriately.
---------------------------------------------------------------------------
    \21\ Inspection of Embassy Bangui, Central African Republic (ISP-I-
13-13A, Feb. 2013).
---------------------------------------------------------------------------
    The Department has achieved limited success in eliminating 
redundant management platforms and services. Despite progress at many 
posts, redundancies remain in basic service areas, e.g., furniture and 
furnishings, motor transportation, administrative procurement, and LE 
staff recruiting.\22\ The QDDR underscores the Department's commitment 
to continue consolidating Department and U.S. Agency for International 
Development (USAID) administrative platforms.\23\ While the Department 
focuses on duplicative services maintained by USAID, OIG recommends it 
also review other sources of redundancy, particularly at posts with 
Narcotics Affairs sections \24\ and Centers for Disease Control 
offices.
---------------------------------------------------------------------------
    \22\ ISP-I-12-24A.
    \23\ The Department recently established a Joint Management Board 
with the U.S. Agency for International Development.
    \24\ Compliance Follow-up Review of Embassy Bogota, Columbia (ISP-
C-09-08A, Dec. 2008); Embassy La Paz, Bolivia (ISP-I-08-56A, Sept. 
2008).
---------------------------------------------------------------------------
Foreign Assistance Coordination and Oversight
    In fiscal year 2011, U.S. foreign assistance totaled $32 
billion,\25\ much of which was devoted to peace and security programs 
in Iraq, Afghanistan, and Pakistan and global HIV/AIDs prevention and 
democracy promotion activities. Foreign assistance coordination among 
agencies and Department bureaus remains inadequate.\26\ OIG has found 
duplication among agency programs and staffing. In the QDDR, the 
Department and USAID recognized the need to better coordinate programs 
and established a goal of empowering the Chief of Mission to better 
oversee all agency activities. Consistent with this goal, the Foreign 
Service Institute expanded coverage of development and foreign 
assistance management in its economic and political courses, including 
a new course on development and diplomacy.
---------------------------------------------------------------------------
    \25\ Fiscal Year 2011 Congressional Budget Justification for 
Foreign Operations.
    \26\ Inspection of Embassy Nairobi, Kenya (ISP-I-12-38A, Aug. 
2012); Inspection of Embassy Pretoria, South Africa, and Constituent 
Posts (ISP-I-11-42A, June 2011); Compliance Followup Review of Embassy 
Islamabad and Constituent Posts, Pakistan (ISP-C-12-28A, May 2012); 
Compliance Followup Review of Embassy Kabul, Afghanistan (ISP-C-11-53A, 
June 2011).
---------------------------------------------------------------------------
    Of the seven Department-managed programs currently operating in 
Afghanistan, the International Narcotics Control and Law Enforcement 
(INCLE) program, operated by the Bureau of International Narcotics and 
Law Enforcement Affairs (INL), received approximately $324 million in 
fiscal year 2012, roughly 68 percent of the Department's total 
appropriation for Afghan reconstruction that year. In December 2009, 
OIG reported that ``the Department of State lacks a long-term strategy 
and a clear end state for its counternarcotics programs in Afghanistan, 
which hinders planning and prevents an accurate assessment of 
effectiveness.'' \27\ OIG found impediments to adequate Department 
planning and oversight in the form of the Afghan Government's weak 
judicial system, internal corruption, economic uncertainty, financial 
fraud, religious conflicts, unstable security, and uncontrolled 
borders. OIG recommended that INL establish clearly defined and 
measurable performance objectives, milestones, and benchmarks for a 
comprehensive counternarcotics plan; and increase coordination and 
communication between appropriate embassies, bureaus, industry experts, 
Provincial Reconstruction Teams, and Afghan officials and local 
citizens to garner support, knowledge, and skill for collaborative 
counternarcotics efforts. Although INL and Embassy Kabul concurred with 
OIG's recommendations and made progress toward implementation, the same 
external obstacles to oversight persist.
---------------------------------------------------------------------------
    \27\ Status of INL Counternarcotics Programs in Afghanistan (MERO-
A-10-02, Dec. 2009).
---------------------------------------------------------------------------
    In fiscal year 2011, the Congress awarded the second largest 
portion of the Department's Afghan reconstruction appropriations, 
approximately $65 million,\28\ to humanitarian efforts in the form of 
PRM's Migration and Refugee Assistance program. In a July 2011 MERO 
report \29\ on reintegration assistance for refugees returning to 
Afghanistan, OIG found that the Department's partnership with the 
United Nations High Commissioner for Refugees (UNHCR) and other 
nongovernmental organizations had been generally successful in 
providing medical examinations, cash stipends, and shelter materials to 
returning refugees. However, OIG further stated that ``[b]ecause of the 
Afghan Government's inability to provide adequate assistance to 
returnees, the international community mainly bears the burden.'' \30\ 
OIG identified an example of this inequitable distribution in the 
poorly administered Afghan Government's Land Allocation Scheme, 
originally designed to award land plots to returning refugees. Citing 
mismanagement and failure to achieve intended goals, the UNHCR withdrew 
financial support from the program and attempted to supplement the 
absence of land awards with its own infrastructure projects and revenue 
generating programs. As land disputes and security concerns continue to 
jeopardize the delivery of assistance to returnees, PRM is often forced 
to enlist third-party proxies, which further complicate our ability to 
comprehensively monitor direct funds.
---------------------------------------------------------------------------
    \28\ Joint Strategic Oversight Plan for Afghanistan Reconstruction 
Fiscal Year 2013.
    \29\ PRM's Reintegration Assistance Program for Refugees Returning 
to Afghanistan (MERO-1-11-10, July 2011).
    \30\ Ibid.
---------------------------------------------------------------------------
    Given rapidly changing relationships and events in frontline states 
and at other missions, regularly evaluating programs is critical. At 
Embassy Beirut,\31\ OIG noted that the mission had successfully 
increased and recalibrated assistance programs totaling $238 million to 
strengthen Lebanese civil society and institutions after Syrian troops 
withdrew in 2005. At Embassy Islamabad,\32\ OIG highlighted the 
mission's challenge in executing extensive assistance programs, as most 
programs were envisioned as part of a 2009 grant engagement strategy. 
Changes in the bilateral relationship between the United States and 
Pakistan coupled with pervasive corruption and a lack of absorptive 
capacity in many levels of government, a daunting security environment, 
and a shortage of secure office space and staffing had contributed to a 
large pipeline of unspent assistance funding. OIG recommended the 
Department review all staffing plans, requests, and construction 
projects with an eye to scaling them back. The mission completed a 
rightsizing review and reduced its projected 5-year staffing numbers by 
200 positions, required project-based or time-specified positions to be 
re-evaluated in a timely manner, and identified problems that would 
jeopardize the viability of current and proposed construction projects 
if changes in the scale of foreign assistance to Pakistan occur.\33\
---------------------------------------------------------------------------
    \31\ ISP-I-12-10A.
    \32\ ISP-C-12-28A.
    \33\ Embassy Islamabad compliance correspondence (12 MDA 25018).
---------------------------------------------------------------------------
Financial Management
    Financial management continues to be a significant challenge for 
the Department. During the audit of the fiscal year 2011 financial 
statements, an independent auditor identified potentially material 
amounts related to after-employment benefits provided to LE overseas 
staff that had not been previously reported on the Department's 
financial statements, which impacted the fiscal year 2011 and 2010 
financial statements. The independent auditor also identified 
significant internal control deficiencies related to financial 
reporting, property and equipment, budgetary accounting, unliquidated 
obligations, accounts payable accruals, and information technology.\34\ 
In fiscal year 2011, the Department made progress toward improving 
controls over financial management. For instance, the Department took 
actions to address certain aspects of the deficiency related to after-
employment benefits. However, the Department acknowledged that the 
deficiencies identified in the financial statement audit report would 
require more attention and improvement.\35\
---------------------------------------------------------------------------
    \34\ Independent Auditor's Report on the U.S. Department of State 
2011 and 2010 Financial Statements (AUD/FM-12-05, Nov. 2011).
    \35\ Ibid.
---------------------------------------------------------------------------
    OIG conducted a survey of voucher processing to assess the 
Department's use of the Bureau of the Comptroller and Global Financial 
Services (CGFS)/Post Support Unit (PSU). Resulting analysis of 
International Cooperative Administrative Support Services data and post 
inspection fieldwork revealed that it is more economical to outsource 
vouchering than to hire or replace local staff. The report highlighted 
that PSU charges $12 per voucher strip code whereas the average cost 
per strip code at embassies was $34. At a number of missions, including 
those in Paris, London, and Rome, costs exceeded $50 per strip code. 
Accordingly, OIG made formal recommendations to outsource a portion of 
post voucher workload to CGFS/PS for an approximate cost savings of up 
to $18 million.
Information Security and Management
    The Department continues to struggle with the implementation of a 
fully effective information security management program. During the 
fiscal year 2012 Federal Information Security Management Act of 2002 
(FISMA) audit,\36\ OIG determined that the Department had not 
documented policy and procedures to identify baseline controls nor 
effectively implemented FISMA and OMB requirements in support of 
information technology systems. OIG made 31 recommendations to enhance 
information programs and to protect infrastructure critical to the 
preservation of national security. During recent inspections, OIG also 
identified information systems security shortcomings that leave 
embassies vulnerable to cyber security attacks. Information systems 
staff often lack appropriate security training.\37\ At a number of 
posts, Information Systems Security Officers are not performing 
required duties \38\ primarily because of competing priorities, 
inadequate guidance, or a lack of planning. To strengthen security 
measures and facilitate security checks, OIG has recommended that 
domestic bureaus consolidate classified materials and processing 
equipment in interior, enclosed, secure offices rather than scattering 
classified resources in several locations.\39\
---------------------------------------------------------------------------
    \36\ Evaluation of Department of State Information Security Program 
(AUD-IT-13-03, Nov. 2012).
    \37\ Inspection of Embassy Algiers, Algeria (ISP-I-12-06A, Jan. 
2012); Inspection of the American Institute in Taiwan (ISP-I-12-12A, 
Feb. 2012).
    \38\ ISP-I-12-06A. Inspection of Embassy Port-au-Prince, Haiti 
(ISP-I-12-24A, May 2012); Inspection of Embassy Beirut, Lebanon (ISP-I-
12-10A, Feb. 2012).
    \39\ Inspection of the Bureau of Consular Affairs, Directorate of 
Overseas Citizens Services, Office of Children's Issues, Office of 
Policy Review and Interagency Liaison, and the Planning, Programs, and 
Systems Liaison Division (ISP-I-12-21, May 2012).
---------------------------------------------------------------------------
    In addition, the Department continues to have problems with systems 
development, as noted in the inspection of the Bureau of Consular 
Affairs' Office of Consular Systems and Technology.\40\ Often domestic 
bureaus and offices do not follow mandated systems development life-
cycle requirements. In the Bureau of Educational and Cultural 
Affairs,\41\ insufficient stakeholder involvement resulted in a system 
that did not meet user needs, and many offices developed separate 
systems to fill the gaps. OIG also found insufficient documentation 
supporting system changes and inadequate security and vulnerability 
testing. There is no Department-mandated methodology for documenting 
compliance with systems development life-cycle requirements, the 
absence of which contributes to these shortcomings.\42\
---------------------------------------------------------------------------
    \40\ Inspection of the Bureau of Consular Affairs, Office of 
Consular Systems and Technology (ISP-I-11-51, May 2011).
    \41\ Inspection of the Bureau of Educational and Cultural Affairs 
(ISP-I-12-15, Feb. 2012).
    \42\ Inspection of the Bureau of Information Resource Management, 
Systems and Integration Office (ISP-I-12-30, June 2012).
---------------------------------------------------------------------------
    Information technology (IT) contingency planning is critical to 
ensure that systems are protected and can quickly resume operations 
after unforeseen incidents, such as power outages, equipment failures, 
or natural disasters. In December 2011, OIG noted that in 20 of 50 (40 
percent) recent inspections, IT contingency planning shortcomings were 
identified.\43\ OIG recommended that the Department track bureau and 
post compliance with IT contingency planning requirements, incorporate 
contingency planning in Department-wide IT risk scoring methodology, 
and consider adherence to contingency planning requirements in 
performance appraisals of responsible systems owners and IRM personnel.
---------------------------------------------------------------------------
    \43\ Memorandum Report--Improvements Needed in Information 
Technology Contingency Planning (ISP-I-12-04, Dec. 15, 2011).
---------------------------------------------------------------------------
Effective Embassy Leadership
    Ensuring that leaders and managers with appropriate skills lead our 
missions remains a challenge. OIG continues to find deficiencies in 
senior leadership at some overseas locations. While most leaders of 
missions abroad are performing very well, especially in areas such as 
advocating U.S. policies and actively engaging in public diplomacy, 
some are falling short in managing their missions. This has resulted in 
reduced productivity and effectiveness, low morale, and costly 
personnel curtailments.
    Some leaders have demonstrated a lack of discipline in deploying 
personnel and financial resources. Some Chiefs of Mission have tasked 
their staff with numerous personally generated initiatives, which take 
time and resources away from work that is more central to advancing 
high-priority policy objectives. Some leaders fall short in developing 
and motivating staff, and some treat staff poorly. A very few have been 
insufficiently attentive to required security procedures.
    All Chiefs of Mission and Deputy Chiefs of Mission, no matter how 
successful, could improve their performance based on feedback from 
their staff and their colleagues in the Department and other Government 
agencies. For this reason, in 2010, OIG recommended that the Department 
institute a system to regularly assess the performance of leaders 
overseas and in the United States and to take remedial actions when 
necessary, including training, counseling, and, if necessary, 
reassignment.\44\ While the Department's QDDR process has focused 
attention on strengthening leadership of overseas missions, there has 
been little progress on this issue during the past year. OIG continues 
to provide advice to the Department based on its inspections.
---------------------------------------------------------------------------
    \44\ Memorandum Report--Implementation of a Process to Assess and 
Improve Leadership and Management of Department of State Posts and 
Bureaus (ISP-I-10-68, June 29, 2010).
---------------------------------------------------------------------------
Protection of People and Facilities
    Despite the significant associated cost, the Department's highest 
priority is the safety and security of personnel and resources at both 
domestic and overseas posts. Protecting people, facilities, and 
information in areas of armed conflict and at missions rated critical 
for terrorist threat is a particular challenge. The conditions 
confronting U.S. Government personnel abroad are fraught with security 
risks, as evidenced by the September 2012 attack on the U.S. diplomatic 
post in Benghazi, Libya, that killed four Americans, including the 
American Ambassador. This month, another young Foreign Service officer 
was killed and several of her colleagues were injured by a blast from 
an improvised explosive device while delivering donated books to a 
school in the Zabul province of Afghanistan.
    Over the past year, OIG has conducted two extensive audits of the 
Department's compliance with existing physical security standards at 10 
overseas posts chosen for their locations in volatile political 
climates. OIG found that selected posts were not always in compliance 
with current physical security standards and that common physical and 
procedural security deficiencies occurred among the posts reviewed.\45\ 
As fiscal demand to ensure adequate security measures at international 
posts increases, financial reserves devoted to physical security in 
domestic offices are progressively strained.\46\ DS established 
physical security standards for the Department's domestic facilities a 
few years ago in response to an executive order.\47\ DS, responsible 
for compliance with security standards, designs security features for 
upgrades and coordinates funding with Department bureaus that request 
security upgrades.\48\ In recent domestic inspections, OIG found 
required upgrades had not occurred because of a lack of funding.
---------------------------------------------------------------------------
    \45\ OIG defined common deficiencies as deficiencies found in two 
or more of the five posts reviewed.
    \46\ Fiscal Year 2014 Bureau Resource Request, Bureau of Diplomatic 
Security.
    \47\ Standards were patterned after the security standards issued 
by the Interagency Security Committee, under the Department of Homeland 
Security, as authorized by Executive Order 12977.
    \48\ 1 FAM 262.1-1(B), ``Facilities Security Division.''
---------------------------------------------------------------------------
    The Department is further challenged to foster better cooperation 
with host nations and to effectively manage its security programs under 
sometimes precarious conditions. At some of these missions, the host 
government sponsors or turns a blind eye to the harassment and 
intimidation of mission personnel, both American and local 
national.\49\ At one mission, the host government slowed visa issuance 
to security personnel to a trickle. At another, the host government 
interfered with incoming classified and unclassified diplomatic 
pouches. These actions severely hampered the mission's security 
operations.
---------------------------------------------------------------------------
    \49\ Embassy Sanaa, Yemen (ISP-I-10-63A, June 2010) and ISP-S-12-
28A.
---------------------------------------------------------------------------
    In the wake of the Department's recent losses overseas, the 
Congress has shown tremendous support for our Foreign and Civil Service 
personnel working to promote international diplomacy abroad by 
appropriating an additional $2 billion to support strengthened Embassy 
and consulate security this year. While we recognize that the expense 
to improve security is considerable, especially during difficult times 
of fiscal constraint, the alternative cost--the lives of our 
diplomats--is a far greater price to pay. OIG remains committed to 
ensuring that the congressional appropriations designated to protect 
our personnel are put to worthwhile use and appropriately monitored.
             broadcasting board of governors key challenges
    Our oversight responsibilities also include Broadcasting Board of 
Governors (BBG) programs and activities, and we have identified 
broadcasting efficiency and financial management as challenges to 
reducing waste, improving efficiencies, and achieving savings.
Effective Broadcasting
    BBG plans to reallocate resources from less effective transmission 
technologies to newer, more popular media. OIG found that International 
Broadcasting Bureau (IBB) transmitting stations in Thailand and Germany 
had implemented cost-saving measures, including automating shortwave, 
medium wave, and frequency modulation transmission platforms and using 
the latest antenna technology for shortwave transmissions.\50\ In 
Thailand, these measures could annually save $1.2 million annually; 
however, plans to cut costs by privatizing operations at the Udorn, 
Thailand station had been on hold for 2 years as BBG headquarters 
considered the future of that station. OIG recommended BBG's final 
privatization proposal address a number of U.S. laws and regulations to 
include those requiring full and open competition and certification 
that contractors would not perform inherently governmental 
functions.\51\
---------------------------------------------------------------------------
    \50\ Broadcasting Board of Governors' Operations in Thailand (ISP-
IB-11-33, March 2011); International Broadcasting Bureau's Germany 
Transmitting Station (ISP-IB-11-66, Sept. 2011).
    \51\ Broadcasting Board of Governors' Operations in Thailand (ISP-
IB-11-33, Mar. 2011); Compliance Followup Review of Broadcasting Board 
of Governors' Operations, Thailand (ISP-IB/C-12-34, June 2012).
---------------------------------------------------------------------------
Executive Management
    OIG found \52\ the nine-member BBG to be committed to the goals of 
U.S. international broadcasting, characterized by journalism of the 
highest caliber and a commitment to supporting democracy and freedom; 
however, the Board was failing in its mandated duties, including 
implementation of key aspects of its 5-year strategic plan. The Board's 
dysfunction stemmed from a flawed legislative structure; acute internal 
dissension; chronic vacancies and absences of members; and a part-time 
schedule that did not allow for effective supervision of broadcasting. 
The system that allowed Governors to serve concurrently on the Board 
and the corporate boards of the broadcast entities created conflicts of 
interest and confusion regarding roles and responsibilities. BBG also 
lacked a comprehensive travel policy for both domestic and 
international official trips.
---------------------------------------------------------------------------
    \52\ Inspection of the Broadcasting Board of Governors (ISP-IB-13-
07, Jan. 2013).
---------------------------------------------------------------------------
    OIG recommended that BBG coordinate with OMB and congressional 
oversight committees to propose new legislation for international 
broadcasting that includes enhancing authority for the Board Chairman 
in Board governance and focusing the Board on its strategic oversight 
and direction roles; appointing a chief executive officer to coordinate 
operational aspects of the broadcast entities and their support 
structure; removing Governors from the corporate boards of the 
broadcast entities; and implementing a mechanism for censure or removal 
of Governors for actions that impede the Board's execution of its 
duties. OIG also made recommendations for BBG to implement a 
comprehensive travel policy that relates Board travel to strategic 
objectives and followup actions and to strengthen internal Board 
governance.
Financial Management
    Financial management continues to be a challenge for BBG. In 2011, 
BBG received an unqualified opinion \53\ on its financial statements. 
Although this is an achievement, the independent auditor identified 
significant internal control deficiencies related to property and 
equipment, unliquidated obligations, and after-employment benefits for 
LE staff. BBG planned to strengthen internal control over property and 
equipment to ensure property transactions are timely and accurately 
recorded by expanding training. In addition, BBG planned to refine the 
standard process for recording acquisition and disposal information. 
BBG had implemented a new monthly process to facilitate the timely 
review of unliquidated obligations, upon which BBG planned to expand to 
ensure a systemic process is in place to deobligate unneeded 
obligations. BBG also planned to develop and maintain and inventory of 
after-employment benefits provided to local employees.
---------------------------------------------------------------------------
    \53\ Independent Auditor's Report on the Broadcasting Board of 
Governors 2011 and 2010 Financial Statements (AUD/IB-12-07, Nov. 2011).
---------------------------------------------------------------------------
                               conclusion
    During this marked time of fiscal challenge, we must remain ever-
vigilant of our grave obligation to American taxpayers to ensure the 
most economic, efficient, and effective use of Department resources. In 
fiscal year 2014, as in years past, we will continue to devote our best 
efforts in pursuit of this goal and in furtherance of our mission to 
promote ``effective management, accountability, and positive change.'' 
I am grateful for your support and consideration.
                                 ______
                                 
 Prepared Statement of Stuart W. Bowen, Jr., Special Inspector General 
                        for Iraq Reconstruction
    Chairman Leahy, Ranking Member Graham, and members of the 
subcommittee, it is an honor to provide the Special Inspector General 
for Iraq Reconstruction's (SIGIR's) written statement for the 
subcommittee in support of your hearing on the administration's fiscal 
year 2014 budget request.
    You requested that I summarize the lessons learned from my Iraq 
oversight mission as they apply to reducing waste, improving 
efficiencies, and achieving savings of taxpayer dollars.
    Putting my conclusions up front, I believe that the Congress 
should:
  --reform the way the Government plans, funds, executes, and accounts 
        for the expenditures on and the effects of stabilization and 
        reconstruction efforts;
  --reform the management practices of civilian foreign policy agencies 
        in post-conflict situations; and
  --ensure the provision of robust, aggressive, and continuous 
        oversight of all aspects of stabilization and reconstruction 
        operations by establishing a permanent oversight capacity for 
        such operations within the executive branch.
    Too little attention has been paid to the effects and results of 
U.S. rebuilding programs in Iraq. Our recent report, Learning From 
Iraq, delves into this issue. It underscores the fact that the focus in 
Iraq was on outputs not outcomes. Requiring evaluations of programs 
could be a good remedy with regard to closing this reporting gap for 
future operations and programs.
    It is avowedly challenging to measure the effects and results of 
stabilization and reconstruction programs. We are aware of efforts 
under way in the development world, familiar to the subcommittee, to do 
a better job in this regard. I need to stress that having a positive 
impact is, in the case of stabilization and reconstruction work, a 
national security imperative; failing to do so wastes not just money 
but can contribute to the tragic loss of human life. We documented the 
deaths of at least 719 Americans, Iraqis, and third-country nationals 
that occurred while these individuals were supporting reconstruction 
efforts. Among those casualties were at least 318 Americans--U.S. 
military, Federal civilian employees, and U.S. civilian contractors. 
Our collective obligation to those who gave their all for the Iraq 
effort must be to effect real change in how we plan and conduct 
stabilization and reconstruction operations (SROs).
    SIGIR's 390 audits and inspections reveal a lack of unity of 
command and thus poor unity of effort within the Iraq program. In 
particular, the Department of State did not exercise management 
controls consistent with its prerogatives, either as provided in law 
(through Chief of Mission authority) or in Presidential directives 
(such as NSPD-36), over the activities of other agencies. In 
particular, the Department of Defense often executed projects only 
nominally overseen by civilian agencies.
    An ad hoc approach prevailed in Iraq. Effective action depended on 
the ability of the most-senior individuals to work well together. No 
coherent integrated institutional capacity existed. Temporary 
organizations, both civilian and military, were established and then 
abolished with mind-numbing abandon.
    Stabilization and reconstruction operations are simply too 
important for ad hoc solutions to persist. It is unfortunately the case 
that some government managers disdain planning. Thus, to ensure proper 
planning for SROs, the Congress must legislate to require it. Although 
future SROs will probably be on a smaller scale than those we saw in 
Iraq or Afghanistan, such operations could easily be on the scale of 
what we saw in the Balkans, which were not small. A legislated solution 
to our extant SRO problem is crucial to protecting our national 
security interests in the future. Chapter Six in Learning From Iraq 
outlines just such a solution.
    The key lessons from our audit, inspection, and investigative 
efforts are set out below. Additional information on SIGIR's activities 
is found at the end of this statement.
                      lessons learned from audits
    During the course of conducting 220 audits, SIGIR identified a 
number of critical deficiencies in reconstruction planning, 
implementation, and oversight. The problems ranged from the absence of 
assessments on the security situation to inadequate internal controls 
that would ensure that the U.S. received the goods and services it was 
buying and at a reasonable price.
    The numerous problems uncovered in SIGIR's audits contributed 
significantly to reduced program effectiveness and increased potential 
for fraud, waste, and abuse. If the causes and effects of these 
problems are not fully understood and actions are not taken to 
forestall their recurrence, similar negative outcomes will recur in 
future SROs.
    The principal lessons learned are:
  --A Successful SRO Requires a Balancing of Security, Political, and 
        Economic Interests
    --Risks of violence must be assessed at the SRO's outset.
    --Risks to human life must be weighed against potential outcomes.
    --Costs and benefits of initiating projects requiring high security 
            costs must be carefully weighed.
  --A Successful SRO Requires an Integrated Management Structure That 
        Provides Clear Lines of Authority on Program Coordination and 
        Delivery of Projects
    --Defining roles and missions of all involved U.S. agencies is a 
            necessary prerequisite for effective reconstruction 
            planning.
    --Programs require management accountability and effective 
            coordination to avoid waste.
  --A Successful SRO Requires an Integrated U.S. Reconstruction 
        Management Information System to Ensure Effective 
        Accountability
  --A Successful SRO Requires Integrated Personnel Practices that 
        Reduce Turnover and Deploy the Right Skill-Sets to the Right 
        Places
    --Obtaining the required number of skilled personnel is essential 
            in managing reconstruction during an SRO.
    --Reducing turnover of contract and program management personnel is 
            necessary for effective management.
  --A Successful SRO Requires Strong Oversight of Contracts, Grants, 
        and Other Procurements To Limit Fraud, Waste, and Abuse
    --Advance planning reduces fraud, waste, and abuse.
    --Reviews of contractor invoices and audits of final incurred costs 
            can ensure payments are correct.
    --Close oversight of deliverables and inventory promotes contract 
            compliance and deters loss and theft.
    --Close oversight of cash transactions deters fraud, waste, and 
            abuse.
    --Grants awarded in Stabilization and Reconstruction Operations 
            require stronger oversight than those awarded in stable 
            areas.
    --Maintaining comprehensive contract and project records promotes 
            effective oversight.
  --A Successful SRO Needs Clear and Measurable Goals and Objectives
  --A Successful SRO Works Closely with Host Governments to Promote 
        Program and Project Sustainment
    --Host governments must be involved in identifying sustainable 
            reconstruction priorities and needs.
    --Obtaining host-government cost sharing ensures long-term 
            sustainment.
  --Accountability and Oversight of Private Security Contractors Is 
        Vital in Politically Sensitive Contingency Operations
    --Establishing core standards and immediately investigating 
            possible breaches ensures that the use of private security 
            contractors does not adversely affect the mission.
    --Obtaining an accurate accounting of private security contractor 
            costs is essential for planning and budgeting operations.
                    lessons learned from inspections
    During the course of its 170 project assessments, SIGIR' s 
Inspections Directorate identified 13 essential lessons about project 
planning, execution, and oversight in a stabilization and 
reconstruction operation and a re as follows.
  --Achieve a secure environment before initiating major reconstruction 
        activities.
  --Enforce contracts to reward good performance and hold poor 
        performers accountable.
  --Design projects in accord with the host nation's capacity to 
        maintain and sustain them.
  --If a project requires sophisticated equipment, encourage the host 
        nation to contract for operations and maintenance with a 
        qualified contractor until organic capacity is established.
  --Base project reporting on actual construction progress and not on 
        the amount that the contractor has been paid to date.
  --Ensure that contractor invoices are reviewed by U.S. construction 
        management before payment is made.
  --Do not allow construction activities to begin before detailed 
        drawings have been prepared and approved.
  --Design projects that anticipate potential limitations of electrical 
        power and potable water sources.
  --Require oversight managers to regularly visit sites as part of a 
        project's quality assurance program.
  --When designing projects, work with host nation users to create 
        effective, usable, and culturally sensitive facilities.
  --Enhance coordination and decision making by consolidating all 
        project data in a unified information management system.
  --Do not underestimate the importance of relatively small ``last-
        mile'' projects to the success of large-scale reconstruction 
        projects.
  --Minimize use of ``nested tiers'' of subcontractors in stabilization 
        and reconstruction operations.
                  lessons learned from investigations
    During the course of its work investigating possible crimes 
committed during Iraq reconstruction SIGIR identified 10 lessons that 
would be applicable under similar circumstances.
  --Ensure that law-enforcement agencies have appropriate investigative 
        plans and procedures in place before an SRO begins, with 
        trained personnel who are well prepared to carry them out. SRO 
        investigators should have white-collar fraud experience.
  --Use non-law-enforcement forensic assets, such as auditors and 
        inspectors, to generate leads for investigations. A number of 
        early cases had their foundations in SIGIR audit or inspection 
        findings. We formed forensic teams that combined auditors and 
        investigators.
  --Pursue a holistic approach to case management that integrates the 
        efforts of in-theater investigators with U.S.-based 
        investigators and prosecutors. In concert with the Department 
        of Justice (DOJ), SIGIR created a new program in 2009 called 
        SIGPRO (SIGIR Prosecutorial Initiative), in which the Inspector 
        General hired prosecutors and paralegals and detailed them to 
        the Fraud Section of the Criminal Division of DOJ to work on 
        Iraq criminal cases. The work of the SIGPRO prosecutors has 
        resulted in three court precedents: one affirmed The Wartime 
        Suspension of Limitations Act, title 18 United States Code 
        (U.S.C.), section 3287; another extended the extra-territorial 
        jurisdiction of title 18 U.S.C. 208, Conflict of Interest; and 
        the third extended the extra-territorial jurisdiction of title 
        18 U.S.C. 641, Theft of Public Funds.
  --Maintain strong relations with host-country law-enforcement 
        officials to bolster case development, evidence gathering, and 
        the pursuit of potential suspects in country.
  --Avoid bureaucratic turf battles among law-enforcement agencies by 
        building a task-force approach that brings all agencies 
        together around the law-enforcement mission.
  --Ensure flexibility in personnel requirements, staffing numbers, and 
        deployment procedures. SIGIR's enabling statute provided 
        employment flexibilities, permitting the dynamic management of 
        investigative personnel. Standard U.S. Government personnel 
        regulations are too unwieldy for use in highly demanding SRO 
        environments.
  --Prioritize using advanced criminal-intelligence techniques and 
        developing informants in theater. SIGIR successfully used 
        undercover stings, the ``wiring'' of informants, and a variety 
        of technical capabilities.
  --Engage with partner-nation law-enforcement agencies to prosecute 
        non-U.S. criminals. SIGIR developed relationships with law-
        enforcement agencies in Coalition-member countries, allowing 
        the prosecution and conviction of non-U.S. personnel in their 
        home jurisdictions.
                               conclusion
    Chairman Leahy, Ranking Member Graham, and members of the 
subcommittee, thank you for your indispensible support to SIGIR over 
the years. I hope this statement and the audits, inspections, 
investigations, and studies that support our recommendations have 
proven helpful to you. We stand ready to respond to any follow-up 
inquiries you may have.

                      SIGIR SUMMARY OF PERFORMANCE
                           [As of April 2013]
------------------------------------------------------------------------
 
------------------------------------------------------------------------
AUDITS                                                        CUMULATIVE
------------------------------------------------------------------------
Reports Issued..........................................             220
Recommendations Issued..................................             487
Potential Savings if Agencies Implement SIGIR
 Recommendations to:
    Put Funds to Better Use ($ Millions)................         $973.62
    Disallow Costs SIGIR Questioned ($ Millions)........         $640.68
------------------------------------------------------------------------
INSPECTIONS
------------------------------------------------------------------------
Project Assessments Issued..............................             170
Limited On-site Assessments Issued......................              96
Aerial Assessments......................................             923
------------------------------------------------------------------------
INVESTIGATIONS
------------------------------------------------------------------------
Investigations Initiated................................             638
Investigations Closed or Referred.......................             577
Open (Active) Investigations............................              61
Arrests.................................................              41
Indictments.............................................             105
Convictions.............................................              83
Sentencings.............................................              72
Monetary Results ($ Millions)...........................          $192.0
------------------------------------------------------------------------
HOTLINE CONTACTS
------------------------------------------------------------------------
Email...................................................             413
Fax.....................................................              19
Mail....................................................              30
Referrals...............................................              26
SIGIR Website...........................................             200
Telephone...............................................              84
Walk-in.................................................             112
                                                         ---------------
      Total Hotline Contacts............................             884
------------------------------------------------------------------------
OTHER PRODUCTS
------------------------------------------------------------------------
Congressional Testimony.................................              36
Lessons Learned Reports.................................               9
Special Reports.........................................               3
Evaluation Reports......................................               1
Quarterly Reports.......................................              35
------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of John F. Sopko, Special Inspector General for 
                              Afghanistan
 reducing waste, improving efficiencies, and achieving savings in the 
              united states reconstruction of afghanistan
    Chairman Leahy, Ranking Member Graham, and members of the 
subcommittee, thank you for the opportunity to provide written 
testimony to aid in your consideration of the Department of State (DOS) 
fiscal year 2014 budget request for Afghanistan.
    The Congress has appropriated nearly $93 billion since 2002 to 
rebuild Afghanistan.\1\ For fiscal year 2014, DOS and the U.S. Agency 
for International Development (USAID) have requested an additional $3.4 
billion--more than is requested for any other nation. If approved, this 
request will bring the total amount of appropriated funds that remain 
to be spent in Afghanistan to more than $20 billion. It is the mission 
of the Special Inspector General for Afghanistan Reconstruction (SIGAR) 
to ensure that these funds are spent as effectively and efficiently as 
possible and that they are protected from waste, fraud, and abuse.
---------------------------------------------------------------------------
    \1\ This figure does not include the final fiscal year 2013 
allotment figures for DOS and USAID, which are still under negotiations 
based on the funding level appropriated by Public Law 113-6.
---------------------------------------------------------------------------
    This statement summarizes the impact of SIGAR's recommendations to 
date and details seven major reconstruction challenges United States 
decisionmakers must address in Afghanistan. It is based on several 
previously published SIGAR reports and our ongoing analysis of U.S. 
funded reconstruction programs.
      special inspector general for afghanistan reconstruction's 
recommendations have improved program effectiveness and efficiency and 
                       achieved monetary savings
    Since the end of 2008, when the Congress created SIGAR, its 
auditors and inspectors have completed 75 audit and inspection reports 
and made 245 recommendations that have identified $1.8 billion in 
questioned costs, funds that can be put to better use, and funds 
identified for potential recovery. Federal agencies have implemented 
many of these recommendations to strengthen their ability to develop 
and execute programs, improve program management and quality control, 
and realize cost savings. For example, in 2011, SIGAR found that U.S. 
Army Corps of Engineers (COE) contracting officers were unaware of 
refunds due to the U.S. Government in cases where contractors had 
overestimated their labor costs.\2\ Pursuant to SIGAR's 
recommendations, USACE took immediate steps to have insurance refunds 
sent directly to the U.S. Government. Thus far, the refund checks 
amount to $11 million. Additionally, COE implemented SIGAR's 
recommendation to establish a collection process to recover as much as 
$58.5 million identified in the audit report as potential refunds due 
to the Government.
---------------------------------------------------------------------------
    \2\ SIGAR Audit 11-15, Weaknesses in the USACE Defense Base Act 
Insurance Program Led to as Much as $58.5 Million in Refunds Not 
Returned to the U.S. Government and Other Programs, July 28, 2011.
---------------------------------------------------------------------------
    However, SIGAR currently has 71 open recommendations, 31 of them 
directed to DOS, USAID, or both. If all of these 31 recommendations 
were accepted and fully implemented, they would result in more than 
$131.6 million in funds saved or put to better use and would strengthen 
the implementation of reconstruction projects in Afghanistan. For 
example, SIGAR reported in April 2012 that, although the majority of 
USAID's 305 major awards for Afghanistan had been completed or had 
expired as of September 30, 2011, most had not been closed due, in 
part, to delays in conducting close-out audits, as required.\3\ 
Therefore, SIGAR found that USAID lacked assurance over the use and 
disposition of its funds and property for completed or expired awards 
and had delayed the potential recovery of $103 million in unliquidated 
obligations. SIGAR recommended that USAID expedite close-out audits for 
expired awards, especially for those awards with unliquidated 
obligations. USAID acknowledged the recommendation and stated that it 
was pursuing more aggressive means to audit and close out awards. 
However, USAID has not yet completed the process of closing the awards 
highlighted in SIGAR's report. SIGAR continues to monitor USAID's 
progress in implementing this recommendation.
---------------------------------------------------------------------------
    \3\ SIGAR Audit 12-9, USAID Has Disbursed $9.5 Billion for 
Reconstruction and Funded Some Financial Audits as Required, But Many 
Audits Face Significant Delays, Accountability Limitations, and Lack or 
Resources, April 25, 2012 (reissued May 2, 2012).
---------------------------------------------------------------------------
                 seven key questions for decisionmakers
    While recommendations in individual audit and inspection reports 
are useful for strengthening reconstruction programs and recovering 
funds for the U.S. taxpayer, they are primarily retrospective. In other 
words, once SIGAR has conducted an audit or inspection, found one or 
more problems, and recommended steps to address them, those problems 
have already occurred. That is why, in its January 2013 Quarterly 
Report to Congress, SIGAR laid out seven key questions--based on common 
challenges identified through its body of work--that decisionmakers, 
including the Congress, should ask as they consider whether and how 
best to use the remaining reconstruction funds:
Does the Project or Program Make a Clear and Identifiable Contribution 
        to Our National Interests or Strategic Objectives?
  --Do the Afghans want it and need it?
  --Has it been coordinated with other United States implementing 
        agencies, with the Afghan Government, and with other 
        international donors?
  --Do security conditions permit effective implementation and 
        oversight?
  --Does it have adequate safeguards to detect, deter, and mitigate 
        corruption?
  --Do the Afghans have the financial resources, technical capacity, 
        and political will to sustain it?
  --Have implementing partners established meaningful, measurable 
        metrics for determining successful project outcomes?
    These questions are simple, but SIGAR has found that implementing 
agencies consistently fail to consider them fully before obligating 
funds. The remainder of this testimony will elaborate upon these seven 
questions and outline SIGAR's proposal for applying them to new 
reconstruction programs and projects.
    Does the project or program make a clear and identifiable 
contribution to our national interests or strategic objectives?
    The United States' primary goal in Afghanistan has been to prevent 
Afghanistan from becoming, once again, a safe haven for al-Qaeda or 
other terrorist groups to launch attacks against the United States. One 
central tenet of the U.S. campaign to achieve this goal has been the 
counterinsurgency or ``COIN'' approach, with its three primary phases 
of ``clear'', ``hold'', and ``build.''
    SIGAR's work has found instances in which reconstruction programs 
have failed to achieve this intended benefit and, in some cases, may 
have actually resulted in adverse effects. In April 2012, for example, 
SIGAR released an audit report on the Local Governance and Community 
Development program (LGCD), which the USAID described as its ``flagship 
COIN program.'' \4\ The program's primary goal was to help create--in 
partnership with the Afghan Government--a stable environment for long-
term political, economic, and social development. However, SIGAR found 
that the program had not met its primary goal of extending the 
legitimacy of the Afghan Government, brought the government closer to 
the people, or fostered stability. In fact, SIGAR's auditors found that 
each of the eight provinces with the most LGCD activity experienced 
dramatic increases in the level of violence between 2006 and 2010. 
Although the effects of LGCD on security levels cannot be isolated, 
violence data is a useful indicator of stability. And this data 
suggested that the LGCD program was not achieving its intended results.
---------------------------------------------------------------------------
    \4\ SIGAR Audit 12-8, USAID Spent Almost $400 Million on an Afghan 
Stabilization Project despite Uncertain Results, but Has Taken Steps to 
Better Assess Similar Efforts, April 25, 2012.
---------------------------------------------------------------------------
    More recently, SIGAR reported on weaknesses in the U.S. 
Government's efforts to avoid contracting with entities or individuals 
determined to be actively supporting an insurgency or otherwise 
opposing United States or coalition forces in Afghanistan. 
Specifically, SIGAR found that, although the Department of Defense 
(DOD) has established a process to implement section 841 of the 
National Defense Authorization Act (which permits the DOD to authorize 
contracting authorities to restrict, terminate, or void a contract with 
these entities or individuals), weaknesses in the process prevent the 
department from having reasonable assurance that it is identifying all 
contracts held by persons or entities determined to be actively 
supporting the insurgency and opposing U.S. or coalition forces. As a 
result, millions of United States contracting dollars could be diverted 
to forces seeking to harm United States military and civilian personnel 
in Afghanistan and derail the multi-billion dollar reconstruction 
effort. Further, SIGAR reported that because the section 841 
legislation does not apply to other agencies--most notably DOS and 
USAID--there could be a present or future risk that these two agencies 
could have active prime or subcontracts with those designated by DOD 
under section 841.
    Therefore, some questions that might be proposed are:
  --Do DOS and USAID have a clearly articulated understanding of how 
        their reconstruction programs and projects relate to the United 
        States Government's overarching goals in Afghanistan?
  --Will DOS and USAID commit to restricting, terminating, or voiding 
        any contracts, grants, or cooperative agreements to individuals 
        or entities that have been designated under section 841?
Do the Afghans Want the Project or Program and Need it?
    Best practice in offering assistance should include determining 
that the intended recipient actually wants and needs the project. SIGAR 
has not always found that to be the case in Afghanistan. For example, 
today SIGAR is issuing a report warning of poor project management that 
includes purchases that the Afghan Government did not want for its 
national power utility, Da Afghanistan Breshna Sherkat (DABS).\5\ 
Specifically, SIGAR determined that USAID wasted nearly $700,000 to 
implement a billing system in Kandahar that the Afghan Government did 
not want. Although USAID required its contractor to implement a billing 
system in Kandahar that was consistent and coordinated with systems in 
Kabul, USAID did not enforce these contractual requirements, allowing a 
different system to be installed in Kandahar that was later deemed a 
failure by USAID and DABS.
---------------------------------------------------------------------------
    \5\ SIGAR Audit 13-7, Afghanistan's National Power Utility: 
Commercialization Efforts Challenged by Expiring Subsidy and Poor 
USFOR-A and USAID Project Management, April 18, 2013.
---------------------------------------------------------------------------
    Questions for consideration include the following:
  --How does DOS and USAID ensure that the Afghan Government wants and 
        needs each United States funded program or project funded?
  --Has DOS or USAID terminated any planned or ongoing programs or 
        projects because the Afghan Government did not want or need 
        them and, if so, which ones?
Has the Program or Project Been Coordinated With Other United States 
        Implementing Agencies, With the Afghan Government, and With 
        Other International Donors?
    In 2011, SIGAR conducted a thorough assessment of United States 
efforts to strengthen the financial sector in Afghanistan and to 
safeguard United States funds as they flow through the Afghan 
economy.\6\ SIGAR found that, even though DOD and the Department of 
Homeland Security (DHS) were working with the same commercial banks to 
strengthen controls over funds held in those banks, neither agency was 
aware of the other's efforts. In addition, DHS had not been included in 
an important interagency working group designed to coordinate efforts 
to gain visibility over cash flows. As SIGAR reported, limited 
interagency coordination puts U.S. agencies at risk of working at cross 
purposes or, at a minimum, missing opportunities to leverage existing 
relationships and programs. To help leverage limited resources and 
expertise and avoid duplication of agency efforts on financial sector 
issues, SIGAR recommended that the United States Ambassador to 
Afghanistan instruct the members of an Embassy Financial Sector Working 
Group to develop an interagency strategy to coordinate efforts to work 
with Afghan banks. In March 2012, SIGAR received a letter from the 
Embassy stating that, although U.S. Government officials regularly meet 
internally and with other donors, the working group no longer exists 
\7\ and a formal written strategy has not been developed.
---------------------------------------------------------------------------
    \6\ SIGAR Audit 11-13, Limited Interagency Coordination and 
Insufficient Controls over U.S. Funds in Afghanistan Hamper U.S. 
Efforts to Develop the Afghan Financial Sector and Safeguard U.S. Cash, 
July 20, 2011.
    \7\ The group's last meeting was held on September 25, 2011.
---------------------------------------------------------------------------
    Possible related questions for DOS and USAID include:
  --Do DOS and USAID have a centralized database of all reconstruction 
        programs and projects funded by the U.S. Government and the 
        international community to ensure coordination of these efforts 
        and prevent duplication?
  --What policies and procedures does DOS and USAID have in place to 
        strengthen inter-agency and inter-governmental coordination for 
        reconstruction?
Do Security Conditions Permit Effective Implementation and Oversight?
    Poor security poses a major challenge to every aspect of the 
reconstruction effort-from executing programs to providing oversight. 
SIGAR remains particularly concerned about two aspects of security 
relating to development projects.
  --Because of the dangerous environment, contractors and nonprofit 
        organizations must rely more and more on private security 
        services. But, as of a year ago, they have been required by 
        Afghan law to contract with the government-run Afghan Public 
        Protection Force (APPF) instead of private security companies. 
        Last year, a SIGAR audit of the transfer of security services 
        of USAID-funded projects to the APPF found that the cost of 
        security services could increase because of the APPF fee 
        structure.\8\ SIGAR has an ongoing second audit to identify the 
        cost of security services for selected USAID projects and 
        determine the impact of the APPF transition on reconstruction 
        projects.
---------------------------------------------------------------------------
    \8\ SIGAR Audit 12-10, Increases in Security Costs Are Likely under 
the Afghan Public Protection Force; USAID Needs to Monitor Costs and 
Ensure Unlicensed Security Providers Are Not Used, June 29, 2012.
---------------------------------------------------------------------------
  --As U.S. and coalition forces withdraw, it will become steadily more 
        difficult for both the implementing and oversight agencies to 
        monitor projects. With the military drawdown and transition to 
        the Afghan security forces, it has already become harder for 
        implementing agencies to effectively manage projects and for 
        oversight agencies such as SIGAR to visit and inspect projects. 
        This is because United States forces in Afghanistan have a 
        policy of only providing security in areas within an hour by 
        road or air travel of a medical facility. For example, recently 
        SIGAR was unable to visit $72 million in infrastructure 
        projects in Northern Afghanistan because they are located 
        outside the security ``bubble''. This will only get worse as 
        more bases close or are handed over to Afghan units that lack 
        medical-evacuation capability.
    SIGAR is examining ways to continue providing vigorous oversight in 
this evolving security environment, including expanding the use of 
satellite imagery and hiring Afghans or other third-country nationals 
to conduct site visits. SIGAR also recently initiated an audit of the 
United States Government's plans for transferring reconstruction 
efforts to the Afghan Government as the end of 2014 approaches. This 
audit will closely examine how DOS and USAID are assessing and planning 
for the likely impact of security conditions on their ability to 
oversee reconstruction projects post-2014.
    Therefore, the following questions might be posed:
  --Do DOS and USAID have plans in place that carefully consider 
        whether security conditions will permit adequate levels of 
        management and oversight for individual reconstruction programs 
        and projects and what are those plans?
  --Are DOS and USAID prepared to terminate planned programs and 
        projects if they cannot effectively manage and oversee them, 
        due to security constraints?
Do Reconstruction Projects Include Adequate Safeguards To Detect, 
        Deter, and Mitigate Corruption?
    Corruption threatens the entire reconstruction effort in 
Afghanistan. It siphons funds away from vital programs, undermines the 
rule of law, and reduces popular support for the Afghan Government. For 
this reason, SIGAR has conducted a number of audits that assessed 
Afghanistan's anti-corruption bodies, has evaluated efforts to monitor 
bulk cash flows through the Kabul International Airport, and has 
deployed investigators to field offices in six locations in Afghanistan 
to identify individuals engaged in bribery and extortion. SIGAR's audit 
work has highlighted serious shortcomings in Afghan capacity and lack 
of political will to combat corruption.
    More than 2 years ago, SIGAR recommended that the United States 
develop an integrated anti-corruption strategy.\9\ Although the U.S. 
Embassy in Kabul produced a draft strategy, it was not adopted. SIGAR's 
Office of Special Projects is now conducting a review to evaluate the 
current U.S. anti-corruption strategy and its implementation, and the 
progress the United States has made in meeting its anti-corruption 
goals in Afghanistan. In addition, SIGAR's Audit and Inspection 
Directorate is currently reviewing a major State Department rule of law 
program.
---------------------------------------------------------------------------
    \9\ SIGAR Audit 10-15, U.S. Reconstruction Efforts in Afghanistan 
Would Benefit from a Finalized Comprehensive U.S. Anti-Corruption 
Strategy, August 5, 2010.
---------------------------------------------------------------------------
    Possible questions include:
  --Has the United States Embassy made any progress in developing a 
        comprehensive United States Government anti-corruption strategy 
        for the reconstruction effort in Afghanistan and, if so, when 
        will this strategy be released?
  --If it has not developed a strategy, what are the reasons for 
        failing to do so?
Do the Afghans Have the Financial Resources, Technical Capacity, and 
        Political Will To Sustain the Reconstruction Program or 
        Project?
    Through its audit and inspection work, SIGAR has identified 
numerous examples in which the United States created a program or built 
a facility without consideration as to whether the Afghan Government 
could sustain it.
    In a 2010 audit of reconstruction in Nangarhar, Afghanistan, for 
example, SIGAR found that the Afghan Government was severely limited in 
its ability to operate and maintain United States completed development 
projects in that province.\10\ (Nangarhar had received more than $112 
million in development assistance from DOS, USAID, and the DOD.) As a 
result, SIGAR identified many projects that had become dilapidated or 
were in disrepair.
---------------------------------------------------------------------------
    \10\ SIGAR Audit 11-01, Weaknesses in Reporting and Coordination of 
Development Assistance and Lack of Provincial Capacity Pose Risks to 
U.S. Strategy in Nangarhar Province, October 26, 2010.
---------------------------------------------------------------------------
    In an upcoming audit report on hospitals and health services in 
Afghanistan, SIGAR will again illustrate the negative consequences that 
can occur when the cost of sustainability is not taken into 
consideration.
    SIGAR was among the first to highlight the sustainability risk to 
the reconstruction effort. The United States is building infrastructure 
and launching programs that the Afghan Government has neither the 
financial nor technical ability to operate and maintain. In fiscal year 
2011, the most recent year for which the World Bank has complete data, 
Afghanistan's budget included about $335 million--or 10 percent of its 
core expenditures--for operation and maintenance (O&M). But, as the 
United States and other donors transfer these assets to the Afghans, 
future requirements are expected to rise to $4.8 billion for total 
civilian and security O&M.\11\ The shortfall is expected to grow to $70 
billion during the transformation decade of 2015-2024, with the U.S. 
Government likely to shoulder a large part of that burden.
---------------------------------------------------------------------------
    \11\ The World Bank, Afghanistan in Transition: Looking Beyond 
2014, 2013, p. 6.
---------------------------------------------------------------------------
    Questions that might be posed regarding sustainability include:
  --Which programs and projects funded by DOS and USAID are least 
        likely to be sustained by the Afghan Government?
  --How much of the estimated $70 billion shortfall is the U.S. 
        Government committed to providing during the period of 2015-
        2024?
Have Implementing Agencies Established Real Metrics for Measuring 
        Success? And, if so, Are They Applying Them to These Programs?
    Too often, SIGAR finds that agencies are focused on outputs, not 
outcomes. These metrics give part of the picture, but do not truly 
provide meaningful assessments of whether programs achieved their 
goals. For example, in 2011, SIGAR assessed efforts to build the 
capacity of the Afghan Ministry of Agriculture to better serve farmers 
and promote private sector development. SIGAR found that the U.S. 
Embassy could not determine how much progress had been made in building 
ministry capacity, in part because it largely measured the products of 
capacity-building efforts (such as the number of national research 
stations and labs built or rehabilitated), rather than the results 
achieved by their construction.
    Therefore, questions for consideration are:
  --Why have DOS and USAID-funded reconstruction programs and projects 
        in Afghanistan predominantly focused on using output, rather 
        than outcome measures?
  --What assurance do DOS and USAID have that their reconstruction 
        programs and projects have been effective, given the 
        overwhelming absence of outcome metrics?
special inspector general for afghanistan reconstruction's proposal for 
reducing waste, improving efficiencies, and achieving savings in united 
                  states reconstruction of afghanistan
    Organizations like the U.S.-led International Security Assistance 
Force, DOS, and USAID are posing similar questions in their reviews of 
programs and projects during the security-transition period. That is a 
good thing, because the Congress and executive branch agencies have a 
unique opportunity to conduct a strategic reexamination of 
reconstruction issues as the transition accelerates between now and 
2015. That reexamination might reaffirm existing DOS and USAID plans, 
or lead to postponed, reduced, cancelled, reinforced, redesigned, or 
repurposed projects. To the extent such analysis and action produce 
projects more likely to function and succeed in post-2014 Afghanistan, 
they can deliver real benefits to United States military and civilian 
personnel, American taxpayers, the Afghan people, and United States 
national interests.
    SIGAR believes the seven questions outlined previously should serve 
as a basis for this project-by-project analysis and strategic review. 
To the extent that agencies can answer these seven questions in the 
affirmative, SIGAR believes that a project or program has a better 
chance of reducing waste, improving efficiencies, and achieving 
savings.
    For example, SIGAR recently issued an inspection report on a 
medical clinic in Kabul province.\12\ This project demonstrates the 
good that can come when a project is well planned, well executed, and 
effectively coordinated with the Afghan Government. SIGAR reported that 
the local community had supported the clinic's construction, a villager 
had donated the land, and the facilities are being used daily. Since 
the clinic opened in September 2011, it has seen more than 1,500 
outpatients, 62 prenatal patients, and the birth of 63 newborns. The 
clinic is also being well sustained, likely due, in part, because the 
Ministry of Public Health signed an agreement as part of the project 
approval process to sustain the clinic upon completion. It has 
fulfilled its commitment to do so. SIGAR's inspection found that the 
heating system worked, floors were clean, bedding was plentiful and 
well kept, and the pharmacy was well stocked.
---------------------------------------------------------------------------
    \12\ SIGAR Inspection 13-7, Qala-I Muslim Medical Clinic, Serving 
the Community Well, But Construction Quality Could Not Be Fully 
Assessed, April 17, 2013.
---------------------------------------------------------------------------
    SIGAR will continue to look for success stories like this one and 
report on them. However, SIGAR will also continue to carefully examine 
programs and projects that were not as carefully planned out or 
effective as this one. This oversight is needed to fully inform the 
Congress and the American public about how their unprecedented 
investment is being used. But, SIGAR's work is only one way to 
influence agencies to strengthen their reconstruction planning, 
programming, and management.
    Therefore, SIGAR suggests that congressional appropriators, 
including the appropriators on this subcommittee, require DOS and USAID 
to answer, in writing, these seven questions before obligating 
appropriated funds to new programs. If DOS or USAID cannot answer the 
questions in the affirmative, SIGAR also proposes that they be required 
to provide a written justification explaining the purpose for 
proceeding with the obligation of appropriated funds.
    SIGAR will also be considering these seven fundamental questions 
through its audits, investigations, and inspections, and urges others 
to do the same, because nothing is more wasteful at this critical 
juncture than an unwarranted project or one that realistically has no 
chance of success.
                               conclusion
    Over the last decade, the United States has provided enormous sums 
of money to rebuild Afghanistan. This reconstruction effort is now in 
transition as United States combat forces withdraw and the Afghan 
authorities assume responsibility for security. In its fiscal year 2014 
budget request, State described this transition period as ``perhaps the 
most critical phase in our engagement in Afghanistan.'' \13\ The 
success of the United States effort in Afghanistan, which includes the 
most costly rebuilding program for a single nation in United States 
history, depends to a great degree on United States funds being used 
wisely, efficiently, and effectively.
---------------------------------------------------------------------------
    \13\ Department of State, Executive Budget Summary, Function 150 & 
Other International Programs, fiscal year 2014, p. 92.
---------------------------------------------------------------------------
    Thank you for the opportunity to provide written testimony to 
assist your oversight of United States funded reconstruction efforts in 
Afghanistan. SIGAR is happy to answer any questions you have and 
provide whatever assistance you need to protect U.S. funds from fraud, 
waste, and abuse.

    Senator Leahy. The budget request is $500 million less than 
fiscal year 2013. A lot of that comes from Iraq, Afghanistan 
and Pakistan, which makes sense. A lot of other programs--
Global Health, the Peace Corps--are frozen.
    As you look at these things, do people balance the fact 
that you have China, for example, spending a great deal of 
money in Africa and elsewhere to get a foothold? Obviously, 
they are looking at resources, minerals, ports, and so forth.
    I know sometimes getting the money from the Congress is 
difficult. I will hear people here give speeches about the need 
to counter China's influence, and then the next day they vote 
against foreign aid, which is a fraction of 1 percent of our 
budget.
    You also mentioned South Korea, Japan, and you were in 
China. What is your sense of President Xi? Is he going to be 
willing to put pressure on North Korea?
    Secretary Kerry. Mr. Chairman, I believe that China is very 
serious about North Korea, very concerned about North Korea. I 
had a very good meeting with President Xi and another good 
meeting with President Lee Ki Jun, and I met with the state 
councilor and the foreign minister, obviously.
    China took unprecedented steps to make clear they are 
committed to the policy of denuclearization. And just the other 
day after I left, within the Ministry of Foreign Affairs, they 
actually named North Korea, that lower level, which is the way 
it happens in China. It sort of begins there. Which is also 
unusual and specially took them on on not being provocative.
    China is the essential country in terms of changing North 
Korean behavior. They provide vast majority of the fuel, more 
than 75 percent, to North Korea. They are the principal trading 
partner. Their banking system facilitates transactions. They 
provide food aid.
    There is no question about the ability of China to have an 
impact here, and I hope that with the engagement we have now 
undertaken with them, which will continue. General Martin 
Dempsey, Chairman of Joint Chiefs of Staff, will be there in a 
few days. Shortly thereafter, Deputy Secretary Bill Burns will 
be going back over there.
    We are going to stay very focused on building this 
partnership to change the dynamic with North Korea. We cannot 
just repeat the past.
    Senator Leahy. I agree. There has been some talk in the 
Pentagon of weakening the Leahy law. And without sounding 
parochial, that is a law that prohibits U.S. aid for units of 
foreign security forces that have committed the worst crimes--
torture, summarily executing prisoners, raping and shooting 
civilians. The Leahy law also, though, allows resumption of aid 
if the government takes steps to investigate and prosecute 
those involved.
    Now some in the Pentagon say, okay, we have got these 
terrible units. They have been committing these crimes. But we 
should resume aid to them anyway because if they know we love 
them and give them money, they will improve.
    I think that puts the cart before the horse. The Leahy law 
has had a lot of Democratic and Republican support. Does the 
State Department have a view on this?
    Secretary Kerry. We do, Mr. Chairman. There is no 
discussion in the State Department about moving away from or 
not adhering to the Leahy law. I think it has been salutary, 
constructive, and we remain deeply committed to a thorough 
implementation of it.
    Senator Leahy. I recall a former chairman of the Senate 
Foreign Relations who was a strong supporter of it as it came 
through here.
    Secretary Kerry. You recall correctly.
    Senator Leahy. He was right, too.
    In 2002, President George W. Bush announced the United 
States would rejoin the United Nations Educational, Scientific 
and Cultural Organization (UNESCO), as a symbol of our 
commitment to human dignity. But there were two laws passed in 
the 1990s that prohibited a U.S. contribution to any U.N. 
agency if the Palestinian Liberation organization (PLO) becomes 
a member.
    The PLO became a member of UNESCO. We cut off our 
contribution. And so, now we have a case where we shot 
ourselves in the foot. The Palestinians are members, but we 
diminished our influence, which used to be significant in 
UNESCO, an organization that, among other things, would try to 
get textbooks to teach both girls and boys in schools around 
the world.
    What do we do about this? I mean, is the administration 
willing to push for a waiver of those laws?
    Secretary Kerry. More than that, Mr. Chairman. We hope that 
you will all join together and change the law. And we--the 
President has put money in the budget for UNESCO based on the 
notion that we believe this is very, very self-defeating.
    You have just made the argument. We write ourselves out of 
the very place that we can fight for change and, frankly, stand 
up and defend Israel. Israel is assaulted by these initiatives, 
and we are not there to be able to make the argument for the 
other side. So we actually take ourselves out of the 
battlefield and wind up less capable of representing our 
interests.
    So I think you have made the argument. I hope--I think it 
was well-intended. It just doesn't work. It has bad 
consequences for us, and I hope we can change it.
    Senator Leahy. Thank you very much.
    I will yield to Senator Johanns, who is the first 
Republican on this side and then go to Senator Harkin. But I 
wonder, Senator Harkin, if you would yield to Senator Mikulski 
first?
    Senator Harkin. Sure.
    Senator Leahy. Senator Johanns.
    Thank you.
    Chairwoman Mikulski. Mr. Chairman, after Senator Johanns, 
with the indulgence of Senator Harkin, I would just like to say 
a few words because I have to get to the Military Construction 
and Veterans Affairs Subcommittee hearing.
    Senator Leahy. Of course.
    Chairwoman Mikulski. Senator Johanns, Sir.
    Senator Johanns. I would yield. That is no problem at all.
    Senator Leahy. And I should also note for the schedule that 
at some point for the personal reason I mentioned to Senator 
Kerry, I am going to be stepping out, and Senator Harkin is 
going to take the chair.
    Secretary Kerry. I see that the same Senate wisdom prevails 
as when I was here that the chairwoman--you better yield.
    Senator Leahy. I don't want her to kick me out of my 
President pro tempore office.

              STATEMENT OF CHAIRWOMAN BARBARA A. MIKULSKI

    Chairwoman Mikulski. Mr. Secretary, it is good to see you, 
and I know it is great that you are here with us today. I know 
your heart is in Boston. You might be the President's choice to 
be Secretary of State, and you travel the world in our 
interests. But I know you are here at your duty station working 
on our budget when you wanted to be alongside the President in 
Boston.
    And deep in your heart, you are a Massachusetts man, and 
our condolences go to you----
    Secretary Kerry. Thank you.
    Chairwoman Mikulski [continuing]. As we do with all the 
others.
    Mr. Secretary, I just wanted to be here in my role as the 
full committee chairwoman to say that you have a great chairman 
in Senator Leahy and also in his ranking member. And really, 
when Senator Inouye passed away, it was Senator Leahy that 
stepped in.
    And really during Hurricane Sandy, as we were working on 
the budget process, actually put money in--tried to move an 
amendment to put in for Embassy security and particularly for 
the Benghazi situation. So Senator Leahy really did a fantastic 
job as being a bridge until I was officially appointed and 
really was an advocate.
    We are going to mark up at the $1.05 trillion level, as 
mandated by the law. We know that we have a discrepancy with 
the House, and we hope to resolve that. We hope Mr. Ryan will 
appoint conferees so there can be a regular order to the budget 
process. But we intend to move in a regular order here.
    I want to work with Senator Leahy and the subcommittee on 
the bipartisan basis that this subcommittee has had and to move 
our--continue our smart power presence in the world.
    Mr. Secretary, I am really concerned about Embassy 
security, and I want to continue the momentum that was begun. 
Much was said about Benghazi. Much will continue to be said 
about Benghazi. But I understand the President has put in $2.4 
billion for Embassy security construction and maintenance, also 
$1.6 billion for the Diplomatic and Consular Programs.
    These are our men and women who serve the Nation around the 
world that we have to owe a debt of gratitude. And it is an 
area that I know of great interest to you. So we want to do 
everything we can to protect them as they advance America's 
interests.
    We have been deeply concerned, going back to the Khobar 
Towers when our consul Mr. Bartley died with his son. Now 
Ambassador Stevens. Most recently, the death of Anne 
Smedinghoff in Afghanistan, someone who you met with.
    So my whole point is we want to work to protect those who 
are advancing our interests. We also have an issue of 
compensation for our State Department people who die at their 
duty station, who are actually on the job, like Ambassador 
Stevens, like Ambassador Bartley, like Anne, who were doing 
their job.
    We began that with Secretary Clinton. We would like to 
continue with that. We were working with Under Secretary 
Kennedy. If we could work on that, I would really appreciate 
it.
    I don't want to take the indulgence anymore. We want to 
work together. You have got a good group here, and we are glad 
to see you. It is just odd to see you on the other side of the 
table.
    Secretary Kerry. Madam Chairwoman, not as odd as it feels 
for me, but that is all right.
    Thank you. And can I say to you that I am really--I can't 
tell you how happy I am to be working with you and with 
Chairman Leahy because I know what a passionate and committed 
person you are with respect to these issues. And I just--I look 
forward to having a great partnership.
    Chairwoman Mikulski. Can we have Under Secretary Kennedy 
work with us on the compensation issue?
    Secretary Kerry. Who?
    Chairwoman Mikulski. Under Secretary Kennedy?
    Secretary Kerry. Oh, Under Secretary Kennedy. Absolutely. 
Absolutely.
    Chairwoman Mikulski. That is who we really began a rather 
meticulous look at this issue.
    Secretary Kerry. I think it is terrific, and we need to 
finish up on that, and we will work for sure. Thank you.
    And thanks for your comments about Boston.
    Chairwoman Mikulski. Thank you, Senator Johanns.
    Senator Leahy. Thank you.
    Senator Johanns. Mr. Chairman, thank you.
    And Mr. Secretary, good to see you again. You are off to a 
fast start. I watch your travels all over the world, and we 
appreciate your work.
    Let me, if I might, offer a thought or two about food aid, 
a recommendation or proposal that is being made in this budget. 
But let me, if I could, start with just the concept of food aid 
itself.
    As you know, food aid comes from a lot of different sources 
in the current budget. State Department is involved. United 
States Agency for International Development (USAID) is 
involved. The Department of Agriculture is involved.
    So much of what we do around the world, whether it is the 
Global Fund or the President's Emergency Plan for AIDS Relief 
(PEPFAR), the success of those programs depends on nutrition. 
You know, you could ask any doctor how well will the AIDS drugs 
work that we distribute through PEPFAR if a person doesn't have 
adequate nutrition, and they will say the effectiveness is 
dramatically reduced.
    I just--I can cut budgets with the best of them. I have 
been doing it for a lot of years, starting as county 
commissioner. But I feel very, very strongly about this, that 
this subcommittee should adopt a notion, a bipartisan notion 
that when it comes to food aid, foreign food assistance, we are 
just simply going to protect that in budgets. It is not a lot 
of money.
    And the other thing I would say about it is you can build 
such strong bipartisan support for it. Farmers appreciate it. 
Obviously, it has positive impact for them.
    And so, as one member of this subcommittee, a brand-new 
member, I would just like to put a marker out there saying when 
it comes to food aid, we should empower our leadership on this 
subcommittee to work with you, to work with Tom Vilsack, to 
work with President Obama on not cutting foreign food 
assistance. I think it is that important.
    The second thing I wanted to say relates to a proposal you 
are making and, my goodness, did red flags go up when I see 
this proposal. When I was Secretary of Agriculture, I proposed 
that the USDA use up to 25 percent of title II Food for Peace 
funds for providing cash assistance. The thought being, you 
know, from time to time, we are faced with emergencies in the 
international community where people are dying, where literally 
the issue is what child do you save?
    And the issue of getting food to that location just as fast 
as you can means life or death. Children, people live or die 
depending upon how quickly we can get them assistance.
    Secretary Kerry. Absolutely.
    Senator Johanns. Now I am going to be one that will argue 
over and over again let us try to do everything we can to 
promote U.S. agriculture. I was the Secretary of Agriculture. 
But I feel strongly we can't ignore these emergencies.
    Now what is the right combination here? I don't know. The 
proposal that is in this budget is very controversial, as you 
know. It basically says the budget will shift title II Food for 
Peace jurisdiction from the Agriculture, Rural Development, 
Food and Drug Administration, and Related Agencies 
appropriations subcommittee to USAID accounts under the 
jurisdiction of State, Foreign Operations, and Related Programs 
Subcommittee, to us. And so, it transferred $1.4 billion to 
international disaster assistance, development assistance, et 
cetera.
    I would just respectfully suggest, and I would like your 
thoughts on this, I don't think that is going to get done. I 
think if the President put full time behind that he couldn't 
get it done.
    It is controversial with aid groups out there. It is 
controversial with agriculture. It is probably, in a very 
bipartisan way, controversial here.
    Tell me what you are trying to accomplish there. What are 
you hoping to achieve there? And I guess what I am really 
asking, is there a better way of going about this than what is 
being proposed here? Because I don't think this is going to 
happen, to be very blunt with you.
    That is kind of a long preliminary statement and long 
question, but take it from there.
    Secretary Kerry. Well, no, it is good. Senator, I 
completely understand where the resistance is, and I respect 
what you say about it not happening conceivably. But you also 
actually articulated the very reasons for doing it.
    When you talked about emergency and trying to get aid to 
people quickly, we actually are going to be able under this 
program to serve people 11 to 15 weeks sooner because we are 
creating the capacity to be able to buy locally some of the 
emergency food and not be hamstrung to only take the 
commodities from here and use American shipping getting over.
    So we actually calculate that we will be able to give food 
to 2 to 4 million people more and serve malnutrition--folks who 
are suffering from malnutrition, who need immediate help, 11 to 
15 weeks sooner, which in malnutrition, at that grievous stage, 
is the difference between life and death. And save money 
because we will do it for less.
    Now I think when you say that is not going to happen around 
here, I hope it is not because we can't reform something to 
actually deliver more, faster, more effectively, for less money 
for the American taxpayer because we are stuck having to 
subsidize something that doesn't need a subsidy.
    Now I am for American farmers. I could not have been more 
up close and personal to American farmers than in 2003 and 2004 
when I was running around Iowa and Nebraska and various places, 
and I got to know a lot of farmers. I was out there with 
Senator Harkin, and I respect what we have to do.
    But we have been reforming the farm program, too. Because 
we know we are putting money into great big subsidies that go 
to people who don't necessarily need them right now. The 
American farmer, by and large, is at this moment doing very 
well. I think is going to do even better.
    And the reason they are going to do even better and 
shouldn't be threatened by this, I mean, we are talking about 
such a tiny percentage here. The entire budget of everything we 
do in foreign affairs, everything--embassies, consulates, aid, 
foreign military assistance, you name it--is one penny on the 
American taxpayer dollar. One penny. That is everything.
    This is a fraction of that penny, a fraction. And it is not 
the differential with respect to success for the American 
farmer. The better differential is going to be defined through 
the Transatlantic Trade Investment Partnership (TTIP); the 
Trans-Pacific Partnership (TPP); and that is where we are going 
to open up the capacity for our farmers to sell a lot more and 
make a lot more money.
    So I would respectfully ask you to reserve the judgment as 
to whether or not we accomplished the goals you wanted in this. 
We are still going to have more than 50 percent--I think it is 
about 55 percent of the food will be purchased by requirement 
from American farmers and shipped on American ships.
    Senator Johanns. Mr. Secretary, I am out of time. With the 
indulgence of the chairman, I just want to offer a thought.
    I have traveled this road, made a proposal myself, very--
wasn't able to accomplish that. I do think that there is a 
balance that can be reached here, and maybe you feel strongly 
that you have reached that balance or proposed that balance.
    But if you could send somebody from the State Department my 
way, I would love to have a conversation about how to deal with 
this issue. Because the----
    Secretary Kerry. Absolutely. Of course, we will do that. 
Look, I understand if you folks don't sign off on this, it is 
not happening. So, of course, we are going to work with you.
    And if you have a better way of doing it or you can show us 
how we could accomplish these goals, that is exactly what we 
want to do. And I will have somebody up to your office, with 
your consent, next week to do it.
    Senator Johanns. Great. I will be there.
    Secretary Kerry. Thanks.
    Senator Johanns. Thanks.
    Senator Harkin [presiding]. Senator Landrieu.
    Senator Landrieu. Welcome.
    Secretary Kerry. Good to see you again. How are you?
    Senator Landrieu. Mr. Secretary, good to see you. 
Wonderful.
    And again, our condolences for Boston and Massachusetts, 
and your elected officials and others handled it beautifully. 
And hopefully, we will find the perpetrator. I am sure we will.
    Let me just be as specific as I can about a small issue, 
but it is an important issue, as you know, because I have been 
leading on this issue for several years in the Congress. But as 
you know, Mr. Secretary, I have many colleagues on both sides 
of the aisle that feel strongly about a key American value, and 
that is that children belong in families.
    And the shame of having millions and millions of orphans in 
this world and unparented children sometimes found in 
institutions in horrible circumstances or on the streets, which 
you undoubtedly have witnessed in your travels. And the shame 
of seeing international adoptions to the United States decline 
precipitously over the last several years from 20,000 to 9,000 
is a 60-percent decrease.
    I know, because you have sent--when you were a Senator--
staff with us on some of these visits, and you, as a Senator, 
were so supportive of the idea that children should belong in 
families. Have you had any chance to give some thought to why 
this might be occurring? What the State Department could do, as 
the central agency basically in charge of this, to turn this 
situation around?
    One Department official was recently heard as saying there 
is no right number of international adoptions. Some people 
heard that as implying there is no problem with the declining 
number, and that zero would be acceptable. I don't think that 
is your position.
    But do you feel that allowing international adoptions to 
continue to dwindle is an accurate implementation of U.S. 
policy or the wishes of the American people? And would you 
characterize the Department of State's role as the central 
authority as having been successful?
    And if not successful, what might you begin to do to change 
that?
    Secretary Kerry. Well, Senator Landrieu, let me begin by, 
first of all, paying tribute to your incredible focus on this 
issue. I mean, all the years that I was here serving with you, 
you have been the leader in the United States Senate, in the 
country, and I really appreciate what you have done and was 
happy to have people join with you in this effort. And we will 
work with you very, very closely on this.
    I have already raised this issue with Foreign Minister 
Lavrov. We have talked about it several times, actually. And I 
have agreed with him to try to do certain things to see if we 
can't try to break the impasse with the Russians, where there 
are just some families' hearts are being broken who were all 
prepared to receive children, and that has stopped.
    And they are very concerned because, as you know, there 
have been a number of children from Russia--I think it is about 
27 total or something--who have died in their families. And 
there is evidence in some cases, or at least questions in some 
cases about what may have happened.
    This is a big issue in Russia. They are very concerned 
about it, and the press is very focused on it, and we need to 
work through it. And I have ideas about how to do that.
    With respect to all the other countries, I can't tell you. 
We need to get an analysis, and I will work with you to get an 
understanding. I think it is different reasons in different 
countries.
    But the United States has a record of bringing 
extraordinary numbers of children here to families and to great 
lives. And I think in the case of Russia, for instance, I think 
I saw we were looking through it to try to analyze this. I 
think about 60,000 kids total from Russia, of whom 27. Now one 
is too many. You can't say only 27. You just can't.
    But I don't know with respect to every other country why 
that number has dwindled. The answer to your question directly 
is, no, it should not be our policy to allow it to dwindle. And 
yes, the United States ought to work proactively to try to 
increase opportunities for these children.
    Senator Landrieu. Well, thank you.
    And let me follow up with you may be aware of a very 
exciting initiative that happened just before you took office 
that several agencies led, and Senator Harkin was supportive of 
this. It is called the National Action Plan for Children in 
Adversity.
    And it is the first time in the history of the United 
States that the departments have tried to coordinate their 
efforts for the spending of billions of dollars in silos, 
basically pooling some coordination effort. The hope is to pool 
some coordinate effort to really at least item two of this plan 
suggests that children should be ministered to or serviced or 
helped in the context of a family.
    And this action plan, you know, President Reagan said the 
family has always been a cornerstone of American society. 
President Obama recently said, ``Of all the rocks on which we 
build our lives, we are reminded today that family is most 
important.''
    So the National Action Plan on Children, specifically in 
objective two, represents a unique opportunity for this 
department to promote the value that Americans place on 
families. Are you familiar with this plan? If not, would you 
commit to become familiar with it to use this as a basis of 
reform in this effort of trying to provide services to keep 
children in families, reunite them when they are separated, and 
find a domestic or international family for them when they need 
one?
    Secretary Kerry. I am familiar with it. I am not well--I 
mean, I am not deeply versed in it. But I know of it, and I am 
familiar with it, and I think it is a good template.
    I think what we need to do, Senator Landrieu, and what I 
would like to do is ask if we could arrange a meeting with our 
sort of top folks on this and really lay out an agenda going 
forward and talk about how we can address this. We should set 
high standards on it, and I would like to make sure we do.
    Senator Landrieu. Thank you.
    Secretary Kerry. And you know those as well as anybody.
    Senator Landrieu. Thank you. I appreciate that commitment.
    Thank you so much.
    Secretary Kerry. Sure.
    Senator Harkin. Thank you, Senator Landrieu.
    Senator Coats.
    Senator Coats. Mr. Chairman, thank you.
    Mr. Secretary, those of us who have served with you and 
known you knew that you would throw yourself into the job. And 
throwing yourself into the job is probably a challenge as great 
as it has ever been for any Secretary of State.
    I saw how much Secretary Clinton had to throw herself into 
the job. Director Clapper told me, he said, ``In my 40 years of 
intelligence work, I have never seen such a multitude of hot 
spots and trouble spots around the world that we have to 
address.''
    So it is almost--I will use the word ``almost''--makes you 
yearn for the simplicity of the Cold War, where we had a line 
dividing the good guys and the bad guys. That is much harder to 
do these days.
    So we appreciate your taking the baton and carrying right 
on from Secretary Clinton's efforts because you have thrown 
yourself into the job. I commend you for that, and we want to 
support that.
    I would like to mention two things. The $580 million Middle 
East/North Africa Incentive Fund. Describe a little bit the 
challenge there of making sure that the funds coming out of 
State for economic support and other means of support are 
getting in the right hands.
    There is a lot of confusion now about where are those, who 
are those people? Who deserves this? Who needs to get it? Who 
can implement it? Who will use our values that we attach to 
this in terms of democracy and using it for the right purposes?
    And second, this involves, obviously, the use of military 
assets. I hope that is being coordinated so that we get a clear 
picture of who should get the aid and who shouldn't get the 
aid.
    So I would like you to comment on that, if you would?
    Secretary Kerry. Terrific question. And I am really happy 
to sort of explore that a little bit with you.
    The vision that I have, and I think President Obama has 
articulated previously and has committed himself to in this 
context of the $580 million he has put in this budget, is a 
vision that tries to change the way we are actually providing 
some of this aid, which is a process that has already begun.
    There has already been a fair amount of energy expended to 
try to figure out better ways of getting a return on the 
invested dollar and of knowing where it is going and what it is 
doing and what it is returning.
    So there are different challenges in different places. If 
you look at Libya, Libya has a lot of funds. The challenge is 
not funding in Libya. The challenge is providing technical 
assistance and government mentoring, if you will, and helping 
to build out their legitimate security force. And there, there 
are ways to spend money very directly where you can have real 
metrics that show you what you are getting in terms of that 
investment in both numbers and quality and difference that it 
is making.
    In Tunisia, you have a different sort of package of needs. 
Small country, a little money goes a long way, and that would 
have a profound impact on the region in terms of stability. 
There, and perhaps in Egypt. Egypt is more of a question mark 
right now.
    May I just tell you there are a lot of ``ifs'' about Egypt 
at this moment, and we have been working very, very hard with 
the Egyptian Government to try to bring them to a point where 
they are prepared to embrace important reforms that are key to 
the IMF money, to be more inclusive with the opposition, to 
build out civil society, to live up to their promises regarding 
democracy. And it is a question mark whether they are going to 
make the right choices, and I can't frame it any other way for 
you now.
    But one of the things we had contemplated in this kind of 
fund, and we actually had already engaged in this effort--I 
went there with Senator McCain as a Senator, and we announced a 
certain amount of money in this context for the Middle East 
Investment Initiative, as it was called that time--this is an 
extension of that--that would have put money directly into a 
public-private partnership.
    And we stood up with the president of Coca-Cola, with Jeff 
Immelt of GE, and others who want to invest and who want to 
help create jobs. And the money that we would be putting up 
would actually help leverage their much larger multimillion-
dollar investment and their infrastructure and ability to 
provide jobs to people, which provide stability.
    So the model that we are looking at really here is what do 
you do when your budget is tighter, when we are not sitting in 
a position to spend $100 billion? What we want to do is take 
this kind of money and work in conjunction with the private 
sector, U.S. global private sector.
    I will give you an example. We just announced an effort 
that Tony Blair will head up, former Prime Minister Blair, for 
the West Bank. And he will work together with Muhtar Kent of 
Coca-Cola and others to try to bring immediate transformational 
investment to the ground, and we have a number of people--I am 
not going to go through their names now--signing up to be part 
of this, large corporate entities that are prepared to invest 
in the future.
    And I think this may be a new sort of model for how we can 
marry our dollars to efforts that do lend themselves to metrics 
and to outcome measurement. We don't want to just hand money 
over to governments, by and large. We are trying not to, but 
there may be occasions when you have to, to some degree, as a 
matter of good faith, as a matter of sort of being taken 
seriously in the overall initiative.
    So that is really the way we are modeling it. I think there 
is a lot of reform that Dr. Rajiv Shah has put in place and is 
working and fighting to put into place within USAID, and there 
are good results that we have seen also from the Millennium 
Challenge Corporation and their metrics and standards. And we 
are trying to apply a lot more of that to our programs.
    Senator Coats. It is encouraging to hear the kind of 
innovation and creativity that can come when we clearly are 
squeezed on the fiscal side here, and that is a great concern 
of mine, and I know people get sick of me talking about it. But 
if you look at the trend lines relative to mandatory spending 
and what we have left to spend for national security and for 
everything that is done through the State Department, the 
essential functions of Government, not the like to do but can't 
afford to do. I mean, the things we have to do, that is ever 
shrinking.
    And we are going to need innovative thinking. We are also 
going to need for all of us--Republicans, Democrats--to address 
this ever-shrinking discretionary pot of money we have for 
essential functions of the Federal Government. And I hope that 
it is being discussed within the executive branch. I am sure it 
is.
    We discuss it here, but we need to get behind discussion 
and get it done.
    Secretary Kerry. Well----
    Senator Coats. That penny out of the dollar is going to 
shrink to a fraction of a penny out of a dollar just by the 
reality of where we are going over the next 10 years unless we 
do something.
    Secretary Kerry. Well, you said the magic words, Senator. 
Three words, ``Unless we do something.'' I have to tell you, as 
a veteran of the Super Committee, I thought we--look, I am not 
in politics now. So I want to be careful here.
    But I just will say to you that I think there is a 
solution. The solution is to not allow it to keep shrinking, 
and there is a way to do that.
    Senator Coats. There is.
    Secretary Kerry. There are some choices, and I think you 
know that. And I am convinced that if the Congress can come 
together, maybe that will happen in the course of next year.
    I will tell you, as a matter of foreign policy and 
negotiation and leverage, pretty important for the U.S. 
Congress to make these choices because people are judging us.
    And when I sit with President Morsi, and I say to him, 
``Mr. President, you have really got to do the IMF. You have 
got to get your economy, da-da-da-da.'' I can just see from the 
expression on his face, he is looking at me and saying, ``How 
is your budget going?'' You just feel it.
    Hillary, Secretary Clinton told me the same thing. She 
would sometimes overtly have people push back and say, ``Well, 
who are you to tell us?'' So I hope--I hope we will see those 
things happen because I think it will profoundly affect these 
choices in a very positive way.
    Senator Coats. Thank you.
    Mr. Chairman, thank you.
    Senator Harkin. Thank you, Senator Coats.
    Mr. Secretary, let me join with those in saying thank you 
very much for taking on this tremendous task. Those of us who 
have known you and served with you all these years in the 
Senate know that you have a tremendous grasp of the world 
situation. You have devoted your life to looking at how the 
United States maintains its leadership position in the world.
    I can't think of a better person suited to be Secretary of 
State during these pretty important and kind of confusing times 
than you, and I mean that sincerely. I know it is a tough job. 
I get tired just reading about where he goes.
    Senator Harkin. I don't know how you ever get time to get 
to sleep. So I just want to thank you for that and thank you 
for your vision and your great leadership of the State 
Department.
    I am not going to get into China and all those other 
things. Those are big things. You can handle all that.
    I also want to thank you for your tremendous leadership on 
many issues in the Foreign Relations Committee when you were 
here. One issue in particular, that is of importance to me is 
the Convention on the Rights of Persons with Disabilities. I 
just can't thank you enough for reporting it out favorably from 
the Committee and getting it to the floor.
    I know we considered it on the floor in December. We fell 5 
votes short, but we had 61 votes. We had some good bipartisan 
support.
    I know you have been meeting with Senator Menendez, your 
successor on the Committee, and I have, too. We are working, 
and I hope that we will be able to consider the convention 
sometime by this summer. I am pretty sure we will have the 
votes to get it over the finish line.
    I think it is just critical, and I know you agree that we 
become a part of this convention so that we have a seat on the 
table. As you know, and as we have said so many times, we are 
the leaders in the world on disability rights. If we want to be 
a shining city on a hill, this is one area where we can be and 
where we can help the rest of the world, and that is in 
disability policy, supports, services, integration, and 
accessibility.
    So, in anticipation of the fact that we are going to ratify 
this, Mr. Secretary, I hope that the State Department will have 
a kind of a focused initiative to start providing the kind of 
technical assistance to countries as they seek to learn from 
our country's decades of experience with disability rights, 
accessibility, and inclusion.
    This is a great opportunity for us. I know you have a lot 
on your plate, but I hope that you can task someone in your 
office to begin to think about how we focus this initiative to 
be a part of that convention, how we take what we have done 
here and how we start working with other countries.
    I can tell you I have already worked with the head of the 
World Bank on this, Mr. Kim, who, by the way, was raised in 
Iowa, even though he is Korean. And the World Bank is looking 
at this, too, in the aspect of when there are natural 
disasters, when there is an earthquake someplace and they come 
in with concessional loans for rebuilding, they are already 
starting the effort to say, well, they will loan the money but 
the buildings have to be accessible. They have to be of 
universal design.
    Because we know it is more cost-effective to build 
buildings and roads they are accessible at the beginning of the 
process.
    I repeat these issues, Mr. Secretary, because you are well 
aware of all this and any thoughts you might have on getting 
the State Department focused on being a part of that convention 
and helping other countries.
    Secretary Kerry. Well, Mr. Chairman, let me begin by saying 
that in the 28 years I was privileged to serve as a Senator, 
one of the most significant pieces of legislation passed here 
was your doing, was the Americans With Disabilities Act. And 
you set the standard.
    And I think such a profound impact across the country in 
buildings, in life, in schools, in so many ways, just changed 
life in America. So I salute you for that, and I will tell you 
right now we have people. They are ready.
    We have the Department. We have the personnel. They are 
waiting and raring to go. And we are ready to work with you at 
any point in time.
    With respect to the ratification process, we also stand 
ready to help if there is a--if there is a reservation or a----
    Senator Harkin. Question or reservation, yes.
    Secretary Kerry. Something that we need to define in order 
to help get it over the line, we are prepared to help define 
that to address some of the concerns people expressed, even 
though I don't agree that the concerns were there.
    But sometimes people need something to reassure them. We 
are prepared to define those and help you with the language and 
do so.
    Senator Harkin. I appreciate that.
    Secretary Kerry. The bottom line I want to emphasize is 
that this treaty is one of the rarest treaties I have seen in 
that it requires almost nothing from the United States of 
America. It is everybody else who has to do something to come 
up to our standard and make life better for our citizens and 
theirs in the doing of that.
    It is really this should be an easy vote, frankly, and I 
hope it will be next time. And if we can work to help make it 
so, we are obviously there.
    Senator Harkin. Well, I appreciate that. I am working with 
Senator Menendez and Senator McCain as well as Senator Barrasso 
and others to try to make sure we do have the votes. And if I 
do run into some questions like that, I hope I can call on 
somebody on your staff.
    Secretary Kerry. Absolutely. Of course.
    Senator Harkin. I won't call on you, but somebody on your 
staff to help us on that. I really appreciate that very much.
    Just a couple of other items. First, I want to say on that 
issue of food aid you are right on target. The President is on 
target, and the budget is right. I have been involved in this 
for 39 years. Chaired the Agriculture, Nutrition, and Forestry 
Committee through two farm bills.
    We do need a balance of that. There is some food aid I know 
that we should do in terms of food from here, like the Public 
Law 480 title II. But a lot of times, the fastest way to 
provide assistance is to allow them to purchase the food 
locally. This also helps their farmers, helps them grow crops, 
and become more self-sufficient.
    The only other thing I would add to that is Norman Borlaug, 
who won the Nobel Peace Prize once and whose statue is about 
ready to be put in the Capitol, led the green revolution. 
Norman Borlaug once said that if you really want to help 
farmers in Africa, he said, build roads. He said they know how 
to grow things. He said they know how to farm, but they can't 
get it anywhere.
    And having traveled throughout Africa and looked at that, 
he was right on target. We need to provide more assistance in 
terms of infrastructure and things like that rather than just 
giving them food.
    Third, International Labor Organization (ILO) Convention 
182. I was with President Clinton when that was ratified in 
Geneva in 1999.
    I have been working with Congressman Engel specifically, on 
child labor in one area of Africa, and that is in the cocoa 
fields. And your Under Secretary Carson has been great on this. 
He understands it. He knows it.
    I would hope that you might ask him about it, what we have 
been doing in Cote d'Ivoire, and also in Ghana reducing 
exploitative child labor. We have gotten great support from the 
Ghanaian Government and the new Government of Cote d'Ivoire 
because, as you know, they have had a lot of problems there 
over the last decade.
    But the new government and the new first lady in Cote 
d'Ivoire are very focused on working with us on the issue of 
child labor in the cocoa fields. I don't need a response from 
you. I just hope that we can continue to work with you and our 
Department of Labor on this very important matter.
    It is a joint affair, Mr. Secretary, between your 
Secretariat and our Secretary of Labor joining together, again, 
with ILO and others on this effort. So I just wanted to bring 
that to your attention.
    Secretary Kerry. Thank you, Mr. Chairman.
    Johnnie Carson, I regret to tell you, is retiring, and he 
did a brilliant job. You are absolutely correct.
    Senator Harkin. I didn't know that.
    Secretary Kerry. Yes, he just--he is what you would call 
spent, I guess. He has put his energy into it.
    But we have a superb replacement not yet announced.
    Senator Harkin. Okay.
    Secretary Kerry. And I am very excited about the 
replacement. So I think we are going to be in strong shape. You 
will be very happy.
    Senator Harkin. I am sorry. I didn't know that. I didn't 
know Johnnie was leaving.
    Secretary Kerry. Yes, Sir. He is actually abroad right now 
with his family and taking some well earned time to rest. But 
he has promised me he is not going to--we are going to be able 
to use him for special missions and other things, and we are 
lucky to be able to do that. He is a great----
    Senator Harkin. Well, use him for this because he knows 
this issue really well, and he has been great on this issue.
    Secretary Kerry. That is a good idea.
    Senator Harkin. He has been great on this issue.
    Just one or two other things. In 2015--shifting from Africa 
to the Arctic, in 2015, the United States will take 
chairmanship of the Arctic Council for the first time. I asked 
for a list of the countries--Canada, Denmark, Iceland, Finland, 
Russia, United States, Greenland, Norway, Sweden. So we are 
taking--we are going to be chair in 2015.
    I have been having some recent meetings with someone you 
know, President Grimsson from Iceland. And some of the things 
that I have heard from him are unsettling, that he is getting 
more high-level delegations meeting with him regarding the 
Arctic area from China and Russia and other countries that he 
is not getting from the United States.
    Not that he needs, but he just wanted us to know that other 
countries are really looking at that whole area of the Arctic. 
Also that China is building more new big icebreakers, and we 
only have one. The Coast Guard has one. Because they want to 
extend the time when they can transport goods on these huge 
ships over the Arctic Circle.
    As you know, through the summer months, they can extend it 
with these big icebreakers. So they are going to get more and 
more of the traffic through there.
    Third, that Greenland is going to be one of the great 
sources of minerals in the future. And unfortunately, President 
Grimsson was getting the impression the United States is really 
not paying much attention to the Arctic, and I hope that at 
some point you might have our Ambassador meet with President 
Grimsson or you might be able to meet with him on this issue. 
You know him. You have known him for a long time.
    Secretary Kerry. Yes. No, absolutely. We are going to do 
better than that, actually, Mr. Chairman. I am going to the 
Arctic Council meeting in May, the 15th, in Sweden.
    Senator Harkin. Oh, yes.
    Secretary Kerry. I will be there, and----
    Senator Harkin. Well, that is great news.
    Secretary Kerry. But also, to her credit, Secretary Clinton 
went, too, and she paid attention this.
    Senator Harkin. She did. She was the first one to go.
    Secretary Kerry. I think it is beyond critical to us. Just 
in my meetings in Asia, each of those countries you just 
mentioned, the reason China and these other countries are 
knocking on the door is they all want to be observer. They all 
want to get observer status in the council because the only 
countries that are formally in the council are countries that 
border on the Arctic. You have to be an Arctic nation.
    We have, unfortunately, not been active enough in the 
climate change component of this and what is going to happen. 
But the Russians and Chinese, this is one of the reasons why I 
fought so hard to get the Law of the Sea passed, and I still 
believe our colleagues here need to take a look at it.
    Because the Russians and the Chinese have huge expeditions 
up in the Arctic mapping the sea floor for exploitation, and 
the only way you can guarantee your rights under the law for 
whatever claim you stake which is connected to your extended 
economic zone is through the Law of the Sea. We alone are not 
partners to it.
    China signed up. Russia signed up. All these other 
countries have. And so, our companies that want to do mineral 
exploration under the ocean, like Lockheed Martin and some 
others, our communications companies that want to protect their 
cables that run under the sea--AT&T, Verizon, 3M--all these 
folks want to join the Law of the Sea, as well as our major oil 
and gas companies, all of those explorations.
    So right now, the Chinese and the Russians are laying the 
map, staking the claim, getting a head start on this sort of 
reservation on the resources of the future. And we are sitting 
around.
    Rare earth minerals is another component. Lockheed Martin 
would like to do--I think it is Lockheed Martin that does the--
yes, it is Lockheed Martin that does the exploration for rare 
earth minerals. Right now, today, there isn't a cell phone in 
our Nation, there isn't a communications piece of equipment, 
missile control system that doesn't have rare earth minerals in 
that system.
    China controls 90 percent of the market. Now anybody who 
thinks that is good for America's national security has a 
strange sense of how we protect our interests.
    The way to protect our interests--by the way, we have 
awaiting us the largest coastline extended zone of any nation 
on the planet, and we extend out through the Aleutians. We 
extend out into the Marianas, into Hawaii, and of course Guam. 
So we are sitting here with more available to us, and we are 
not party to the process.
    So a seat is reserved for us on the governing board, and we 
have what amounts to essentially a veto over the expenditure of 
money. This was negotiated, incidentally, by Ronald Reagan.
    So I didn't expect to talk about it here today, but I am 
telling you this is critical to our interests, and I hope we 
could again persuade colleagues here of what is in our economic 
interests. Chamber of Commerce supports it. Major industries 
support it. The military supports it. All the former naval--
Chiefs of Naval Operations and so forth.
    You know, it is one of those things I hope we can get 
through.
    Senator Harkin. Well, I know you have been--since we first 
came to the Senate together in the 1980s, I know you have been 
working hard on that. I have not been a big player in that, but 
I am amazed, like you, that we have not been able to pass and 
become a signatory to the Law of the Sea.
    Thank you, Mr. Secretary.
    Secretary Kerry. Thank you very much.
    Senator Harkin. Thanks.
    Senator Graham.
    Senator Graham. I would yield to Senator Landrieu. I think 
she has to go, right?
    Senator Landrieu. Thank you very much. I am on a tight 
timeframe, and I really appreciate it.
    I just have one brief comment and then one final question, 
and then I will turn back the mike.
    Secretary Kerry, if you continue to press Guatemala and 
Russia, we mentioned that, for intercountry adoption, we still 
have about 112 cases of transition cases in Guatemala and about 
300 and so cases of Russia adoptions where they had been 
matched. Parents and children had been matched.
    These are not all infants. In some cases, these children 
were old enough to understand that their parents from the 
United States were getting ready to pick them up, and now that 
has been put on indefinite.
    I have said to the Russians, if you are angry with us, 
conduct some action that shows that. Don't take it out on your 
own children. But that is what they did. It is unfortunate, and 
I hope that you will use your power to push for those 
adoptions.
    My last question is this. About children still, but a 
different view. You remember the young girl going to school, 
Malala?
    Secretary Kerry. Malala?
    Senator Landrieu. Malala Yousafzai.
    Secretary Kerry. Yes, in Pakistan.
    Senator Landrieu. She has recovered.
    Secretary Kerry. Yes.
    Senator Landrieu. Thank the Lord. And I think she, 
according to the paper this morning, is making her first public 
appearance, a speech, I think, in New York sometime very soon. 
I am so proud of this child's courage.
    And Senator Boxer and I have introduced a bill, and I hope 
our colleagues will join us in supporting in her honor, that 
will expand opportunities for education for girls in Pakistan. 
You know, she was shot for the great effort of just trying to 
get to school in the morning.
    But the problem is, is that there are millions of girls 
around this world that are trying to get to school, and without 
our help, they will never make it. So what are you doing 
specifically in honor of her, but also this great need of 
getting girls the education they need so they can lift up the 
economies of their countries, which would be very important for 
the future of the planet, and move us all forward economically?
    Secretary Kerry. Well, Senator, the entire Department is 
deeply committed to this. Secretary Clinton, obviously, raised 
the profile on this and set an agenda. We have a national 
agenda with respect to women and girls, and we are going to do 
it and enforce it completely.
    I had the privilege of presiding over the Women of Courage 
Awards, which we did a month or so ago. We had three or four 
awardees who were not able to be here because they are either 
being held under house arrest or they were scared to leave or 
they couldn't leave, et cetera, because of the courage they 
show and the things they are doing. And we intend to continue 
to press this.
    I mean, America should take pride in what we are doing with 
respect to girls in places like Afghanistan. When we began our 
initiatives in Afghanistan in 2001, there were maybe 1 million 
kids in school, and they were almost all boys. I would say 98 
percent, if not 100. Now there are almost 7 million children in 
school and almost shy of 50 percent, but about 40-some percent 
are girls.
    I met the other day in Afghanistan, we purposefully went 
out--we did an event that I thought was important to do with 10 
Afghanistan women, each of whom have started their own 
business, and they were remarkable in their courage, in their 
fearless--you know, one woman, I think, had something like 10 
or 12 businesses she had started.
    One had three or four, and one of them was a big trucking 
company, and she is running this business all around the 
region. All kinds of enterprise. One was helping reach out to 
other people, to give counseling about how they can become 
entrepreneurs.
    We are going to stay absolutely dedicated to these programs 
because that is critical not just to the department, but it 
kind of defines America and is part of who we are and part of 
our foreign policy. And I am proud of it, and I hope I can make 
all of you proud.
    Senator Landrieu. Well, thank you. And would you take a 
look at the specific bill? And if your Department could give a 
good nod to it, I would--take a look at it and get----
    Secretary Kerry. I can't see why we wouldn't, but let us 
take a look at it.
    Senator Landrieu. Thank you very much for your commitment.
    Secretary Kerry. Thank you.
    Senator Harkin. Senator Graham.
    Senator Graham. Mr. Secretary, welcome.
    Secretary Kerry. Sir.
    Senator Graham. Are you getting paid by the mile? I don't 
know if we could afford you.
    I just want to say thank you for putting your heart and 
soul into this job. You have been terrific, John. You have 
gone--I think every place on the planet that has a runway you 
have probably been there.
    I know how much you care about the country. I think you are 
a great pick by the President, and I want to be your partner 
and help you where I can because we are all in this together.
    A couple of things. There is a constant effort in the 
Congress to cut aid to Egypt, and I can understand why people 
in America would be frustrated with the Morsi government and 
the level of progress, but could you just very briefly describe 
to this subcommittee and those who are watching why it is 
important to stay in the game with Egypt? What would happen if 
we just severed our ties?
    Secretary Kerry. Well, if we just severed our ties, I think 
our great ally Israel, our friend, would be in jeopardy 
immediately. Egypt is enforcing the peace in the Sinai. Egypt 
is working military-to-military, intelligence-to-intelligence 
with Israel. Israel will tell you that that cooperation is day-
to-day and critical to them.
    Egypt helped to broker the Gaza peace agreement and has 
kept it enforced. Egypt has helped to shut tunnels for 
smuggling that are going in. There are still too many tunnels, 
but they have begun that process. Egypt's military is an 
essential bulwark against extremism and a pro-cooperative 
effort.
    I think everybody needs to step back and say look at what 
happened in Egypt. You had a bunch of young people, a 
generational revolution, not an Islamic revolution, not a 
religious-based or ideological revolution, a generational 
revolution that was based on the aspirations of millions of 
young kids who want a future that they see the rest of the 
world having because they are all connected on the Internet, 
and they see what is going on in the world.
    That was the cell phone, text message revolution. And what 
happened is, obviously, they had an election, which we should 
be grateful for and proud of, and the people who were the most 
organized, as is often the way it is in elections, won.
    Now we got questions about where they are going? Yes, we 
do. I am not going to sit here and tell you that I am sanguine 
about it. They have got to make major economic decisions. They 
have got to do a better job of reaching----
    Senator Graham. The IMF is involved.
    Secretary Kerry. IMF, all of that. But the military kept 
the peace. The military actually kept civil war from occurring. 
We have young officers in our military who work with theirs who 
are able to get on the phone and help to quell the violence and 
give them a sense of direction, and that military actually 
created the framework for the election and then turned over 
power to the elected officials of the people of Egypt. They 
supported democracy.
    To cut aid to them and to cut aid to Egypt now would be an 
insult to everything that we have tried to work for and that 
they have ``embraced'' and, frankly, a dangerous move with 
respect to the security of the reason.
    Last issue. One-quarter of the Arab world is in Egypt. 
Egypt has historically been the center of really the grounding 
of the Arab community, if you will, and in terms of its civil 
society, there is a strong civil society there. It needs to 
organize itself more effectively. The opposition needs to 
organize itself more effectively.
    But there is the capacity there for a vibrant political 
debate going forward. And we should not turn our back on that 
because somebody won the election who may put some of those 
choices at question today.
    Senator Graham. Well, as to the aid that we give to the 
Egyptian military, it is not a small part of their budget. So I 
hope we understand that the Egyptian military is the glue that 
holds this place together right now, and our economic aid, the 
economy of Egypt is in decline. And we should do what we can to 
keep it from becoming chaotic. So I support what you are doing.
    Now on the King of Jordan. I think we had 480,000 refugees 
from Syria come into Jordan. The 150 account is 1 percent of 
the Federal budget. Foreign aid is 1 percent. And the money to 
help situations like Jordan I think is indispensible to keeping 
the King in power.
    What would happen--tell me how this account is faring in 
light of Syria, and what would happen to the region if somehow 
the King of Jordan were taken down?
    Secretary Kerry. Well, we are the largest contributor to 
Syrian refugee situation. We have put $385 million in the 
Syrian refugee situation. People are going to have to do more 
broadly.
    While I was in China, I asked the Chinese. I asked the 
Japanese. They are prepared to be helpful. Japanese have 
already been helpful. This is a global humanitarian crisis that 
is growing in its magnitude.
    So our account is going to be tested, and our ability to 
help is going to be tested in the days ahead.
    Senator Graham. And what we do to do make----
    Secretary Kerry. And it is critical to Jordan. I mean, 
Jordan is the essential partner with respect to stability in 
the region, peace process, the West Bank. There are many, many 
ways in which every member knows Jordan steps up and tries to 
be helpful on things, and they are going through a difficult 
economic time, as well as other challenges.
    The fourth largest city in Jordan today is a tent city. It 
is a city of refugees, fourth largest now. That has a profound 
impact on the rest of the country.
    Senator Graham. If I could just have a couple of minutes, 
and I promised Senator Begich.
    This is so important that we understand where our money 
goes. It is 1 percent of the budget, but it makes the real 
difference in Egypt, and it may be the difference between the 
king surviving or not in Jordan. I hope people understand that 
the money we spend has a purpose behind it, and yes, we could 
always do better.
    Camp Liberty, remember the MEK situation, the Iranian 
population in Iraq. Could you give us an update of what we are 
trying to do there?
    Secretary Kerry. I will. First of all, I am very concerned 
about the safety of people in Camp Liberty, and I understand 
the passion of the folks from the MEK who show up at many of 
the hearings here and their concerns.
    Senator Graham. Right. I understand it, too.
    Secretary Kerry. But the fact is that Camp Ashraf, as it 
was when they used to be there, really doesn't exist the same 
way anymore, number one. Number two, that camp is very close to 
the Iranian border, and it has been a tinderbox with respect to 
Iranian, Iraq, and Camp Ashraf issues.
    Number three, a key component of the MEK's delisting from a 
foreign terrorist organization classification was their 
cooperation to move from Camp Ashraf to Camp Liberty, and there 
is an MOU between the government of Iraq and the U.N. that 
provides a legal basis, a binding basis for protecting the 
residents of the camp and facilitating a process of 
repatriation. But that is predicated on them moving from 
Ashraf.
    So there is a very complicated deal here. Ashraf sits in 
the middle of Diyala Province. Diyala Province is one of the 
more violent and dangerous provinces in the county. So the 
purpose of moving them out of there was really to try to 
provide greater protection, and I think the bottom line is we 
are trying to relocate them.
    Now that relocation process has gone through a slight 
hiccup or two in the last months. Number one, originally, some 
250 people were going to relocate to Albania. The Albanians 
were going to accept them. Then the folks who were going to 
relocate refused. Since then, I am informed that about 170 have 
agreed to go to Albania.
    A lot of countries have been approached by us and asked 
will you take some people? And frankly, we have been finding a 
very--we have had a hard time. We are not finding takers.
    We are conducting interviews. More than several thousand 
have been interviewed. But in the interview process that has 
been going on, that stopped because the interviewees sort of 
said, no, we are not going to submit to the interviews now. We 
want to go back to Ashraf.
    So there has been a back and forth here, folks, that has 
been very, very complicated.
    Senator Graham. Well, Mr. Secretary, obviously you are very 
aware of the situation, as you are almost everything I talk to 
you about. So please keep the subcommittee informed. We want to 
help.
    It would be a betrayal if we let these people have a bad 
fate.
    Secretary Kerry. And I am worried about their safety. I 
raised that with Prime Minister Maliki when I was in Iraq. 
Technically, the Iraqis----
    Senator Graham. We have got a whole continent to do in 
about 30 seconds. Africa. The Chinese are all over Africa. We 
have almost no military footprint. The war on terrorism is 
moving to Africa.
    Our PEPFAR programs, our malaria programs, our aid programs 
saved a whole generation of young Africans. America is pretty 
well thought of in that part of the world. Could you tell us, 
this subcommittee, why we should continue to invest in Africa, 
and are we getting a good return on our money?
    Secretary Kerry. Well, we are not investing enough in 
Africa to get the proper return on our money. The Chinese are 
investing more than we are today. Ten of the 15 fastest-growing 
countries in the world are in Africa, and the United States has 
a huge stake in the future there.
    We need a program, actually, to deal with the Sahel, to 
deal with the Maghreb. We deal with Sub-Saharan activities. I 
will be recommending to the President a couple of envoys, one 
for the Sudan, one for the Democratic Republic of the Congo 
Great Lakes area, and we need to be engaged, very, very much 
so.
    This is a vital, vital continent.
    Senator Graham. It is an economic opportunity for this 
country. Most of Africa has no power. There is a lot of 
business interests to be served. If we get in on the ground 
floor, America can create a lot of jobs by helping the people 
in Africa.
    Do you agree with that concept?
    Secretary Kerry. Senator Graham, not only do I agree with 
that, but that should be the story of our diplomacy, and I 
intend to raise the profile of what we call economic diplomacy. 
We are going to go out there and be more engaged. The President 
has already committed us to a major initiative with the TTIP, 
and Turkey now wants to negotiate a parallel track with that.
    He has also committed us to the TPP, which is the Trans-
Pacific Partnership. Japan has just taken steps to raise their 
game in terms of standards and rules so that they can be part 
of this negotiation.
    So I think President Obama is defining a very important 
economic strategy that will strengthen America in the world and 
also provide more jobs here at home and more revenue for us.
    Senator Graham. Thank you, Mr. Secretary.
    Secretary Kerry. Thank you very much, Senator.
    Senator Harkin. Senator Begich.
    Senator Begich. Thank you very much.
    Again, congratulations, Secretary Kerry. Thank you for 
being here.
    Let me, if I can, I want to walk through a couple issues 
first, our kind of budgetary issues and then just some general 
policy, if that is okay?
    First, one of them is a small issue, but it is one that is 
just kind of on my radar screen. I know in the fiscal year 2014 
budget, you have indicated your department has indicated a new 
consulate in Northern Iraq and acknowledges that, overall, our 
diplomatic footprint will be smaller, but yet we are going to 
do this.
    And I guess I would be interested in knowing what the cost 
of that project--you don't have to do it now, but if you could 
get to me the cost of that project, as well as the operational 
cost, and how that fits into this overall strategy of a 
different kind of smaller footprint overall? Because it wasn't 
as detailed as I would like.
    Is that something you could make sure gets to us?
    Secretary Kerry. Oh, absolutely. That is the consulate, I 
believe, that we are putting into Erbil.
    Senator Begich. Yes.
    Secretary Kerry. And it is really important in terms of our 
relationship. The Kurd relationship with the rest of Iraq right 
now is shaky. Prime Minister Maliki's relationship both with 
the Sunni as well as the Kurd issues is not where we would like 
it to be.
    We are talking about $250 million, and I think it is very, 
very important to us in terms of a significant component of the 
Iraqi mosaic.
    Senator Begich. Okay. The $250 million is the construction, 
and the operational costs is which?
    Secretary Kerry. I don't know if that includes operation or 
just construction? I think that is construction.
    Senator Begich. Just construction. Can you, at whatever 
point, get us the operational?
    Secretary Kerry. Sure.
    Senator Begich. I would be curious on it because, as you 
know, it is sometimes easy to get capital money and harder to 
keep operational money.
    Secretary Kerry. I completely understand.
    Senator Begich. So if I could get that.
    Second, this is one that I know as soon as I say this, 
every time I get a lot of calls into my office. My poor staff 
gets subjected to this pain and agony. But in your, again, in 
the budget, the administration's budget, they have $37 million 
in fiscal year 2014 for the peace initiative.
    I want to make clear I am all for peace. So when people--I 
am saying this more for outside this room, because I get calls 
all the time when I say this, and I know it was established in 
1996. And I guess I am interested in if it is now or in some 
sort of document that you could share with me the value of this 
facility, this institute, and what it does. And how is it 
adding to our efforts?
    And again, and why I ask you this, and to be very frank 
with you, appropriations, you know, I am new to appropriations, 
but I have a different kind of view overall that we have got to 
look at these budgets in a different way. And we have tough 
decisions to make.
    I mean, you were sitting on this side of the equation many 
times about the budgets, and there are not comfortable 
decisions to make and what we need to do on the revenue side as 
well as an expenditure side. And this is one that keeps 
cropping up on my agenda on trying to find out more 
information, why do we do it, what is the value, and then how 
do we measure that against other things you are doing as 
stipulated?
    As you just hear Senator Graham talk about some important 
things in Africa, which I will tell you is--I would agree with 
everything he said. We are totally underfunded there. But can 
you give me a couple seconds on that, and then I have a couple 
more I want to go to.
    Secretary Kerry. Well, let me just preface it, if I can, 
Senator Begich, by saying to you that 2 years ago, 3 years ago, 
I guess, the Congress made a decision based on the sapping of 
the State Department's capacity over 10 or 15 years, frankly. 
Particularly during the period of Iraq and early Afghanistan, 
an awful lot of money drifted over to the Department of Defense 
(DOD).
    Senator Begich. DOD, yep.
    Secretary Kerry. And Secretary Gates made very important 
comments regarding this and, frankly, joined forces with 
Secretary Clinton to try to say you have got to stop that. It 
is inappropriate to be putting all of this----
    Senator Begich. You get the aftermath. You get the 
aftermath usually when DOD finishes. You have got to deal with 
everything afterwards.
    Secretary Kerry. Well, not just that. There is a lot of 
stuff that DOD has been doing which, in fact, the State 
Department ought to be doing, particularly in a world where we 
don't need the military footprint, and you don't want a 
military footprint. You want a different kind of footprint to 
accomplish these things.
    Senator Begich. Yes.
    Secretary Kerry. And so, I think it is really important to 
continue that trend.
    Now the Congress decided to, in fact, grow the State 
Department's capacity by 25 percent. We have reached 17. Now we 
are going backwards. So I am going to come here and fight hard 
with all of you to measure--I know we have got these problems 
here, but after 28 years here, I got a pretty good sense of the 
budget, and after the Super Committee even better.
    We don't have to be making these choices. I want to fight 
back against the notion that we ought to be sitting around 
accepting even the concept of a sequester. Sequester was 
supposed to be something that never happened, not something 
that we are all happy to live with.
    It was never supposed to happen because we were going to 
get an agreement, and I don't think it is too late to still get 
an agreement, personally. Now I am not going to jump back in 
the politics----
    Senator Begich. Your diplomacy will be needed.
    Secretary Kerry. Yes, I think we have got to put the focus 
where we need it. And I think, in terms of this budget, I would 
argue with you that $37 million for the Peace Institute, I 
would like you to come down as a guest, I mean, it is right 
down the end of Constitution Avenue.
    Senator Begich. I know.
    Secretary Kerry. You ought to walk in there and let them 
brief you and show you what they are doing. They are doing very 
important conflict prevention, conflict resolution, conflict 
aftermath. There are a whole series of initiatives that they 
are engaged in, doing work in a nongovernmental fashion that we 
can't do directly or don't have the money to do and the 
wherewithal and so forth.
    And I think----
    Senator Begich. Well, that is what I guess----
    Secretary Kerry [continuing]. we need to measure that.
    Senator Begich. Secretary Kerry, I am asking that question 
because I hear you, and I am one of those, for example, I mean, 
I suggested a cut in one area. To be very frank again, when I 
say this, I get calls. It was the study of political science.
    I thought I would rather move that to the National 
Institutes of Health for breast cancer research. It was to say 
eliminate it. Let us just select a priority that has a higher 
value or the word earlier used, ``return on investment''. That 
is what I am looking for.
    And if there is a value that to the work you do, then that 
is what I need to know because, otherwise, we will be sitting 
here having--I don't want to get into the sequester. But we 
will be having these debates forever. I mean, I have only been 
here 5 years, and it is painful to hear what people want to do.
    So what I try to do is look at how we ensure the 
priorities, because every Department has more priorities than 
they have money. I don't care what Department it is.
    Secretary Kerry. I realize that.
    Senator Begich. And the question is what are those highest 
priorities we need to be focused on and how to generate the 
right return and value? And I don't want to make it so crass 
that way, but where it makes a difference.
    And I agree with you on the DOD stuff because I sat on the 
Armed Services Committee 4 years, and I can give you program 
after program with those cuts that we could make there. What it 
would do to your Department would be enormous. I mean enormous, 
just to be frank.
    So I will take that challenge, but let me ask you one 
other, and my time is really up. But, and I will have some 
questions for the record. But I really appreciate the work you 
have done on the Arctic. You know, we have talked about it when 
you were in the Senate.
    I appreciate Senator Harkin bringing it up. And one of the 
issues, I think I bumped into you during the Inauguration. I 
said we need to talk more about it at the Inauguration. I think 
it was at a food line or something, and I said, you know, 
Singapore has an Arctic ambassador. Singapore.
    Secretary Kerry. And they want to get in.
    Senator Begich. And they want to get in. And I would hope 
you would look at something we proposed last year. We have sent 
something through channels to have people start looking at it, 
and that is we should have, as this country, an Arctic 
ambassador.
    It is multi-facet, as you know better than I. I don't have 
to go through all the presentation because you all, both of you 
actually did it, which I appreciate because I also sat and met 
with the President of Iceland today. I saw him about 6 months 
ago also.
    And he is right. While we worry about and we will be 
debating immigration here in short order and the borders and 
all that, but what we forget is people can ride a boat right 
into the coast of Alaska and get off. There is no border. There 
is no immigration officer except maybe 500 miles away, and you 
have got to fly there.
    But yet we are so focused on the South, which is very 
important, we are forgetting about the double-digit increase of 
ships coming through the Bering Sea. You have got China, who 
wants to be not just an observer. They want to be a member, and 
they want to own one-fifth of the Arctic, which I am in a 
public forum. So I will keep my comments calm here and use my 
words carefully.
    But unless I have missed something since I have been here 
this week, they didn't move to the Arctic. They are still down 
somewhere else, and we have a unique opportunity. And I know 
your passion around this issue because it relates to climate 
change, Law of the Sea. It is all connected.
    And the economic opportunities are beyond belief. And we 
sit around and kind of, well, okay, and 2 years from now, we 
will be at the chair of the Arctic Council, and I am so happy 
to hear what you just said a few minutes ago that you are going 
to be going there. I think it is May 15. I forget the exact 
date, but May 15.
    That is a huge signal that we care about the Arctic and 
that we want to be a player. And so, I would just ask you to 
look, and we will send you some of the information on the 
legislation we had last year. But to get us on some equal 
footing.
    Not saying the State Department hasn't done a good job, but 
we need someone who has this massive overall approach to the 
Arctic that the State Department is a strong supporter.
    Secretary Kerry. I wrote down a big message to myself right 
here----
    Senator Begich. Okay. I am sorry. I got on my rant because 
you know--okay. Because you know you and I get on the same 
positive like why don't we have the Law of the Sea? Why don't 
we have this? And it is like insane.
    It is a whole new area for us as a country, and it is 
almost like we are just now discovering the Arctic Ocean as 
something of value. Well, it has been there. The difference is 
now it is melting, and people are realizing ``Wow!''
    I mean, China has figured this out. They move ships from 
China to other markets, they will save 40 percent on shipping 
costs. They are not messing around.
    They are going to have a conference on the Arctic in 
Shanghai. Unless I missed something, Shanghai isn't in the 
Arctic.
    So I really appreciate that. I didn't mean to get on my 
rant there, but I got a little worked up.
    Secretary Kerry. No, Senator, I love your passion about it, 
and I can--I wish those particular chairs were full and----
    Senator Begich. I actually wrote that note ``our 
colleagues'', and I made a note. I had an arrow.
    Secretary Kerry. I think we ought to have a classified 
briefing at some point in time so a lot of our colleagues can 
bear down on how our security may be affected by all of this, 
and I think we should think about that.
    Senator Begich. You are right on about this.
    I will end on that, Mr. Chairman. Just say I will send a 
question in on economic diplomacy through energy policy, which 
I know is another----
    Secretary Kerry. Yes.
    Senator Begich [continuing]. Powerful issue you work on.
    Secretary Kerry. I spoke at the energy--you will be pleased 
to know I spoke at the energy forum in Beijing briefly and went 
there with the state councilor, and that was a joint effort for 
both of us. And we issued a statement jointly with the Chinese 
elevating the climate change discussion now with China and the 
United States on a bilateral basis to what we call the SNED, 
the strategic and economic development dialogue that we have.
    That is at the ministerial level. Secretary of the Treasury 
Jack Lew and I will co-chair, major Chinese equivalent officers 
will be there, and we will engage very directly in what steps 
we can take just between us to try to address some of these 
issues.
    Thank you.
    Senator Harkin. Thank you, Senator Begich.
    I hope that you and I can sit down over coffee or something 
sometime and talk about the United States Institute of Peace. I 
was there at the beginning of it with Sparky Matsunaga and Mark 
Hatfield, and there is a lot of history there, and it is 
something I would appreciate speaking to you about sometime 
soon.
    Mr. Secretary, one last thing. I don't want an answer right 
now. If you would just give it for the record. This has to do 
with getting our ally Japan to ratify the Hague Convention in 
resolving about 321 cases of United States children that are 
United States citizens being abducted to Japan by one of their 
parents?
    If you would respond for the record, if I could submit 
that?
    Secretary Kerry. I will just give you a really quick 
answer. I raised the issue directly with the Prime Minister 
while I was there a few days ago.
    Senator Harkin. Okay.
    Secretary Kerry. He has submitted it to the Diet, and now 
the issue is will they get it passed or not? So I think 
whatever you can do to encourage its passage, the Congress 
could do, would be very, very important. This really is an 
important step, and I raised that issue very directly with him.
    Senator Harkin. Well, I appreciate that. You don't need to 
respond to the record now. That was good enough.
    Secretary Kerry. Saved ourselves one.
    Senator Harkin. That is great. Mr. Secretary, thank you 
very much. You have been very generous with your time and your 
information. And again, thank you for your great leadership.
    Secretary Kerry. It is a privilege to be here. Thank you.
    Senator Harkin. Thank you, Mr. Secretary.

                     ADDITIONAL COMMITTEE QUESTIONS

    I'll keep the hearing record open until 5 p.m. Monday for 
written questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Hon. John Kerry
            Questions Submitted by Senator Patrick J. Leahy
    Question. How will you determine when to establish or maintain an 
``expeditionary diplomatic post,'' and when is it not worth the risk 
and resources?
    What steps has the Department taken to ensure that all diplomatic 
facilities--whether permanent, expeditionary, or temporary--receive the 
necessary security evaluations?
    Answer. A proposal to open, close, or change the status of a 
diplomatic mission normally is made and recommended by the assistant 
secretary for the appropriate regional bureau. Posts are maintained at 
places of significance to U.S. policy or interests and where the 
maintenance of a post is acceptable to the foreign government. Many 
factors are considered in determining whether to open, close, or change 
the status of a post, including the need for political and economic 
reporting, the extent of U.S. commercial interests, and the number of 
resident U.S. citizens. The general procedures to open, close, or 
change the status of a post are set out in the Foreign Affairs Manual 
at 2 FAM 400.
    There are times when U.S. national interests require our immediate 
presence. In these circumstances, we must find a suitable facility, and 
enhance security to the maximum extent possible. Time and the limits of 
construction feasibility circumscribe our ability to retrofit an 
existing structure to meet our full standards. In the future, secure 
expedient facilities will likely remain a critical need, and we 
continue to examine how to best meet this need based on the totality of 
the operating environment and host country capabilities.
    Security environments can change quickly, so we proactively assess 
the threat situation on a regular and systematic basis to prepare for 
contingencies, and so we will better be able to act quickly to protect 
our people and facilities. Regular interaction with our interagency 
partners at both the senior and working levels allows us to share 
information and coordinate on security. Similarly, at every post, the 
Emergency Action Committee, a group of subject matter experts appointed 
by the Chief of Mission, meet regularly to discuss threats, 
emergencies, and other crises at post or against U.S. interests that 
may have an impact on post.
    The Department is fully committed to protecting our people and 
facilities wherever they are located. The independent Benghazi 
Accountability Review Board (ARB) made 29 recommendations in key areas 
such as training, fire safety, staffing, and threat analysis. So far, 
we have addressed nearly all of the recommendations, but work continues 
and sustained implementation will require congressional support.
    Building on the recommendations from the independent Benghazi ARB, 
the Department is taking a number of steps to enhance security for 
personnel and platforms in high risk, high threat posts. We established 
a mechanism for designating posts as ``high threat.'' Critical elements 
for discussion in the designation process include: the regional 
bureau's assessment of the political/economic situation; the ability 
and willingness of the host nation to protect U.S. interests; known and 
perceived threats against the United States; and the vulnerabilities of 
U.S. personnel, facilities, residences, and outlying structures.
    The Department has also created a High Threat Review Board to 
conduct an internal review of the High Threat High Risk post list every 
6 months. The High Threat Post Review Board will review the U.S. 
official presence annually, and on an ad hoc basis if required (e.g., 
if the security environment deteriorates at a post).
    Also of note, the sixth unclassified recommendation of the 
independent Benghazi ARB states: ``Before opening or re-opening 
critical threat or high risk, high threat posts, the Department should 
establish a multi-bureau support cell, residing in the regional 
bureau.'' As part of our work to implement the ARB's recommendations, 
the Department developed standard operating procedures for ``Support 
Cells'' for opened/reopened posts. The process is being incorporated 
into the Foreign Affairs Handbook.
    Moreover, the Department created the new position of Deputy 
Assistant Secretary (DAS) of State for High Threat Posts (HTP) in the 
Bureau of Diplomatic Security (DS)--a position that will focus on the 
specific challenges facing high threat posts, which will enable other 
DS experts to focus on other challenges. The new DAS for HTP will work 
closely with the existing DS office of International Programs (IP), 
which manages overseas security and law enforcement programs and 
related policy for the benefit of United States Government (USG) 
interests and the international community. Both HTP and IP provide the 
operational guidance and funding necessary to establish and maintain 
effective security at U.S. Diplomatic and Consular facilities; ensure 
Regional Security Officer security programs are effective and in 
conformity with DS policy and standards; and provide resource and 
planning support. The IP directorate also includes the office of 
Overseas Protective Operations which administers the Local Guard 
Program and Residential Security program, as well as, the Office of 
Special Programs and Coordination which administers the Marine Security 
Guard Program, and Emergency Planning process, among others for all 
posts.
         cybersecurity and information security vulnerabilities
    Question. The State Department Inspector General has identified 
shortcomings that leave embassies vulnerable to cybersecurity attacks.
    Some of the concerns include the Department's lack of policies and 
procedures for maintaining information security, the lack of 
appropriate training for information technology staff, and information 
security officers who are not performing required duties due to 
competing priorities and inadequate guidance.
    Given the need for strong cybersecurity and information security, 
what is the Department doing to address these vulnerabilities?
    Answer. The Department has established a global ``defense-in-
depth'' cybersecurity program that leverages the collective expertise 
of the Bureaus of Diplomatic Security (DS) and Information and Resource 
Management (IRM) to identify and mitigate threats to our networks and 
information assets. This matrix of technical security, operational 
security, and program management capabilities provides system owners 
and senior officials the timely cyber intelligence reports, threat 
analysis, and technical security evaluations necessary to make informed 
risk-management decisions and thereby safeguard the Department's 
sensitive information and critical infrastructure. In addition to these 
security initiatives, the Department recently launched the Foreign 
Affairs Cybersecurity Center (FACC), a state-of-the-art cyber 
operations facility that focuses on detecting and understanding the 
emerging cyber threats and activities within the Department and the 
entire foreign affairs community.
    The Department has actively addressed and will continue to address 
the issues identified by the OIG in aspects of the Department's cyber 
programs.
    IRM and DS have completely revised the policies and procedures 
contained in the Foreign Affairs Manual dealing with information 
programs and security. These revised policies and procedures are 
currently in the clearance process leading to publication.
    On the training front, we have nearly completed a thorough revision 
of the Information Assurance Training Program that will revitalize the 
education given to information technology staff as well as all 
Department personnel who play a role in information technology and 
cybersecurity, including senior managers.
    The Department recognizes the challenges placed on our Information 
System Security Officers (ISSO), particularly at posts abroad where 
staffing levels require that they perform other duties in addition to 
those expected of the ISSO, but believe that the systems and training 
we have implemented provide the robust security required.
    Question. You have been to Afghanistan many times. You have seen 
our aid programs. On the plus side, thousands of girls are in school 
and there are improvements in public health and other areas.
    On the minus side, the situation facing Afghan women remains 
abysmal, and USAID and the State Department, often pressured by the 
Pentagon, have spent a lot of money on unsustainable projects that made 
no sense in that country.
    You are asking for another $3 billion for U.S. Embassy operations 
and aid for Afghanistan in fiscal year 2014. That is still a lot of 
money. With most U.S. troops coming home, the countryside too dangerous 
for Embassy officials to travel much outside of Kabul, and corrupt 
warlords eying the spoils, what can we realistically do there--is this 
a situation where not long from now the only place the Taliban are not 
in control is Kabul itself?
    How do we avoid throwing away more money on things that don't last?
    Answer. The support provided by the United States to the Government 
and people of Afghanistan since 2002 has fostered significant 
political, security, and economic reforms and progress. The Strategic 
Partnership Agreement between the United States and Afghanistan, signed 
by President Obama on May 1, 2012, outlines a way forward between our 
two nations that builds confidence in Afghanistan's future and builds 
on the gains of the past decade.
    U.S. engagement in Afghanistan remains disrupting and dismantling 
to al-Qaeda in Afghanistan, blunting its capacity to threaten America 
and our allies. Our cooperation with, and assistance to Afghan National 
Security Forces has made significant progress and we are on-track to 
transition full security responsibility to Afghan forces by the end of 
2014. Afghan citizens do not want their country to return to the state 
of chaos that existed prior to 2002, and with steadily increasing 
capacity, Afghan forces are already leading security operations and 
maintaining security in areas where nearly 90 percent of the Afghan 
population lives.
    We have also made significant progress in the civilian sector 
including improvements in delivery of health, education and other 
services, the responsible management of natural resources, and the 
distribution of electricity. In the coming years we will cooperate with 
Afghans and other donors to further improve the performance of Afghan 
security services and continue work with civilian ministries to protect 
the development achievements of the last decade. We will support the 
political transition to a new democratically elected government, 
promote economic growth with a focus on agriculture, strengthen the 
justice system, protect the health and education gains and ensure women 
continue to play a central role in Afghanistan's future development.
    Assistance activities in Afghanistan are increasingly focused on 
systematic, long-term improvements that are Afghan led and sustainable. 
The Department of State and USAID are committed to ensuring that 
assistance programs achieve sustainable results in Afghanistan. 
Likewise, we share the Afghan Government's goal of increasing 
Afghanistan's self reliance and decreasing the country's dependence on 
foreign aid. The USAID Administrator issued the Sustainability Guidance 
in 2011 to ensure USG programs achieve sustainable results, and all 
USAID projects initiated since then have met the Administrator's 
criteria. In addition, we have incorporated sustainability into all 
project design processes, and all USAID projects are now subject to a 
sustainability audit.
    As we pledged at the Kabul and Tokyo Conferences on Afghanistan, we 
are responsibly increasing the amount of assistance we channel through 
the Afghan budget as a means to build Afghan capacity and improve the 
sustainability of assistance projects. Our focus is to deliver 
effective programs, in partnership with the Afghans, which will have 
lasting impacts through the Transformation Decade. Our economic growth 
projects, for example, are creating jobs, private sector investment, 
and increasing Afghan Government revenues.
    Our health and education programs, meanwhile, are increasingly 
being delivered on-budget through Afghan systems. We are reducing 
budgets for short-term programs, such as cash-for-work, and focusing 
stabilization efforts instead on linking communities with local 
governments.
    In the area of infrastructure, we have made significant and life 
changing investments in energy and transport. And we are now making 
every effort to ensure Afghan mechanisms and capacity to properly 
maintain projects are built concurrently with the physical construction 
of dams, electrical lines and roads.
    Civil society must play a critical role in ensuring implementation 
of commitments made at the Tokyo Conference, including overseeing the 
sustainable implementation of aid and enhancing its effectiveness. We 
recognize civil society's value in overseeing decisionmaking processes 
and seek to regularly engage civil society actors on this and other 
topics.
    Question. The Morsi government is consolidating power in ways that 
concern people here. The rights of women and non-governmental 
organizations (NGOs) are under assault, and it seems like prospects for 
a government that fully respects human rights and the rule of law are 
diminishing.
    We want a close relationship with the Morsi government and with the 
Egyptian military. But the days of blank checks are over. There are 
Republicans and Democrats who believe we need a comprehensive review of 
our economic and military aid for Egypt, identifying what our goals are 
and what Egypt's needs are.
    You were there not long ago. What is your assessment of President 
Morsi's intentions, and what is your best guess of what Egypt's 
transition will look like a year from now?
    Answer. The administration believes that the Egyptian Government 
values a strong relationship with the U.S., and we will work to 
maintain that relationship while pursuing our goals in Egypt and the 
region. Those goals include the advancement of basic human rights, rule 
of law, and security interests. A democratic Egypt that upholds human 
rights, including the freedoms of speech, assembly, association and 
religion and equal rights for women and religious minorities, is in the 
U.S. interest, and our assistance is an important tool in our effort to 
promote such freedoms. We have real concerns about the course of 
Egypt's democratic transition. We convey, both in public and private at 
the highest levels, the need to protect fundamental freedoms, and we 
have publicly noted our concern over investigations and prosecutions 
that aim to restrict freedom of expression and legitimate political 
protest. We are also in close contact with senior Egyptian officials 
over draft laws that would restrict civil society and freedom of 
assembly. Egypt will be more stable and prosperous, and the U.S.-Egypt 
relationship will be stronger, when all Egyptians are able to organize 
and voice their opinions freely without fear of prosecution or 
government interference.
    Similarly, the shared U.S.-Egypt goal for the Egyptian Armed Forces 
is a modernized military, including equipment, capabilities, and 
doctrine, that is willing and capable of countering emerging threats 
and partnering with the U.S. to address regional security challenges. 
We are continually working with the Egyptian military to target more of 
our assistance toward emerging threats, including border security, 
Sinai security, and counterterrorism. Those efforts are bearing fruit, 
as an increasing percentage of our Foreign Military Financing is 
dedicated to these specific threats. In cooperation with the Egyptian 
Ministry of Defense, we will conduct further review of our strategic 
relationship and initiatives to broaden and strengthen our defense 
partnership as part of our annual, military-to-military talks.
    It is crucial that we maintain a strong relationship with the 
Egyptian Government in order to advance our interests in the region as 
Egypt pursues its democratic transition. As we have said, the 
transition will not be linear or easy, and it is difficult to predict 
what Egypt will look like in the coming months. But that is why we must 
remain engaged, because instability in Egypt would seriously affect 
regional security and could undermine transitions in other countries. 
We regularly review our aid programs to countries around the world, and 
as conditions in Egypt have changed, so too has our assistance. This 
coordinated effort will continue so that our assistance satisfies both 
our goals and Egypt's needs.
                 reducing waste at the state department
    Question. The State Department Inspector General regularly 
recommends cost-savings by closing or downsizing consulates and offices 
or centralizing support functions. Here are some examples:
  --Moving 80 percent of the staff of the Regional Information 
        Management Center from Frankfurt, Germany back to the United 
        States. The Inspector General estimates that would save $18 
        million a year, and reduce security risks to the staff.
  --Eliminating redundant overseas management services provided by 
        multiple Federal agencies in services like furniture inventory, 
        motor transportation, administrative procurement, and local 
        staff recruitment.
  --The Inspector General says that while the Department has downsized 
        a few consulates, none of the consulates that it has 
        recommended be closed have been closed. The Inspector General 
        has also identified several overseas posts where visa workload 
        has declined but there have been no staff reductions.
    You haven't been Secretary of State long, but do you have any idea 
why these cost-saving recommendations have not been implemented?
    Answer. The Department takes very seriously recommendations by our 
Office of Inspector General, and works to implement these 
recommendations as expeditiously as possible to improve our operations 
and save money. With regard to your specific examples:
Eliminating Redundant Overseas Management Services/Consolidating 
        Services
    We have been actively consolidating management services between 
State and USAID.
  --State and USAID have been consolidating management services in an 
        effort to maximize our program resources and build a robust 
        platform to support our diplomacy and development missions. The 
        shared services concept is widely used in the government and 
        private sectors to deliver quality services at best cost.
  --Fifteen specific management services were ``agreed-upon for 
        consolidation.'' \1\ Over 98 percent of these services have 
        been consolidated at posts where State and USAID are in the 
        same building or compound (collocated). Over 95 percent of 
        services have been consolidated where State and USAID have yet 
        to move to a new Embassy compound (i.e. where they remain non-
        collocated).
---------------------------------------------------------------------------
    \1\ The 15 services include: (1) warehouse management; (2) 
expendable supplies; (3) functional and residential property leasing; 
(4) motor pool; (5) residential and non-residential maintenance; (6) 
customs and shipping; (7) reproduction services; (8) mail and pouch 
services; (9) cashiering; (10) FSN payroll processing; (11) non-
programmatic simplified acquisition procurement, e.g., administrative 
procurement of goods and services (not to include personal services 
contracting); does not include contracting, grant-making, and related 
contract management functions that implement USAID strategic programs; 
(12) LE Staff recruitment; (13) eligible family member programs; (14) 
``at post'' language training; and (15) FSN initiatives.
---------------------------------------------------------------------------
  --We have gone beyond the agreed-upon 15 services to seek out 
        additional consolidation opportunities--for example, furniture, 
        furnishings and appliance pools; Information Technology 
        services; Human Resources services, including Locally Employed 
        Staff position classification; and travel management centers.
Downsizing and Closing Consulates/Reducing Staff
    U.S. diplomatic posts are maintained at places of significance to 
U.S. policy or interests and where the maintenance of a post is 
acceptable to the foreign government. Many factors are considered in 
determining whether to open, close, or change the status of a post, 
including the need for political and economic reporting, the extent of 
U.S. commercial interests, and the number of resident U.S. citizens. I 
have not yet had time to comprehensively review our worldwide presence 
by post, but I plan on having the Department do so in the months ahead, 
considering U.S. policy interests.
    The Department continually evaluates its overseas staffing and 
makes adjustments accordingly to achieve the right mix and number of 
staff at post. With the pressing diplomatic, consular, and national 
security workload facing the U.S. Government abroad, we must deploy our 
staff to maximize both our effectiveness and use of our resources.
Moving Regional Information Management Center staff from Frankfurt to 
        the United States
    The Department respectfully disagreed with this OIG recommendation, 
and is working with the OIG toward resolution.
    In addition to staff in Washington, DC, the Regional Information 
Management Centers (RIMC) have staff in Fort Lauderdale, Florida; 
Frankfurt, Germany; and Bangkok, Thailand. RIMC provides a broad range 
of operational, hardware, and software support services for 
telecommunications, data processing, office automation, telephone, and 
radio systems installed at U.S. missions abroad. Many of the services 
are of an emergency nature. RIMC Frankfurt provides technical and 
operational assistance to 180 posts within Europe, Near East Asia, 
South Central Asia, and Africa. We believe it is essential that IRM 
staff are regionally deployed in order to most efficiently support our 
IT systems worldwide, on a 24/7 basis.
    Question. Aside from the President's ``red line'' on the use of 
chemical weapons by the Syrian regime, are there any other red lines 
that would trigger stronger U.S. intervention? For example, what if the 
death toll rises above 100,000? 200,000? I believe the use of military 
force should be a last resort, but at what point is military force the 
only way to stop this?
    What would a diplomatic solution in Syria look like? Do you see a 
solution in which Assad remains in power to be acceptable?
    Answer. The administration believes that the best way to end the 
Syrian crisis is through a negotiated political solution. The regime 
and its supporters will fight to the last person standing. To get to a 
sustainable peace, Syrians need a political solution that assures all 
citizens of their rights.
    The opposition and members of the regime without blood on their 
hands must come together to negotiate a deal like the framework laid 
out in the Geneva communique. This framework--agreed last June by the 
permanent members of the United Nations Security Council, Turkey, and 
Arab League states--calls for a transitional governing body formed on 
the basis of mutual consent of the opposition and the Syrian regime to 
be given full executive powers and guide the country to elections.
    This means that Asad, who has long lost his legitimacy and whom the 
opposition will never accept, will not play any role in that 
transitional governing body. If he is unwilling to decide that he 
should transfer executive authority, we will continue to find ways to 
pressure him to think differently about what lies in the future.
    While this administration continues to take a hard look at every 
available, practical, and responsible means to end the suffering of the 
Syrian people, we do not believe at this time that it is in the United 
States' or the Syrian people's best interest to provide lethal support 
to the Syrian opposition. The judgments we make must pass the test of 
making the situation better for the Syrian people and must also take 
into account the long-term human, financial, and political costs for 
us, Syria, and the region. We continue to believe that a political 
solution to the crisis is the best way to save the Syrian people 
further suffering and to avert further destruction of the country, for 
which the regime bears overwhelming responsibility.
    Question. On your recent trip to Beijing did you make any progress 
with the Chinese authorities on either human rights or Tibet?
    Answer. During my recent visit to Beijing, I raised with Chinese 
leaders our concerns about the human rights situation in China, 
including highlighting specific cases of concern, and about the 
worsening situation in Tibet. I called on Chinese authorities to 
release political prisoners, raised the case of Chen Kegui, and urged 
China to end harassment of Chen Guangcheng's family members. I repeated 
our call for the Chinese Government to address policies in Tibetan 
areas that have created tensions and urged Chinese leaders to resume 
dialogue with the Dalai Lama or his representatives without 
preconditions and to permit access to Tibet for diplomats, journalists, 
and other international observers. Since my visit, I have continued to 
raise my concerns with the Chinese Government about human rights cases 
and believe that this exchange has advanced our efforts to promote 
human rights in China.
    Question. The Ethiopian Government has made it virtually impossible 
for independent civil society groups to function there. Similar 
legislation is expected in South Sudan and Kenya. All three countries 
have been, and are today, major recipients of U.S. aid. What can we do 
to protect and sustain independent human rights and democracy voices in 
these countries?
    Answer. We advocate, privately and publicly, for the protection of 
fundamental human rights in Ethiopia, including the freedoms of 
expression and association. As part of our bilateral engagement with 
the Government of Ethiopia we maintain a high-level dialogue on 
democracy, governance, and human rights, as we do in the other two main 
areas of our relationship (economic growth and development, and 
regional peace and security). At the same time, our Embassy engages in 
ongoing dialogue with representatives of civil society. Embassy 
representatives, including Ambassador Booth, have attended trials of 
journalists and political activists under Ethiopia's controversial 
anti-terrorism proclamation, and the U.S. government has publicly 
expressed our concerns about the use of this law to prosecute a number 
of journalists and political activists, which raises serious questions 
about the intent of the law and the sanctity of Ethiopians' 
constitutionally guaranteed rights to freedom of the press and freedom 
of expression. We have also publicly urged the government to release 
those who have been imprisoned for exercising their human rights and 
fundamental freedoms.
    Kenya's civil society has played an important role in the country's 
development and provides key support for the full implementation of the 
political, democratic, and institutional reforms envisioned under 
Kenya's 2010 constitution. We fully supported, through our robust 
election assistance, Kenyan civil society in order to enhance its 
efforts to help ensure peaceful and credible elections. The U.S. 
Government's robust electoral assistance program helped strengthen 
civil society efforts to provide civic and voter education, promote 
peaceful participation in the elections, develop conflict early warning 
mechanisms, and enhance domestic observation efforts including 
conducting a parallel vote tabulation of the presidential election 
results. Civil society organizations have criticized the Public Benefit 
Organizations Act recently passed by parliament, noting that it may 
negatively affect Kenyan civil society. We will better understand how 
the Act will be implemented once it is gazetted. We will continue to 
convey to our Kenyan Government contacts the importance of maintaining 
a vibrant and thriving civil society, and will continue to provide 
financial and technical support to civil society organizations.
    In the Republic of South Sudan (RSS), legislation governing access 
to information, the press and non-governmental organizations (NGOs) is 
under review. The 2005 interim constitution mentions some fundamental 
freedoms such as freedom of speech, but press freedom is not guaranteed 
absent a specific media law. The RSS still faces capacity challenges in 
meeting the enormous task of drafting and implementing many necessary 
laws, including media, land, labor laws and family laws. We continue to 
support capacity-building efforts and continue to encourage the 
government to develop and adopt transparent and effective laws that 
respect fundamental freedoms. In February, the South Sudan Government 
committed to become one of five pilot countries in a U.N. action plan 
on the safety of journalists and the issue of impunity.
    Question. In 2010, a video of Pakistani soldiers summarily 
executing suspected Taliban prisoners was posted on the Internet. 
General Kayani pledged to conduct an investigation, but since then we 
have heard nothing. This was not an isolated case of alleged war crimes 
by Pakistani soldiers. The Taliban has also summarily executed 
Pakistani police captives. Do you know if any Pakistani soldiers have 
been punished for any of these crimes?
    Answer. We acknowledge that there are serious governance and human 
rights problems in Pakistan and we continue to both report on and raise 
these with the government at all levels. In this particular case, in 
October 2010, Chief of Army Staff Kayani ordered a Board of Inquiry to 
investigate the video and the allegations. We continue to ask the 
Pakistan Government for the results of this investigation. However, to 
date, we have not been made aware of its findings.
    Separately, in February 2013, we informed the Government of 
Pakistan that certain units in Pakistan's army were deemed ineligible 
to receive assistance because of gross violations of human rights 
(GVHR). The government has yet to formally respond to our demarche, but 
in initial conversations with Pakistan's military and civilian 
leadership both indicated that violations have happened--which is a 
notable progression from their prior denial of any GVHR--and they have 
addressed them. We continue to press the Pakistani Government for 
information on the specific steps it has taken to hold accountable 
those responsible for these acts.
    We remain in full-compliance with the Leahy law and have a system 
in place that vets candidates for training and distribution lists of 
equipment for human rights abuses for both Foreign Military Financing 
(FMF) and the Pakistan Counterinsurgency Capabilities Fund (PCCF).
    Also, Embassy Islamabad has a Rule of Law Coordinator who, working 
with colleagues in the Mission and the Office of the Defense 
Representative for Pakistan (ODRP), is developing a Rule of Law 
strategy aimed at addressing the root causes of these violations: 
ineffective justice sector, ``score settling''; a belief that militant 
action warrants retaliation; and a lack of civilian and military voices 
to counter the practice. As we expand our dialogue with Pakistan on 
this issue, we will work to further define the underlying causes for 
this practice and will determine how to best utilize existing civilian 
and security assistance to address the problem.
    Question. The Broadcasting Board of Governors (BBG) is in trouble. 
Just last week another governor resigned, leaving the Board with only 5 
of 9 governors, including you as an ex-officio member. Last fall, one 
of its grantees, Radio Free Europe/Radio Liberty, restructured its 
Moscow bureau by summarily firing most of the staff there. It was so 
poorly handled that it became a highly visible controversy that damaged 
the image of the United States.
    The President's budget proposes changes in the management of the 
BBG, including the establishment of a Chief Executive Officer to 
provide day-to-day management. Do you think the President's proposal 
goes far enough?
    What do you think the role of our international broadcasting 
programs should be, given the changing global media environment? Do you 
think that the BBG is adequately filling this role?
    Answer. The Department of State fully supports the creation of a 
Chief Executive Officer (CEO) position for United States International 
Broadcasting, as presented in the administration's budget for fiscal 
year 2014. This move to improve the management and efficiency of 
Broadcasting Board of Governor (BBG) operations was unanimously 
supported by the members of the BBG in January 2012, and the Department 
of State's Office of the Inspector General underscored the importance 
of such an action in a report issued this past January.
    Under this plan, the CEO will be chosen by and report to a BBG 
board that is appointed through the White House and confirmed by the 
Senate, with the Secretary of State continuing as an ex-officio member. 
The CEO will provide critically important day-to-day executive 
leadership for U.S. international broadcasting, and will have 
management authority over the Federal and non-Federal elements of U.S. 
international broadcasting. The Broadcasting Board of Governors would 
continue to set the strategic direction of U.S. international 
broadcasting, as well as evaluating its journalistic quality and 
maintaining its journalistic integrity.
    The Broadcasting Board of Governors also needs to be at full 
membership. It has been without a chair for more than a year. A nominee 
for the BBG Board chairman and another Governor are now before the 
Senate, and their confirmation without delay will provide an important 
step in restoring the Board to full strength.
    Our international media operations are an important part of U.S. 
foreign policy. Their mission--to inform, engage and connect people 
around the world in support of freedom and democracy--remains a 
critical element for achieving our foreign policy and national security 
objectives, and the recent Office of the Inspector General report found 
that ``U.S. Government broadcasting is characterized by journalism of 
the highest caliber and a widespread devotion to supporting democracy 
and freedom . . . due to the commitment of the broadcast entities and 
professional staff.'' I remain committed, both as Secretary and as a 
member of the Broadcasting Board of Governors, to ensuring that our 
international media operations have the leadership, structure, and 
clear vision needed to fulfill their vital mission on behalf of the 
American people.
             deputy secretary for management and resources
    Question. Secretary Clinton created the position of Deputy 
Secretary for Management and Resources, with the authority to ensure 
that the Department's resources are being used effectively.
    Without Under Secretary Tom Nides' leadership last year in 
reevaluating the size of the Department's huge presence in Iraq, which 
resulted in major reductions in personnel and programs, American 
taxpayers would still be wasting hundreds of millions of dollars.
    Are you planning on maintaining this position and are you 
recruiting someone to fill it that will make the difficult budgetary 
decisions that may be necessary?
    Answer. Yes, I am planning on maintaining both Deputy positions. I 
believe it is very effective for the Deputy Secretary of State to focus 
on the formulation and conduct of foreign policy, while the Deputy 
Secretary for Management and Resources concentrates on resource 
allocations and management activities of the Department.
    As I believe Jack Lew and Tom Nides well demonstrated, there is a 
great value in filling both Deputy Secretary positions at the 
Department. I am working with the White House on a strong nominee for 
Deputy Secretary for Management and Resources.
    Question. Anyone who has seen the photographs of the destruction of 
forests in Alberta, anyone concerned about climate change, and anyone 
who is aware of the huge cost and difficulty of cleaning up the oil 
spill in the Kalamazoo River, should have concerns about the Keystone 
pipeline. Unfortunately, this has turned into a politicized debate 
between jobs and the environment.
    Many people were unimpressed with the first review conducted by the 
State Department. What is going to be different this time? Is it true 
that a large portion of this oil would be exported to other countries?
    How do we ensure that as we become less dependent on Middle East 
oil we do not lower our environmental or health standards and that we 
reduce our reliance on fossil fuels wherever they are produced?
    Answer. The Department received TransCanada's new Presidential 
Permit Application for a revised Keystone XL pipeline project in May 
2012. The application identified new potential routes through Nebraska 
that were not the same as the routes analyzed in the previous 
environmental review. After a thorough process, the Department selected 
Environmental Resources Management (ERM) to serve as an independent 
third-party contractor for the review of the new application. Working 
under the Department's direct supervision, ERM has assisted the 
Department in conducting a detailed analysis of the new route in 
Nebraska, in cooperation with the State of Nebraska, and in analyzing 
any relevant new significant information available since August 2011 
when the Final Environmental Impact Statement for the previous Keystone 
XL project application was completed.
    This past March, the Department released the Draft Supplemental 
Environmental Impact Statement (SEIS) for the proposed Keystone Xl 
pipeline, and received robust reactions during the 45-day public 
comment period. In this regard, on May 23, 2013, the Department of 
State posted the first set of approximately 100,000 comments, out of 
the more than 1.2 million received, on the draft SEIS for the proposed 
Keystone XL pipeline to www.regulations.gov, a public website. This 
marks the first time the Department has made plans to make available 
individual comments on a Presidential Permit application available to 
the public. The Department decided to post these comments as part of 
its continued effort to maximize transparency in the Federal 
Presidential Permit review process.
    The Department is conducting a transparent, thorough and rigorous 
review of TransCanada's application for a Presidential Permit for the 
project. Economic and energy security issues, including the potential 
for exports are among the many factors as well as environmental and 
pipeline safety concerns, that the Department is examining in preparing 
a Final SEIS.
    And finally, the administration continues to advance clean energy 
through the promotion of renewable energy and energy-efficient 
technologies in areas ranging from industrial energy efficiency and 
appliance efficiency standards and labels to building code design and 
utility demand-side management.
                                 ______
                                 
               Questions Submitted by Senator Tom Harkin
    Question. Independent, democratic unions and their supporters are 
persecuted for exercising their right to freedom of association in 
Mexico. In the last 12 months, an organizer from the Workers Support 
Center helping to organize auto-parts workers in Puebla was kidnapped 
and tortured and the executive director of the same organization was 
threatened with death. Forty-five electrical worker union members were 
seriously injured by federal police while peacefully protesting their 
illegal dismals in front of a government building. One hundred eighty 
community residents and members of the mineworker union were forcibly 
displaced from a protest camp in front of a controversial mining site 
when their shelters were razed and burned. Finally, hundreds of union 
supporters in Northern Mexico were illegally fired days before a union 
election.
    Although the Pena Nieto Administration made the highly public point 
of arresting perhaps the most infamous ``protection union'' leader, 
Elba Esther Gordillo, in February and has undertaken a high profile 
labor law reform, the corrupt system of protection unions continues to 
stifle independent union organizing in Mexico, and workers seeking to 
stand up to this corrupt system face serious threats and reprisals. As 
the United States prepares to strengthen its already close economic 
ties to Mexico through the forthcoming Trans Pacific Partnership (TPP) 
free trade agreement, what opportunities do you see for the Obama 
Administration to use this relationship to help Mexico improve 
compliance with fundamental labor rights, including freedom of 
association?
    Answer. The Obama Administration strongly supports protection of 
worker rights in Mexico. In our conversations with the Government of 
Mexico and other Mexican stakeholders, we have stressed the importance 
of observing International Labor Organization standards as well as 
Mexico's obligations under the North American Agreement on Labor 
Cooperation. We give prominent attention to labor rights concerns in 
Mexico in our 2012 Country Reports on Human Rights Practices. We meet 
regularly with labor union representatives in Washington and in Mexico 
to monitor developments.
    The United States seeks to negotiate a TPP agreement that includes 
strong, enforceable labor obligations. Our most recent trade agreements 
have committed signatory countries to adopt and maintain fundamental 
labor rights as stated in the International Labor Organization (ILO) 
1998 Declaration and to effectively enforce those rights.
    The Office of the U.S. Trade Representative is the lead U.S. 
Government agency in negotiating the TPP.
    Question. Two years ago peaceful protests broke out in Bahrain 
inspired by the Arab Spring. The Government of Bahrain responded 
violently, killing several dozen protesters and arresting, and 
torturing hundreds. Despite claims by the Government of Bahrain, human 
rights groups continue to catalogue ongoing and egregious human rights 
abuses including the incarceration of doctors who have treated injured 
protesters, lethal attacks by government forces on protesters, and 
failure to rebuild destroyed religious sites. Recently, the Government 
of Bahrain initiated a dialogue with the opposition, but it is hard to 
see how any dialogue will succeed while the Government continues to 
keep political leaders who should be at the negotiating table in prison 
and routinely attacks peaceful protesters.
    With the lack of progress being made, it is growing clearer that 
the United States needs to recalibrate its policy towards Bahrain. What 
changes in U.S. policy toward Bahrain are you considering in order to 
ensure U.S. security interests in the Gulf Region, and to more 
effectively promote fundamental human rights and a transition to 
democracy in Bahrain? Can you point to items in the budget request that 
will help support the transition to democracy in Bahrain?
    Answer. We understand that respect for fundamental human rights in 
Bahrain is important to its citizens, the region, and the United 
States. We have been deeply engaged with the Bahraini Government since 
the outbreak of unrest in 2011 in order to bring about concrete 
political reforms and improve its human rights record. The Government 
of Bahrain initiated the Bahrain Independent Commission of Inquiry 
(BICI) in 2011, and it has made some progress in implementing reforms 
pertaining to the BICI's recommendations.
    We continue to urge the Government of Bahrain to move forward in a 
concrete fashion on reforms, human rights, and a political solution. 
The National Dialogue, while progressing slowly, is a welcome attempt 
by the Government of Bahrain and opposition groups from all sides to 
come together in order to build a new social contract in Bahrain. We 
also encourage Bahraini attempts to find a political solution, and we 
have provided assistance for programming along those lines. We intend 
to continue our support for reconciliation wherever possible. We remain 
convinced that a credible National Dialogue offers the best path to 
address the root causes of Bahrain's domestic unrest, and will continue 
to identify ways to support these efforts.
    The President's fiscal year 2014 request includes $580 million for 
the Middle East and North Africa Incentive Fund (MENA IF), through 
which the U.S. Government (USG) will support transparency, citizen 
engagement, and proposals from local authorities to sustain and advance 
democratic reforms. The MENA IF will provide a platform from which the 
U.S. Government can respond to new opportunities across economic, 
political, and security spheres. Furthermore, MENA IF will help 
rebalance U.S. military and economic assistance in the region, while 
also promoting institutional reform. A MENA IF program in Bahrain would 
provide the United States with additional tools to work with Bahrainis 
toward shared reform objectives.
    In the coming months, we will work with our Bahraini colleagues and 
key allies in the region to formulate the best way to help Bahrain 
succeed on its reform path. With that in mind, we continue to work on 
ways to help the Bahrainis in these efforts, including additional 
support for technical assistance in dialogue and negotiation, as well 
as training and assisting in areas of government accountability, 
judicial reform, and corrections reform.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                         gender-based violence
    Question. Violence against women is a horrific and widespread human 
rights crisis that undermines the effectiveness of existing U.S. 
investments in global development and stability, such as increasing 
basic education or creating stability in Afghanistan and Pakistan. 
Women and girls are particularly vulnerable to sexual violence in times 
of conflict and natural disaster.
    Secretary Kerry, I was very encouraged by the recent announcement 
of U.S. support for the G-8's initiative to prevent sexual violence. 
Can you tell us how the United States is working to integrate sexual 
and gender-based violence programming into our responses to conflicts 
in places like Syria and Mali or following natural disasters like the 
famine in West Africa?
    Answer. As we have historically seen, in conflict situations, 
gender-based violence (GBV), including sexual violence, tends to 
increase. We are closely following conflict developments around the 
world, particularly in places like Syria and Mali, and following 
natural disasters such as famine in West Africa. Preventing and 
responding to GBV is a critical step toward advancing the U.S. 
Government's goal of supporting the emergence of stable, democratic 
countries that are at peace with their neighbors and provide for the 
basic needs of their citizens.
    We are taking action on the ground through our diplomatic and 
targeted programming to include: training peacekeepers on GBV awareness 
and prevention activities, working with non-governmental organizations 
to ensure men's engagement in preventing violence against women and 
girls, ensuring women's political engagement and empowerment, and 
promoting women's economic and entrepreneurial opportunities.
    In fiscal year 2013, the Department of State, with the U.S. Agency 
for International Development (USAID), pledged $10 million to support 
the United Kingdom's (UK's) Preventing Sexual Violence Initiative 
(PVSI) for new and ongoing efforts to address GBV in countries affected 
by crisis, conflict, and insecurity, specifically in areas across 
Africa, Afghanistan, Haiti and Georgia. Programs will support research 
to identify effective interventions to address GBV and increase women's 
political empowerment, access to healthcare for survivors of GBV, and 
improved accountability efforts for GBV through human rights 
documentation and transitional justice workshops. In addition, it will 
support efforts to empower women leaders to play a more active role in 
political discussions, peace agreements and with transitional 
institutions and commissions. It will provide technical support and 
training for police, investigators, and prosecutors in order to 
strengthen national capacity to address GBV--all of which are integral 
to any sustainable approach to addressing violence against women and 
girls, especially when conflicts arise.
    Furthermore, we are in the process of implementing the U.S. 
Government's first strategy to prevent and respond to GBV globally. We 
are taking a government-wide approach to address this issue by 
improving our coordination, establishing concrete objectives and 
actions to marshal the United States' expertise and capacity to address 
gender-based violence, and learn from best practices. We are finalizing 
benchmarks for measuring our progress and have already urged action in 
countries where there are acute levels of gender-based violence.
    Question. Basic education programs are, particularly in countries 
torn apart by civil conflict or natural disasters, vital in building 
stronger economies, helping families and communities, and empowering 
young girls. In many parts of the world young girls are at a particular 
disadvantage due to poverty and discrimination. In regions such as 
Afghanistan and Pakistan efforts to restrict the ability of girls to 
access education continue to grow. Yet, providing girls with an 
education is one of the most powerful ways to change a society. The 
Taliban's brutal attack on Malala Yousafzai in October 2012 reinforces 
the need for the United States to strongly support basic education 
programs.
    The threat to gender equality in education is very real today. 
Secretary Kerry, how do you justify drastic cuts to basic education in 
the proposed fiscal year 2014 budget? How do you measure the impact of 
basic education funding on women and girls? Will aid programs tied to 
education, such as health and nutrition initiatives, be affected by the 
proposed reduction?
    Following the assassination attempt on Malala Yousafzai, does the 
State Department believe that cutting funding to basic education is 
consistent with Department priorities? What message is our Nation 
sending about the importance of universal education by cutting these 
programs?
    Answer. As USAID Administrator Rajiv Shah noted in his testimony 
this year, education is ``a core development objective'' of U.S. 
foreign assistance. I agree that education is a foundation of human 
development and critical to broad-based economic growth. Increasing 
access to education in crisis and conflict environments is a key 
component of achieving long-term stability. The decrease in basic 
education funding in the fiscal year 2014 request should not suggest a 
decrease in our commitment to international education efforts. Rather, 
it reflects our efforts to concentrate activities in the highest 
priority areas of USAID's Education Strategy and in a more focused 
number of countries where we feel U.S. assistance can have the most 
impact in the education sector. In fiscal year 2009, we funded 
education programs in 58 overseas Missions; the fiscal year 2014 
request for education focuses on programming in 49 Missions. 
Additionally, as assistance levels for frontline states decrease, our 
large requests for basic education funding in these countries also go 
down. We are firmly committed to using foreign assistance resources in 
a manner that is strategic and impactful.
    Regarding the measurement of the impact of our basic education 
funding on women and girls, we have contributed to the advances made 
under Millennium Development Goal 3, which targets the elimination of 
gender disparity in education. The world has achieved gender parity in 
primary education, as the ratio between the enrollment rate of girls 
and that of boys grew from 91 in 1999 to 97 in 2010 for all developing 
regions. We know, however, that an education remains out of reach for 
girls in some regions. There is more work to be done, and, overall, we 
are confident in our ability to continue to make significant strides in 
improving education for millions of children around the world.
    The USAID Education Strategy lays out topline goals for improving 
reading skills for 100 million children in primary grades by 2015 and 
increasing equitable access to education in crisis and conflict 
environments for 15 million learners by 2015. While programs for girls' 
education exclusively are not emphasized in the USAID Education 
Strategy, advancing girls' access to and success in education is fully 
integrated throughout our education programs. All education programming 
captures sex disaggregated data for baseline and endline data to ensure 
our ability to identify and monitor the impact of funding and 
programming on women and girls. This approach expands and deepens the 
impact that our education funding has on advancing girls' education. By 
integrating gender considerations across programs, we have the 
potential to transform gender norms and achieve equality for all 
learners in a scalable and sustainable manner. Promoting gender 
equality in education remains a top priority in both of our basic 
education goal areas. For example:
  --Reading programs often include teacher training activities which 
        are designed to ensure that teachers provide equitable 
        treatment to boys and girls and strive to make schools safe 
        places for all learners. Additionally, development of teaching 
        and learning materials are often included in reading programs 
        with the specification that depictions of males and females 
        should promote positive gender norms. Community engagement 
        activities conducted within reading programs include a special 
        emphasis on ensuring that girls have equal access to and 
        support for education from parents and the community at large.
  --Programs in crisis or conflict environments emphasize access to 
        quality education for marginalized populations--significant 
        portions of which are women and girls. Program objectives under 
        this goal include increasing protective factors for women and 
        girls while they pursue education in these fragile 
        environments. This often includes engaging policy makers, local 
        authorities and male leaders to ensure women and girls have 
        equitable access to education.
    USAID's reading programs work with all students attending selected 
grades in program target areas. In many countries, this approach means 
working with comparable numbers of boys and girls. And while current 
global participation rates indicate considerable improvement in gender 
equity in recent years, showing no statistical difference in 
participation, these global numbers mask differences at the country and 
regional level. Reading interventions are designed to produce skill 
gains for both boys and girls, regardless of the baseline or starting 
point before interventions begin. The gender differences in reading 
skills vary by context and language, but whatever the circumstances, 
USAID interventions will focus on improving reading skills among all 
children.
    On the measurement of our goal on equitable access to education in 
crisis and conflict environments, we know that in 2010 about 61 million 
children of primary school age and 70 million of secondary school age 
were out of school. Approximately half of those of primary school age 
and of secondary school age were girls. There are, of course, greater 
gender differences in some countries. In Afghanistan, for instance, the 
primary gross enrollment ratio for girls is only around 69 percent of 
that for boys, indicating a substantial gender gap. Particularly with 
this goal--which focuses on countries and regions of countries that are 
fragile and conflict-affected--the proportion of girls versus boys 
provided with improved access will depend on the specific target areas 
and types of programs undertaken.
    On related aid programs, it should be noted that our youth programs 
cut across program areas in education, health, social services, and 
assistance for especially vulnerable children. In fiscal year 2012, 
U.S. assistance included an estimated $149 million for youth 
development programming. We will continue our support for children and 
youth, integrating our programming for maximum impact. For example, our 
health and nutrition activities--which reached nearly 12 million 
children last year--will continue to be linked with the Feed the Future 
Initiative and evidence-based interventions that focus on the 
prevention of undernutrition through integrated services.
    Question. I was pleased to see the attention this year's budget 
gives to issues of gender-equality and women's empowerment. I am 
particularly interested in the proposed ``Full Participation Fund,'' 
and other cross-cutting efforts to promote women's empowerment. Can you 
speak to how the Full Participation Fund will be implemented? What 
metrics will you use to ensure we're achieving our goals of supporting 
women's empowerment in our foreign policy?
    Answer. The Quadrennial Diplomacy and Development Review (QDDR) and 
Department of State Policy Guidance on Gender Equality call for the 
full integration of the promotion of gender equality in all operations, 
diplomacy, and programming. The Full Participation Fund will support 
innovative efforts by bureaus and embassies to implement these 
policies, including the integration of gender into strategic planning, 
gender-focused diplomatic or foreign assistance initiatives, or the 
strategic evaluation of gender integration efforts.
    Initiatives supported by the Full Participation Fund will serve as 
models of gender integration in our diplomacy and foreign assistance. 
Programs and metrics of successful initiatives will be shared with 
other bureaus and embassies and so lessons learned can be scaled and 
replicated across our work. The Office of Global Women's Issues, with a 
team of experts from across the Department and USAID, will monitor and 
evaluate results and make recommendations to improve performance.
    Question. The Obama administration has pledged that efforts to 
empower women and girls will be integrated into all aspects of our 
foreign policy--from peace building and humanitarian relief to food aid 
and public health--how will you work to ensure that this integration 
goes beyond public commitments to concrete implementation? How will you 
measure this and evaluate this integration?
    Answer. The Obama Administration has made advancing the status of 
women and girls a central element of U.S. foreign policy, as 
articulated in the 2010 Quadrennial Diplomacy and Development Review 
and the Department of State's Policy Guidance on Promoting Gender 
Equality. Further, on January 30, 2013, President Obama signed a 
Presidential Memorandum on gender equality, ensuring that an 
Ambassador-at-Large for Global Women's Issues will continue to play a 
leading role in U.S. efforts to advance women's rights around the 
world.
    The Department of State's Office of Global Women's Issues ensures 
that the rights of women and girls are fully integrated into the 
formulation and conduct of United States foreign policy. Working with 
the White House, USAID, the Department of Defense, and other agencies, 
as well as with civil society and the private sector, the Department of 
State has launched multiple and wide-ranging global initiatives to 
promote women's social and economic development, integrate women into 
peace and security building, address and prevent gender-based violence, 
and ensure women's full participation in civic and political life.
    As the implementation of the QDDR and Department of State Policy 
Guidance on Gender Equality progresses, the Office of Global Women's 
Issues, with a team of experts from across the Department and USAID, 
will monitor and evaluate results and make recommendations to improve 
integration.
                                 ______
                                 
           Questions Submitted by Senator Frank R. Lautenberg
    Question. A legacy of this administration has been its focus on the 
advancement of women and girls as a core principle in American foreign 
policy.
  --How do family planning programs support our efforts to advance 
        gender equality and women's empowerment and achieve our broader 
        global health goals?
  --I strongly supported President Obama's rescission of the Mexico 
        City Policy, also known as the Global Gag Rule, upon taking 
        office. As you know, House Republicans have attempted to bring 
        back this damaging policy several times over the last 2 years. 
        What impact would a reinstatement of the Global Gag Rule as a 
        legal requirement have on maternal mortality and women's 
        health?
    Answer. Family planning is important because it saves lives. This 
year nearly 7 million children will die before they turn 5. Recent 
USAID analysis found that by preventing closely spaced births, family 
planning could save the lives of more than 1.6 million children under 5 
annually. Last summer, the Lancet reported that 342,203 women died of 
maternal causes in 2008, but that contraceptive use averted 272,040 
maternal deaths (44 percent reduction). Without contraceptive use, the 
number of maternal deaths would have been 1.8 times higher than the 
2008 total.
    Research clearly shows that voluntary family planning programs 
improve health, reduce poverty, and empower women. Family planning is 
one of the most successful development interventions of the past 50 
years and one of the strongest and most cost-effective investments 
available. Family planning can reduce the economic burden on poor 
families and allow women more time to work outside the home, which 
leads to increased family income. And with more income, families can 
invest in health, food, and education for each child. Families can also 
invest in their own livelihoods, and break the cycle of poverty.
    As President Obama recently said, ``Women should be allowed to make 
their own decisions about their own health. It's a simple principle.'' 
Millions of women and young people in developing countries want to 
avoid pregnancy but lack access to modern forms of contraception. 
Family planning programs are a sound economic investment that help 
individuals to help themselves, especially to protect themselves from 
unintended pregnancy and sexually transmitted infections, including 
HIV. Research demonstrates that when women and young people are in good 
health they are better able to receive the education and resources they 
need to provide for themselves, their families, and their futures.
    On January 23, 2009, President Obama issued a Memorandum rescinding 
the Mexico City Policy (MCP), noting that its provisions are 
``excessively broad and unwarranted [and] . . . . have undermined 
efforts to promote safe and effective voluntary family planning.'' This 
is a harmful policy that makes it more difficult for women around the 
world to gain access to essential information and healthcare services.
    Enacting MCP as a legal requirement would damage our efforts to 
deliver international family planning assistance. Such an action would 
force the United States to withhold critical assistance from 
international organizations and non-governmental organizations (NGOs) 
with expertise, capacity, and proven track records on promoting women's 
health around the globe. Access to health services, including family 
planning, is a necessary component to reducing poverty and meeting our 
broader development goals.
    Imposition of the Mexico City Policy on a broad range of programs 
would severely erode the recent progress made on maternal and child 
health and access to family planning services. Global estimates 
indicate that by helping women space births and avoid unintended 
pregnancies, family planning could prevent 25 percent of maternal and 
child deaths in the developing world. It is important to recognize that 
family planning is the most effective way to prevent abortion and 
unintended pregnancies--numerous studies show the incidence of abortion 
decreases when women have access to contraceptives.
    Since 1973, U.S. law has prohibited the use of U.S. Government 
foreign assistance to pay for the performance of abortion as a method 
of family planning or to motivate or coerce any person to practice 
abortion. The U.S. Government takes compliance with this and other 
related restrictions very seriously and works with partners to ensure 
compliance as part of routine monitoring of program implementation.
    Question. Last year, Secretary Clinton testified that the 
administration is continuing to work with the Libyan Government to 
obtain new information on the Pan Am 103 bombing.
  --Is obtaining information on the Pan Am 103 bombing from the Libyan 
        Government still a priority for the State Department?
  --What progress has been made in this investigation?
    Answer. The investigation into the Pan Am 103 bombing remains open, 
and we are committed to assisting law enforcement efforts in obtaining 
and evaluating any new information relating to it. As this is an 
ongoing investigative matter, I refer you to the Department of Justice 
for any further details.
    Question. I commend you for your recent push to move the stalled 
Middle East peace process forward. You recently said the administration 
will be working to ``create the conditions for peace'' between Israel 
and the Palestinians.
  --Why are efforts to lay the groundwork for direct negotiations 
        between the Israelis and Palestinians of strategic importance 
        to the U.S. and the international community?
  --What next steps do you envision the U.S. taking to ``create the 
        conditions for peace'' in the Middle East?
    Answer. As you know, I have been working hard to follow up on the 
President's efforts to re-engage the parties and am dedicated to 
helping to end this conflict. The status quo between the Palestinians 
and Israelis is unsustainable. Despite the difficulties that lie ahead, 
we remain committed to doing our part to help the parties return to 
direct negotiations.
    I am personally involved and fully engaged with both sides, as well 
as with governments within the region and across the globe with a stake 
in Middle East peace. Since taking office, I have met privately and 
separately with the parties to get a better sense of where they are, to 
find out what is possible, and to find common ground to end this 
conflict. In my engagement, Israeli and Palestinian leaders have shown 
a seriousness of purpose and a commitment to explore how we can 
actually get to direct negotiations.
    We are working on an economic initiative for the Palestinians. The 
U.S. Government, through USAID, is already the leading provider of 
bilateral economic assistance to the Palestinian people. This 
initiative will complement the work that we have underway across a 
variety of sectors. We want to consult with the many interested parties 
prior to making any final decisions.
    There will be a heavy emphasis on leveraging the private sector, 
and we do not envision the need for any additional U.S. budgetary 
resources for this initiative. As soon as decisions are reached, we 
will of course brief Congress on the details.
    Economic efforts are not a substitute for the political track. We 
remain focused on creating the conditions needed to re-establish 
productive negotiations between the parties with the goal of two states 
for two peoples living side-by-side in peace and security.
    Question. The gun lobby has strongly opposed the recent treaty 
adopted by the U.N. General Assembly regulating the international trade 
in conventional weapons--aligning the lobby with the same position as 
North Korea, Iran, and Syria.
  --What impact will this treaty have on our ability to reduce the 
        illicit trade of conventional arms and prevent these weapons 
        from falling into the hands of terrorists and criminals intent 
        on using them to harm innocent civilians?
    Answer. The Arms Trade Treaty will establish a common, worldwide 
standard for the national regulation of the international trade in 
conventional arms and will require all States Parties to develop and 
implement the kind of national export control systems that the United 
States already has in place. This will overtime, help reduce the risk 
that international transfers of conventional arms will be used to carry 
out the world's worst crimes, including terrorism, genocide, crimes 
against humanity, and war crimes.
    At the same time, the treaty preserves the principle that the 
international conventional arms trade that allows nations to acquire 
the arms they need for their own security is, and will continue to be, 
a legitimate commercial activity.
    Question. The 38th Assembly of the International Civil Aviation 
Organization (ICAO) is convening in September 2013. This presents an 
important opportunity to secure a global approach to reducing global 
warming emissions from aviation.
  --What steps is the State Department taking to ensure the adoption of 
        a binding, market-based agreement to reduce greenhouse gas 
        emissions from aviation at the upcoming ICAO Assembly?
    Answer. The U.S. has sought to play a constructive role in seeking 
global agreement on a package of measures to reduce greenhouse gas 
emissions from the aviation sector that can be reflected in the 2013 
International Civil Aviation Organization (ICAO) Assembly Resolution. 
ICAO has a long history of successfully developing environmental 
standards and policies for international aviation community. We are 
working hard to produce a successful outcome at the upcoming Assembly.
    Question. The fiscal year 2014 budget request includes $580 million 
for a Middle East and North Africa Incentive Fund to support Arab 
Spring countries in their efforts to undertake democratic and economic 
reforms.
  --How will the administration use these funds to promote the 
        inclusion of women in political processes and government in the 
        region?
    Answer. Recognizing that the people of the Near East region will 
ultimately shape their own futures, the United States must be engaged 
in support of our values and interests there. The President was clear 
in his speech in Cairo that equality is intricately linked to 
prosperity; this is a vision that we strongly support in countries 
going through transition, and it will play an important role in the 
Middle East and North Africa Incentive Fund (MENA IF). Women around the 
world must have meaningful input in political processes, representation 
in government, and equal rights under law. This must include women in 
the Middle East and North Africa, if countries in that region are to 
achieve their potential and be economically and politically stable. The 
U.S. Government regularly meets with women in civil society, and with 
women entrepreneurs, teachers, politicians and other women in the 
region to hear their concerns and priorities so that we can fully 
integrate them into our policy and programming efforts. We regularly 
encourage political parties, governments, police and security forces, 
religious leaders, and other civil society groups to include more women 
in their organizations and to hear from women's rights advocates. We 
seek to engage actors from across society, both secular and religious 
who wish to build a peaceful and prosperous future consistent with 
democratic values.
    Over the last 2 years, the United States has mobilized over $1.8 
billion in response to the changes sweeping the Arab world. The 
Department will use the Middle East and North Africa Incentive Fund 
(MENA IF) to support transitions and promote political and economic 
reform. The MENA IF will enable delivery of new assistance with 
incentives and opportunities for civil society, including areas of 
specific impact for women and girls, and provide flexibility to respond 
to emerging demands and opportunities.
    The MENA IF, as a stand-alone account and significant investment, 
provides a clear signal of the United States' continuing commitment to 
the region and transition governments. As requested, two-thirds of the 
MENA IF funding will focus on democratic governance and economic 
reforms, based on incentives and with conditions that will be laid out 
clearly and publicly through bilateral agreements. Further, the 
Department will use the fund to engage governments on reform efforts 
that would yield high-impact projects and activities tied to an 
economic and governance reform plan. The Department will include gender 
considerations in all reform plans negotiated.
    The MENA IF is designed to incentivize reform efforts across 
government institutions, including political, economic, and security 
sector policies. The MENA IF will focus on developing sustainable 
democratic governance structures that support broad inclusion, 
including women and girls, in both political and economic institutions.
    Question. I am pleased the Obama Administration has made a strong 
financial commitment to assist Jordan in dealing with the growing 
number of Syrian refugees coming across the border. What additional 
measures are you taking to assist Jordan in its support of Syrian 
refugees, as well as to support the government's domestic reform 
efforts, to help ensure future stability there?
    Answer. We are closely following refugee outflows from Syria into 
neighboring countries and the strains they impose on governments and 
host communities. The pace refugee outflows is alarming--the numbers 
have risen from 66,000 a year ago to over 1.3 million today. The 
generosity of neighboring countries is inspiring, but the capacities of 
local governments, families, social services, and civic organizations 
are severely strained as they seek to accommodate this flood of 
arrivals. We are working to provide assistance to host communities in 
Jordan where refugees are living. These cities and villages are holding 
school in double-shifts, coping with a shortage of hospital beds, and 
struggling to provide public services while suffering from growing 
tensions as a result of hosting large numbers of refugees.
    The United States is providing nearly $385 million in overall 
humanitarian assistance to address the Syria crisis and more will 
follow. Of this total, nearly $58 million has been directed to partners 
working in Jordan to assist refugees with shelter, food, healthcare, 
basic necessities, education and protection. In our discussions with 
humanitarian organizations that we fund, such as the United Nations 
High Commissioner for Refugees (UNHCR), we have urged them to identify 
and further target the most vulnerable, meeting the needs of the 
majority of refugees who live outside of camps, and incorporating more 
robust support for over-burdened host communities. We have also 
discussed their respective contingency plans, including: staging 
humanitarian supplies; potential aid shortages; health and weather 
challenges; and major incidents that could result in large numbers of 
refugees.
    We are looking at additional ways to boost support for host 
countries beyond emergency humanitarian assistance, so that host 
communities can continue to support refugees fleeing violence in Syria. 
The U.S. Government is utilizing $20 million from the Complex Crisis 
Fund to support water conservation and small scale municipal water 
infrastructure renovation activities in the northern governorates where 
the majority of Syrian refugees reside in host communities. 
Additionally, $10.7 million will be used to fast-track expansions of up 
to 20 schools receiving large numbers of Syrian students and launch new 
remedial math and reading programs to equalize all students' basic 
skills. These funds will also help Jordan's Ministry of Education scale 
up teacher training and procure materials for schools in impacted 
communities so they can better accommodate vulnerable Syrian students. 
A new $52 million multi-year rapid-response civil engagement project 
will address Syria-related issues at the community level, ranging from 
employment, to housing costs, to service delivery. An additional grant 
of $700,000 will support an awareness-raising campaign to reduce early 
marriage, human trafficking, child labor and gender-based violence. We 
strongly support additional international aid to host communities to 
include health, education, energy, and water to minimize the burden of 
hosting up to one million Syrian refugees by the end of the year.
    As the President announced on March 22, 2013, the U.S. Government 
is providing an additional $200 million cash transfer to Jordan to 
reduce the financial strain on the sectors directly affected by 
refugees. As authorized by recent legislation, the U.S. Government is 
moving forward with negotiating loan guarantees for Jordan. These 
actions, in coordination with Jordan's $2.1 billion International 
Monetary Fund program and the reforms it requires, directly support 
stability in Jordan.
    The U.S. Government is committed to continuing to help Syria's 
neighbors, including Jordan, as they cope with refugee inflows. It is 
critical to regional political stability to keep borders open to all 
those fleeing the violence in Syria. We believe this international aid 
will demonstrate that the countries hosting the refugees are not in 
this alone.
    Question. There is deep concern that the humanitarian situation in 
Syria and its neighboring countries could be exacerbated by continuing 
sectarian violence if President Assad's regime falls. How is the 
administration working with regional partners to prepare for a post-
Assad Syria, and does this planning include determinations on 
humanitarian needs?
    Answer. The United States Government seek to hasten an end to the 
violence in Syria and promote a political transition from the Asad 
regime to a government that protects the rights of all its citizens and 
serves as a reliable partner for the U.S. and international community 
in our efforts to counter terrorist activity, prevent the proliferation 
of chemical weapons, and promote regional prosperity and stability.
    To support our objectives, we are focused on six lines of effort.
  --We are increasing pressure on the regime, through comprehensive 
        sanctions and diplomatic isolation, achieved primarily through 
        coordination with the 80-country strong Friends of the Syrian 
        People group.
  --We are helping the moderate opposition to build its capacity and 
        credibility, especially in liberated areas, and to convince 
        Syrian minority communities that their interests will be secure 
        in a post-Asad Syria. We see this as necessary to make a 
        political transition viable and sustainable.
  --We are taking necessary steps in cooperation with our allies to 
        prevent terrorists from using Syria to threaten U.S. interests, 
        or those of our allies.
  --We are providing nearly $385 in humanitarian assistance to support 
        conflict affected persons in need both inside Syria and in the 
        neighboring countries, including in Jordan, Turkey, Lebanon, 
        Iraq, and Egypt. The U.S. is the single largest donor of 
        humanitarian assistance.
  --We are engaging with partners to prepare for a post-Asad Syria 
        including economic recovery, accountability and reconciliation, 
        security stabilization, and preservation and reform of 
        institutions, as Syria emerges from this conflict.
  --We have been engaged in prudent military planning with our close 
        allies to be prepared for a range of contingencies.
    Our humanitarian assistance anticipates that the current caseload 
of refugees and internally displaced persons may not be able to return 
home for a significant period of time. Post-Asad, we are prepared to 
work with the new government to prevent all forms of violence and 
reprisals and to secure continued humanitarian access to help the 
conflict-affected. In addition, we are working with our humanitarian 
partners and regional governments to prepare for the possibility of 
reverse refugee flows in the event of heightened sectarian violence.
    Question. In 1989, I wrote a law--known as the Lautenberg 
Amendment--that has helped hundreds of thousands of victims of 
religious persecution escape and come to the U.S. to live in freedom. 
How has this law helped religious minorities from across the globe, and 
particularly Iran, flee persecution?
    Answer. The Lautenberg Amendment has helped hundreds of thousands 
of religious minorities, mostly from Russia and Eurasia but also from 
Iran, resettle as refugees in the United States under a reduced 
evidentiary standard for establishing a well-founded fear of 
persecution. This was particularly true in the 1990s, when U.S. 
arrivals of religious minorities from Russia and Eurasia averaged 
35,000-40,000 annually. In recent years, U.S. arrivals of religious 
minorities from Russia and Eurasia have averaged 1,000-1,200 annually, 
as both applications and approval rates are down significantly. Also in 
recent years, the United States has admitted some 2,500 religious 
minorities annually from Iran who benefit from the reduced evidentiary 
standard of Lautenberg and who are mostly processed for U.S. 
resettlement from Austria and Turkey.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
    Question. Do you feel that allowing international adoptions to 
continue to dwindle is an accurate and effective implementation of U.S. 
policy or of the wishes of the American people?
    Answer. The Department of State strongly supports intercountry 
adoptions as a critical child welfare measure that can provide children 
the opportunity to grow up in a loving, protective, and permanent 
family environment when a suitable domestic adoption or extended family 
care is not available--and we know that this is in line with the wishes 
of the American people. U.S. citizens also understand the importance of 
ethical and transparent processes to protect the fundamental rights and 
safety of all parties involved in an adoption: the prospective adoptive 
parents, the biological parents, and, most importantly, the child. To 
protect those fundamental rights and the safety of the parties 
involved, intercountry adoptions must be a part of a well developed 
child welfare system, on the part of both the receiving country and the 
country of origin. For this reason, the Department promotes 
implementation of ethical, transparent adoption processes in countries 
of origin, and advocates for improvements in countries' child welfare 
systems so that states of origin can better meet children's needs. We 
also support the adoption of the more than 100,000 children in the 
United States in need of loving homes by families residing in other 
countries as appropriate when no suitable domestic placement is 
available.
    The numbers do not tell the entire story. Many trends contribute to 
the decline in the number of children adopted abroad in recent years, 
including country of origin policy changes and the economic recession. 
We recognize that the actions of a few countries with high volumes of 
adoptions may radically influence the number of children available for 
adoption from year to year. We can state unequivocally that one factor 
has remained constant through the decline in numbers: the Department's 
dedication to and support of intercountry adoption as an appropriate 
solution to find permanent homes for children. The Department has not 
wavered from the commitment and responsibility to work with our 
intercountry adoption partners to achieve the highest standards of 
ethical practice and transparency. While we must--and do--devote great 
energy to improving conditions for adoption in these countries, our 
work with the majority of countries of origin contributes to a more 
stable picture of intercountry adoption. Over the past several years, 
more small- and middle-volume countries have shown stable or growing 
adoption trends than declining ones.
    Question. Would you characterize the Department of State's role as 
Central Authority as successful, and if so, on what basis?
    Answer. The Department of State has been successful in its role as 
Central Authority. We take our responsibilities under the Hague 
Adoption Convention (the Convention) seriously. Like our partner 
countries, we believe the Convention provides the best framework for 
ethical, transparent intercountry adoptions that serve the interests of 
children and parents alike. We strive to cooperate with the Central 
Authorities of other countries, whether countries of origin or 
receiving countries, to protect children and achieve the goals of the 
Convention. Among these Convention goals are placing paramount priority 
on the best interests of children; safeguarding children against 
abduction, sale, and trafficking; ensuring cooperation between and 
within countries; and ensuring the automatic recognition of Convention 
adoptions in all countries party to the Convention. We have worked with 
our partners to remove obstacles to these goals where they appear.
    We report to countries of origin the experiences that U.S. 
prospective adoptive parents have in completing their adoptions and 
look for ways to improve cooperatively that experience and increase the 
protection of all the adoption parties. The Department has worked 
extensively to respond to justified inquiries about particular adoption 
situations. Those efforts are complex, as they often involve multiple 
jurisdictions and agencies, and the interplay between local, State, and 
Federal law.
    We work closely with our accrediting entity, the Council on 
Accreditation (COA), and two events in particular in the last year have 
highlighted the effectiveness of this relationship. First, the 
transition from two accrediting entities to one as the Colorado 
Department of Human Services ceased its role as an accrediting entity 
was entirely seamless. Second, the passage of the Universal 
Accreditation Act (UAA) will have a significant impact on COA's 
workload. As a result of our close working relationship, COA has been 
able to marshal its resources appropriately and is prepared and able to 
deal with that significant change. In conjunction with COA, we have 
worked to minimize the opportunities for undue enrichment as a result 
of intercountry adoptions. The recent passage, with your support, of 
the UAA will continue to expand this important task.
    As successful as we have been in executing our role as the Central 
Authority as defined in the Convention, the Department has taken an 
expansive view of our role. We actively describe the benefits of the 
Convention to non-partner countries and help interested states develop 
action plans. We encourage implementation of the necessary procedures 
before the Convention enters into force and help to minimize the 
negative impact when the Convention enters into force for a country 
before it has fully implemented the necessary legal framework and 
procedures. We work closely with the Hague Permanent Bureau, help to 
develop guidance, and frequently meet with partner countries and the 
Permanent Bureau to advance the central goals of the Convention.
    With this expansive view of our role as Central Authority in mind, 
we have also launched four initiatives that promote ethical and 
transparent adoptions around the world:
    (1) UAA: The UAA extends the protections provided by the 
Intercountry Adoption Act to children, adoptive parents, and birth 
parents in the orphan process by requiring the same accreditation of 
adoption service providers handling orphan cases as is required of 
adoption service providers in Convention adoptions. The Department is 
working closely with USCIS to implement the UAA in order to help put a 
stop to the illicit activities that threatened the best interests of 
children.
    (2) Launching and expanding the Pre-Adoption Immigration Review 
(PAIR) program: We believe reviewing the immigration eligibility of a 
potential adoptive child before an adoption decree is finalized, as is 
done in Convention cases, will mitigate some of the problems presented 
in the current system in place for countries not party to the 
Convention. Together with USCIS, the Department has developed the PAIR 
program. Under PAIR, a preliminary review of the child's likely 
immigration eligibility is made before the adoption decree, while the 
final decision on an adopted child's visa eligibility will not be made 
until the visa interview. This will reduce the number of cases in which 
adopted children are found ineligible for immigration much later in the 
process. Implementing PAIR in orphan process states will increase 
predictability for those involved in the adoption process. The PAIR 
program was first implemented in Taiwan on April 1, 2013, and will soon 
be implemented in Ethiopia.
    (3) Promoting adoptions of children in the U.S. foster care system: 
Since the Convention entered into force for the United States, families 
in other Convention states have expressed interest in adopting children 
from the United States. The Department has an extensive outreach effort 
underway to address concerns felt by some child welfare workers about 
placing children abroad. As a result, the number of outgoing adoptions 
from the U.S foster care system has increased. We find this development 
encouraging because such adoptions may lead to homes for some of the 
over 100,000 children in the United States awaiting a permanent home.
    (4) Encouraging gradual implementation of the Convention before it 
enters into force: As the Convention is the most effective tool to 
protect the parties to an intercountry adoption, we strongly encourage 
countries to first implement the necessary legal framework and 
procedures to uphold the Convention's standards and principles before 
becoming a party to the Convention. We are working with countries to 
provide technical and training/resource assistance to ensure a smooth 
transition and continuous adoption processing as they join the 
Convention. As part of our ongoing diplomatic efforts, we regularly 
engage with countries that are not party to the Convention about the 
importance of Convention principles and its framework of safeguards.
    Question. What is your recommendation as to how we can encourage 
the Guatemalans to finalize these 112 adoption cases, once and for all?
    As conversations with other State Department officials have failed 
to produce results, will you personally address this issue with the 
President of Guatemala?
    Answer. When the Hague Adoption Convention entered into force for 
Guatemala on January 1, 2008, adoptions ceased, leaving thousands of 
adoption cases incomplete. Since that time, the Department of State and 
the U.S. Embassy in Guatemala continue to engage the Government of 
Guatemala at every appropriate level, both here in Washington and in 
Guatemala, to urge resolution of all these cases in the best interests 
of the children. As of May 14, 2013, approximately 100 pending 
transition adoption cases remain unresolved.
    Recent activity by the Government of Guatemala suggests momentum is 
building for resolution of these final cases. Through constant effort 
by the Department and the Embassy, the Government of Guatemala has 
invited the Embassy to be a member of the Mesa Tecnica at which cases 
are considered by the relevant Guatemalan authorities. The Embassy 
attends this meeting twice each week and is able to monitor and 
encourage forward progress toward resolution.
    From May 15-17, in her fourth trip to Guatemala, Special Advisor 
for Children's Issues Ambassador Susan Jacobs and USCIS Director 
Alejandro Mayorkas met with Guatemalan Government officials to press 
for resolution of the cases still pending since the last joint USCIS-
Department of State meetings in Guatemala in October 2012. Their visit 
was designed to maintain the momentum in completing these cases 
following recent administrative and personnel changes in the Government 
of Guatemala, provide Ambassador Jacobs an opportunity to meet some of 
the new officials, and to underscore that resolution of all these cases 
in the best interest of the children remains a top priority for the 
United States. Our strategy of constant engagement and encouragement is 
drawing us closer to the goal of finding permanent homes for these 
children.
    Question. On December 19th, 2012, the U.S. Government Action Plan 
for Children in Adversity, a Framework for International Assistance, 
was launched at the White House. This document represents the first 
overarching policy statement in which appropriate and permanent family 
care has been explicitly set forth as a core objective of U.S. foreign 
assistance policy. Objective 1 of the Plan calls for strong beginnings 
for children. To that end, we were pleased to see the Maternal and 
Child Health account grow to $680 million, 12.3 percent above fiscal 
year 2012 in the Pre-Budget Report (PBR). However, Action Plan 
objectives 2 and 3 call for a family for every child (with a particular 
focus on getting children out of institutions and into family 
environments) and protection for children.
  --In the President of the United States (POTUS) budget for fiscal 
        year 2014, the Vulnerable Children account falls to $13 
        million, 26 percent below fiscal year 2012. How can the Action 
        Plan present a coordinated approach if key accounts used for 
        collaboration to achieve all three outcomes are cut?
    Answer. Working in more than 100 countries, U.S. Government 
international assistance to children in adversity is funded through 
seven departments and agencies--the U.S. Departments of Agriculture, 
Defense, Health and Human Services, Labor, and State; the Peace Corps; 
and the U.S. Agency for International Development. With its significant 
investments in international development, technical expertise and 
research capabilities embedded within key agencies, and diplomatic 
outreach, the U.S. Government is well positioned to lead and mobilize a 
strategic global agenda for children in adversity.
    The Vulnerable Children category is funded within the Global Health 
Programs-U.S. Agency for International Development (USAID) account and 
encompasses two long-standing programs --the Displaced Children and 
Orphans Fund (DCOF) and Blind Children. The historical funding level is 
$15 million: $13 million for DCOF; and $2 million for Blind Children. 
However, in fiscal year 2012, DCOF's budget was increased by $2 
million, to $15 million, to implement a special program that you 
referred to as the Families First Initiative, and Blind Children was 
increased by $500,000, to $2.5 million. The fiscal year 2013 Continuing 
Resolution maintains the fiscal year 2012 total of $17.5 million for 
these two programs, which is subject to the sequestration.
    The fiscal year 2014 Global Health budget prioritizes programs that 
directly contribute to achieving major improvements in health outcomes 
in three areas: saving the lives of mothers and children; creating an 
AIDS-free generation; and protecting communities from other infectious 
diseases. These programs also directly contribute to achieving the 
principal objectives of the Action Plan for Children in Adversity--
building strong beginnings, putting families first, and protecting 
children.
    Question. The National Action Plan for Children in Adversity calls 
for the State Department to ``advocate'' for implementation of the 
Hague Convention on Intercountry Adoption with non-Convention partner 
countries and to ``encourage'' Convention partners to improve 
compliance with the Convention. Virtually all other outcomes noted in 
the Action Plan call for the United States Government (USG) to support, 
implement, strengthen or otherwise provide a substantive response in 
achieving the desired outcomes, including permanent solutions for 
children living outside of families, such as family preservation, 
reunification, kinship care, domestic or international adoption. Other 
than simply encouraging partner countries to utilize intercountry 
adoption under the auspices of the Hague Adoption Convention, how will 
the Department of State support partner countries in building the 
capacities and competencies needed to implement intercountry adoption?
  --Currently, intercountry adoption is the responsibility of the 
        Office of Children's Issues within the Bureau of Consular 
        Affairs. Other than advocacy to join the Hague Adoption 
        Convention, that office does not have the authority or 
        functional ability to provide substantive support to partner or 
        prospective partner countries in the area of intercountry 
        adoption. Similarly, given the Bureau of Consular Affair's 
        legislative mandate, the Office of Children's Issues does not 
        have the authority to assist partner countries in developing 
        domestic adoption or kinship care as means of moving children 
        out of institutions. How will the Department of State remedy 
        the obvious discrepancy between the Action Plan and the Office 
        of Children's Issues ability to implement it?
    Answer. Encouraging countries to join The Hague Adoption Convention 
(Convention) is only one component of the Department's comprehensive 
approach to intercountry adoption. We assist any government willing to 
work with us to help them implement the legal and regulatory framework 
necessary to ensure that intercountry adoptions meet Convention 
standards. This work involves providing countries with technical and 
legal expertise and guidance to help ensure full Convention 
implementation so that intercountry adoptions can proceed. We also seek 
to ensure that Convention measures are compatible with U.S. 
intercountry adoption procedures and immigration laws so that 
intercountry adoptions by U.S. prospective adoptive parents result in 
successful immigration of children to the United States.
    The Department is actively engaged in this comprehensive process in 
numerous countries. Through our embassies, we look for opportunities to 
assist with implementation of intercountry adoption procedures that are 
aligned with the principles of the Convention. We tailor our approach 
to each country in order to best address the specific challenges and 
capitalize on the opportunities that individual countries present. A 
few examples are illustrative of our tailored approaches.
    Our efforts in Lesotho represent a true success story for the 
Department's efforts to promote Convention implementation prior to, and 
immediately following, the Convention's entry into force for individual 
countries. The Government of Lesotho acceded to the Convention in the 
fall of 2012, and the Convention entered into force on December 1, 
2012. At the time, the Government of Lesotho elected to continue a 
suspension on intercountry adoptions while it focused on implementing 
procedures that would fulfill their obligations under the Convention. 
Extensive training, technical assistance, and coordination efforts by 
our staff at the U.S. Embassy in Maseru helped ensure the Government of 
Lesotho was able to finalize its Convention implementing legislation, 
establish corresponding regulations and procedures, complete local 
training for officials at all government levels who would be 
responsible for carrying out the new procedures, and conduct public 
outreach throughout the country in just a few months. When Lesotho 
lifted its suspension on February 28, 2013, the Department was able to 
immediately announce that intercountry adoptions from Lesotho to the 
United States may proceed under the Convention.
    As another example, our engagement with the Haitian Government on 
adoptions is achieving results. With sustained and focused U.S. support 
and technical assistance, and in coordination with other nations and 
international organizations, Haiti has committed to joining the 
Convention, signed it, and undertaken broad regulatory reforms to 
strengthen its adoption authority. The Haitian Senate recently passed 
legislation to implement procedures that meet Convention standards. We 
expect the Haitian Chamber of Deputies to consider the bill when it 
returns from recess in mid-June.
    Another example of our focused engagement is Cambodia, which joined 
the Convention in 2007. In January 2013, Cambodia lifted its own, self-
imposed intercountry adoption suspension. The U.S. Embassy in Phnom 
Penh; the Bureau of Consular Affairs' Office of Children's Issues; and 
the Special Advisor for Children's Issues, Ambassador Susan Jacobs, 
continue to provide critical support to the Government of Cambodia on 
adoption issues. For example, our efforts in Cambodia have included 
enabling international training exchanges between central authorities 
with assistance from the Permanent Bureau of the Hague Conference on 
Private International Law. The Department is closely monitoring 
Cambodia's implementation of its new Convention system and is ready to 
provide further assistance to the Cambodian Government.
    It is necessary and important work that the Department of State 
undertakes in its efforts to encourage countries to effectively 
implement the Convention before joining it, so that they may conduct 
ethical, safe, and transparent intercountry adoptions as an integral 
part of a well-functioning child welfare system. Well-functioning child 
welfare and adoption systems sustain the Convention's many safeguards, 
including subsidiarity, proper consent without inducement, the 
prevention of improper financial gain, accreditation and authorization 
of adoption bodies, and cooperation and communication between central 
authorities. These safeguards enable countries to effectively meet the 
Convention's core goal--to protect children, birth parents, and 
adoptive parents.
    Question. President Reagan once said, ``The family has always been 
the cornerstone of American society.'' And President Obama has recently 
been quoted as saying, ``Of all the rocks upon which we build our 
lives, we are reminded today that family is the most important.''
    The National Action Plan on Children in Adversity, specifically 
Objective #2 represents a unique opportunity for the Department of 
State to promote the value that America places on the family. How will 
the Department of State use the Action Plan to ensure that U.S. foreign 
assistance reflects and promote the value of safe permanent family 
care?
    Answer. The Department of State undertakes a wide range of 
diplomatic and programmatic activities which aim to reunite families 
and keep families together in keeping with objective 2 of the National 
Action Plan on Children in Adversity, ``Putting Family Care First.'' 
The State Department is listed as an action entity in each of these 
three outcome areas. Within various offices at DOS, such as the Bureau 
for Population and Refugee Migration (PRM) and the Office to Monitor 
and Combat Trafficking in Persons (J/TIP), we support partners to 
reunite families separated by conflict or trafficking, and put in place 
measures to prevent such separation from happening in the first place. 
In addition, family and systems strengthening programming under the 
President's Emergency Plan for AID Relief (PEPFAR) prevents family 
separation from happening by strengthening families, and supports 
family placement by strengthening systems to respond to children 
outside of family care.
    PEPFAR will continue to directly support objective 2 in the 
National Action Plan on Children in Adversity ``Putting Family Care 
First.'' PEPFAR, primarily through the U.S. Agency for International 
Development (USAID), is promoting family strengthening and child 
welfare systems strengthening at scale in at least 17 countries. These 
complementary efforts not only keep children in their families of 
origin by preventing separation in the first place, but they also 
prepare families to also be able to take in children who have lost 
parents, thus providing safe and permanent family care. As one example, 
household economic strengthening, which prevents the separation of 
children from families due to the heavy economic burden placed by HIV, 
is a central piece of PEPFAR programs. PEPFAR programs also support 
parent skills training, support for cash transfers, and psychological 
support for children and caregivers, all of which strengthen families 
to be able to provide safe and permanent care for children.
    PEPFAR is also actively promoting child welfare systems 
strengthening, particularly in the area of human resources where child 
welfare workers play a key role. In South Africa, PEPFAR Orphans and 
Vulnerable Children (OVC) projects have supported thousands of 
community volunteers and has assisted the ministry in hiring 10,000 
child and youth care-workers by 2017. In Uganda 1,150 Community 
Development Officers and probation officers completed training with 
University accredited qualification in child protection and 4,700 
parishes in 72 districts planned and implemented activities for 
vulnerable children, reaching 66,000 children with child protection, 
legal and psychosocial services. These efforts directly contribute to 
the goal of safe and permanent family care for vulnerable children 
reflected in objective 2.
    PEPFAR's investments reduce the level of institutionalization of 
children affected by AIDS and also strengthen the system for child 
welfare so that human resources and policies are available and 
appropriate to respond to children who are at risk of falling outside 
of family care or children already outside of family care (COFC). 
Education, training and certification of child welfare workers, as well 
as advocacy to expand the workforce, are extremely important to 
ensuring permanency for children. In many countries, projects also 
specifically address COFC, such as street children and children in 
institutions, and these elements are integrated into the broader 
systems strengthening and family strengthening that is part of all our 
programs. Through this integration these more specific efforts are made 
even stronger and more effective for COFC.
    Question. How are you working to ensure that our efforts to support 
women and girls are being implemented in a cross-cutting and holistic 
way?
    Answer. The Obama Administration has made advancing the status of 
women and girls a central element of U.S. foreign policy, as 
articulated in the 2010 Quadrennial Diplomacy and Development Review 
and the Department of State's Policy Guidance on Promoting Gender 
Equality. Further, on January 30, 2013, President Obama signed a 
Presidential Memorandum on gender equality, ensuring that an 
Ambassador-at-Large for Global Women's Issues will continue to play a 
leading role in U.S. efforts to advance women's rights around the 
world.
    The Department of State's Office of Global Women's Issues ensures 
that the rights of women and girls are fully integrated into the 
formulation and conduct of United States foreign policy. Working with 
the White House, USAID, the Department of Defense, and other agencies, 
as well as with civil society and the private sector, the Department of 
State has launched multiple and wide-ranging global initiatives to 
promote women's social and economic development, integrate women into 
peace and security building, address and prevent gender-based violence, 
and ensure women's full participation in civic and political life.
    Question. How will you and your Department measure these efforts to 
integrate women's empowerment across development sectors?
    Answer. As the implementation of the Quadrennial Diplomacy and 
Development Review (QDDR) and Department of State Policy Guidance on 
Gender Equality progresses, the Office of Global Women's Issues, with a 
team of experts from across the Department and USAID, will monitor and 
evaluate results and make recommendations to improve integration.
    Question. As indicated during yesterday's hearing, will your staff 
at the USAID/Department of State take a look at the Malala Yousafzai 
Scholarship Act (S. 120), introduced by Senator Boxer and myself, and 
let us know their thoughts? http://www.govtrack.us/congress/bills/113/
s120/text
    Answer. We believe that the intention of the Malala Yousafzai 
Scholarship Act, which is to expand educational opportunities for women 
in Pakistan, is notable and essential to our overall development goals 
and priorities in Pakistan and the region. The U.S. Government is 
committed to supporting women's full social, political and economic 
empowerment in Pakistan, and specifically to (1) improve their access 
to education and economic opportunities; (2) strengthen gender 
equality; (3) prevent violence against women and girls, raise awareness 
of women's legal rights, and improve access to justice; and (4) 
increase women's access to healthcare and family planning.
    Enrollment rates for girls in Pakistan lag behind the rest of its 
South Asian neighbors. Experts estimate that the primary school 
enrollment rate for girls stands at around 50 percent--far behind the 
one for boys, and even lower in rural areas and in the federally 
Administered Tribal Areas. In response, since October 2009, we 
reconstructed 40 schools destroyed by militants in Khyber-Pakhtunkhwa, 
including 17 girls' schools, enabling 8,600 children to return to 
school. USG support to teacher education programs and training for 
school administrators and female teachers is helping to strengthen 
these institutions.
    On higher education, the United States has provided over 10,000 
local university scholarships since 2009, including a significant 
number of women. Historically, women comprised 25 percent of 
scholarship recipients. In order to reach the 50 percent target, USAID 
is expanding disciplines of study from agriculture and business to a 
wide variety of fields popular with women including social sciences, 
engineering, and medical sciences. USAID is also expanding the 
university pool to include more women's universities. Additionally, 
Pakistan is the U.S.'s largest-funded Fulbright program. More than 
1,000 Pakistani scholars have been brought to the U.S. under the 
program since 2005.
    Question. We've seen impressive progress over the past year in U.S. 
efforts to help stop Joseph Kony's Lord's Resistance Army (LRA), which 
as you know is guilty of horrific crimes spanning nearly three decades 
in central and east Africa. I understand that U.S. investments have 
helped lead to a spike in defections among Kony's fighters, and the 
capture or killing of two of the group's top leaders. This is truly 
encouraging, but we need to see these efforts through to their 
conclusion. Can you comment about U.S. commitment to sustaining support 
for efforts to counter the LRA until they succeed in removing Kony and 
ending this longstanding crisis?
    Answer. The governments of the region, in coordination with the 
African Union, are leading efforts to end the Lord's Resistance Army's 
(LRA) terror and protect civilians. The United States continues to 
provide cross-cutting support to bolster these regional efforts, build 
partner capacity, and assist the communities terrorized by the LRA. We 
agree that regional forces, with U.S. support, have made significant 
progress to weaken the LRA and reduce its ability to wreak havoc. 
Nevertheless, finding and apprehending Joseph Kony and the LRA's 
remaining leadership is extremely challenging because the LRA operates 
in one of the world's poorest, least governed, and most inaccessible 
regions. The United States is committed to continuing to support 
regional efforts to bring the LRA's top leaders to justice, promote 
defections from the LRA's ranks, and assist the affected communities.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. With respect to fiscal year 2013 funding and the fiscal 
year 2014 budget request, what amounts are anticipated for support for 
the Syrian opposition?
    Answer. In April, we announced the intention to provide an 
additional $123 million in assistance to the Syrian opposition and 
Supreme Military Council. Aside from this commitment, given the 
changing situation on the ground, the continuing humanitarian crisis, 
and limited resources and authorities, we are not in a position to 
speculate on the total funding that will be committed to this crisis in 
fiscal year 2013.
    The fiscal year 2014 request does not include any bilateral funding 
for Syria. The situation on the ground is still very fluid and outcomes 
are far from certain making it difficult for us to predict what 
assistance will be needed in the future. However, the fiscal year 2014 
request includes a plus up to the Emergency Refugee and Migration 
Assistance (ERMA) account to enable the U.S. Government to continue to 
respond to the incredible humanitarian needs in Syria, which are likely 
to continue into fiscal year 2014.
    In addition, the fiscal year 2014 request includes $580 million for 
the Middle East and North Africa Incentive Fund (MENA IF) and a request 
for notwithstanding authority to allow us support ongoing transitions 
and reforms in the Middle East, including Syria.
    Question. What is the U.S. doing to ensure that Syria's chemical 
weapons do not fall into the wrong hands? Is it U.S. policy that we 
will take military action if necessary to stop the transfer of chemical 
weapons to Hezbollah or other terrorist groups?
    Answer. We are closely following developments in Syria related to 
proliferation-sensitive materials, in particular chemical weapons. We 
continue to actively consult with Syria's neighbors, our allies and 
partners in the international community, as well as the Syrian 
opposition to underscore our strong concern about these weapons and 
coordinate our response. President Obama has clearly stated that the 
confirmed use or transfer of chemical weapons would change his 
calculus.
    Question. Does the State Department have the lead on addressing 
humanitarian needs arising from the situation in Syria and on 
engagement with Syrian opposition? What is the Department of Defense 
role in the Syria response, and how are interagency efforts 
coordinated?
    Answer. Given the nature of the Syrian conflict, the State 
Department has the overall lead to coordinate our engagement with the 
Syrian regime, opposition groups, Syria's neighbors and other states 
involved in this conflict. State and USAID are working together 
seamlessly to respond to the overwhelming humanitarian needs of both 
conflict-affected people in Syria as well as the 1.3 million Syrian 
refugees in the region, drawing on each agencies' unique authorities 
and comparative advantages.
    The enormity of the Syria crisis necessitates using the full range 
of our diplomatic and development resources to address humanitarian and 
other needs. Interagency efforts are coordinated by the National 
Security Staff (NSS). Deputies and Principals Committees are meeting 
regularly to discuss various aspects of the Syria crisis, as is the 
NSS-chaired Interagency Policy Committee (IPC). Additionally, a sub-IPC 
meets regularly to address humanitarian concerns. The Department of 
Defense is represented at these meetings as are other interested 
agencies. Both State and USAID have civilian-military advisors, staff 
liaisons to the United States Central Command (CENTCOM) and the United 
States European Command (EUCOM), and humanitarian advisors in the field 
who work with Department of Defense representatives to provide advice 
on humanitarian activities.
    At the operational level, the Department's Bureau of Population, 
Refugees, and Migration (PRM) and USAID's Bureau of Democracy Conflict 
and Humanitarian Assistance (DCHA) closely coordinate humanitarian 
assistance efforts. PRM and DCHA co-lead the Syria Humanitarian 
Assistance Working Group, bringing together bureaus and offices across 
the Department and USAID working on the humanitarian response to the 
Syria crisis. Representatives of PRM and DCHA have often traveled 
together, for example, representing the United States at the Syrian 
Humanitarian Forum and Kuwait Donors Conference as well as to 
neighboring countries hosting Syrians fleeing the violence. USAID's 
Office of U.S. Foreign Disaster Assistance (OFDA), together with PRM, 
produces humanitarian public fact sheets and internal updates, and the 
two bureaus jointly brief Congress, the media, and the Syrian diaspora.
    PRM focuses on providing humanitarian assistance to refugees in the 
region, and, inside Syria, supporting the activities of the United 
Nations High Commissioner for Refugees, the International Committee of 
the Red Cross, and the U.N. Relief and Works Agency for Palestine 
Refugees in the Near East, to assist conflict victims. USAID's OFDA and 
Office of Food for Peace (FFP) are supporting other international 
organizations operating inside Syria, such as World Food Program (WFP), 
World Health Organization and the United Nations International 
Children's Fund, and are providing food to Syrian refugees in the 
region through WFP. OFDA and FFP also provide funding to non-
governmental organizations (NGOs) to provide humanitarian assistance 
inside Syria including food, critical health services, basic 
necessities, water, and sanitation services. On the development side, 
USAID is providing support to refugee-hosting communities in Jordan and 
Lebanon in response to the crisis.
    The Department of Defense has been engaged in robust military 
planning for a range of contingencies in the region as well as some 
humanitarian support. In Jordan, where the U.S. military has a close 
relationship with the Jordanian Armed Forces (JAF), CENTCOM has 
deployed additional personnel to support the JAF activities on the 
southern Syria border, including support to the JAF's humanitarian 
operations through the use of Overseas Humanitarian Disaster and Civic 
Aid funds in Jordan.
    Question. Given growing uncertainties throughout the Middle East--
from Syria to Iran--is the State Department considering additional 
assistance for Israel in fiscal year 2013, including from within OCO 
and for the purpose of restoring the $155 million sequestration cut?
    Answer. The Department continues to prioritize Israel in the fiscal 
year 2014 Foreign Military Financing (FMF) request, seeking $3.1 
billion consistent with our bilateral Memorandum of Understanding 
(MOU). The fiscal year 2013 Continuing Resolution directs $3.1 billion 
of FMF to Israel. However, sequestration will require an across-the-
board cut--including to earmarks--to all Foreign Military Financing the 
United States provides worldwide, including Israel. Therefore, we have 
allocated Israel $2.94 billion of fiscal year 2013 FMF assistance. We 
are confident that, given the overall volume of our security 
assistance, the cuts associated with sequestration will not translate 
into any reduction in Israel's operational capabilities and will not 
threaten Israel's Qualitative Military Edge.
    Question. Have the State Department and appropriate Jordanian 
officials initiated discussions on the renewal of the assistance 
Memorandum of Understanding?
    Answer. We have not initiated conversations with the Government of 
Jordan on a renewal of our assistance Memorandum of Understanding that 
expires in fiscal year 2014. Our current focus is to provide immediate 
support to Jordan to address challenges arising from the Syrian crisis 
and help Jordan remain on track with critical International Monetary 
Fund (IMF) reform commitments. In the coming months, the Department 
will work with the Government of Jordan to determine the best way to 
leverage our annual assistance program to advance strategic priorities 
with Jordan. We plan to address this issue in the fiscal year 2015 
budget request, and will remain in close consultation with Congress.
    Question. Given extraordinary events in Syria and pressing domestic 
economic needs, is the State Department willing to exceed its budget 
request for assistance for Jordan in a renegotiated MOU?
    Answer. Our annual, planned assistance is designed to address long-
term development issues and encourage ongoing reform efforts, with 
targeted support provided to meet emerging needs. Additional assistance 
provided on top of our annual program has been our main tool for 
addressing near-terms needs related to the Syria crisis. Since we have 
provided additional assistance to mitigate the impact of the ongoing 
situation in Syria--our total fiscal year 2012 and fiscal year 2013 
assistance to Jordan will significantly exceed our annual Memorandum of 
Understanding (MOU) levels. We will continue providing humanitarian 
assistance in response to humanitarian needs, and will assess the 
situation in Jordan and other neighboring countries to determine what 
additional support is required.
    Question. What is the impact of sequestration on Jordan, and how 
does the State Department intend to reconcile this impact with the 
significant assistance needs for that country?
    Answer. The sequester will have an across the board impact on all 
accounts and countries, including those with earmarks and MOUs, such as 
our ongoing assistance commitment to Jordan. Despite these mandatory 
cuts to our annual assistance program, the Administration is providing 
additional support to Jordan, including the $200 million cash transfer 
and a loan guarantee that the President announced in Amman. The cash 
transfer will help expand government services to communities hosting 
Syrian refugees and help offset costs; the loan guarantee will support 
Jordan's economic development and reform goals. In addition the total 
amount of humanitarian assistance we have provided, $58 million has 
been provided to partners working in Jordan. We are also actively 
urging other countries to provide additional assistance to Jordan.
    Question. What is the status of reconciliation efforts between 
Fatah and Hamas, and what impact will the resignation of Palestinian 
Prime Minister Salam Fayyad have on these efforts?
    Answer. Although Fatah and Hamas leaders publically reiterate their 
commitment to reconciliation, there is no indication that the two are 
any closer to making that a reality. In their latest meeting in Cairo 
May 13-14, 2013, Fatah and Hamas agreed to form an interim government 
of ``independents,'' at the same time as they would announce a date for 
national elections after 3 months. The creation of this government is 
based on previous agreements between Fatah and Hamas to install an 
interim Palestinian Authority (PA) government of ``independents'' to 
prepare for elections for Palestinian national institutions. Despite 
the announcement, national elections resulting in a unity government 
between Fatah and Hamas still remain unlikely in the near term, due to 
continuing profound disagreements between the two factions.
    We have been clear about the principles that must guide a 
Palestinian Government in order for it to play a constructive role in 
achieving peace and building an independent state. Any Palestinian 
Government must unambiguously and explicitly commit to nonviolence, 
recognition of the State of Israel, and acceptance of previous 
agreements and obligations between the parties, including the Roadmap. 
President Abbas is still the leader of the Palestinian Authority, and 
he has been committed to these principles.
    In regard to Salam Fayyad, he has been a strong partner to the 
international community and a leader in promoting economic growth, 
state-building, and security for the Palestinian people. We look to all 
Palestinian leaders and the Palestinian people to continue these 
efforts. The aspirations of the Palestinian people and the work of the 
Palestinian Authority are bigger than any one individual. We are 
committed to moving forward with economic and institution-building 
efforts in the West Bank--not as a substitute for--but rather in 
parallel with our diplomatic efforts. The resignation of Prime Minister 
Fayyad should not derail this economic initiative or our efforts to 
promote peace and security.
    Question. Given the fiscal credibility and integrity of Prime 
Minister Fayyad, how does his resignation impact U.S. assistance 
programs for Palestinians?
    Answer. The Palestinian Authority has made tremendous strides in 
revitalizing the Palestinian economy and reforming its institutions to 
better serve the Palestinian people. We look to all Palestinian leaders 
and the Palestinian people to continue these reform and revitalization 
efforts, and we are committed to moving forward with economic and 
institution-building efforts in the West Bank. The resignation of Prime 
Minister Fayyad will not derail our assistance or our efforts to 
promote peace and security.
    Assistance to the Palestinian people is an essential part of the 
U.S. commitment to a negotiated two-state solution for Palestinians and 
Israelis, promoting a comprehensive peace in the Middle East. It is in 
the interest not only of the Palestinians, but of Israel and the U.S. 
as well, to ensure these efforts continue as they help to build a more 
democratic, stable, prosperous and secure region.
    Question. Are there any indications that Palestinians or entities 
acting on behalf of Palestinians seek to pursue legal action against 
Israel at the International Criminal Court? How would such action 
impact your efforts to secure a peace agreement between the parties, 
and what would your response to such action be?
    Answer. I am not aware of any currently pending efforts by the 
Palestinians to seek membership as a state in additional international 
organizations.
    I am concerned that pursuit of Palestinian membership as a state in 
international organizations will drive the parties further apart and 
risk compromising the efforts that President Obama and I are pursuing 
in pursuit of peace. There is simply no substitute for direct 
negotiations.
    The United States will continue to oppose firmly any and all 
unilateral actions in international bodies or treaties that circumvent 
or prejudge the very outcomes that can only be negotiated, including 
Palestinian statehood. And, we will continue to stand up to every 
effort that seeks to delegitimize Israel or undermine its security.
    We will continue to consult closely with our international partners 
to make clear our firm opposition to one-sided actions against Israel 
in international fora. Further, we will continue to urge all parties to 
avoid any provocative actions that circumvent or prejudge outcomes that 
can only be negotiated, including Palestinian statehood.
    Question. What is the justification for the request for the 
specialized agency waiver?
    Answer. The Administration is seeking a waiver to allow the 
discretion necessary to continue to provide contributions that enable 
us to maintain our vote and influence within the U.N. and its 
specialized agencies, if the President determines that doing so is 
important to our national interests, and to remove from the 
Palestinians or their allies any ability to force a contribution cut-
off and diminish our influence within these agencies.
    Without a national interest waiver our ability to conduct 
multilateral diplomacy and pursue U.S. objectives will be eroded, and 
our standing and position in critical U.N. agencies will be harmed. As 
a result, our ability to defend Israel from unfair and biased attacks 
in the U.N. will also be greatly damaged.
    The most effective way to wield U.S. influence in international 
organizations is from within. By withholding our contributions, not 
only do we cut off support for important programs that advance U.S. 
interests, we weaken our ability to promote our priorities, risk losing 
altogether our voting rights, and effectively empower others to 
determine how and when America engages.
    Congress has passed legislation that provides the United States 
with additional tools that are much better suited for the purposes of 
deterrence than the contribution cut-off mechanism. Legislation passed 
in the aftermath of the Palestinians' successful United Nations 
Educational, Scientific, and Cultural Organization (UNESCO) bid, if 
triggered, would place limits on U.S. economic support to the 
Palestinian Authority and would require the closure of the 
Palestinians' Washington, DC, office if they obtain membership as a 
state in a U.N. specialized agency going forward. These requirements 
are, appropriately, directed at the Palestinians in the event they 
engage in conduct that we are seeking to discourage. By contrast, the 
implications of the contribution cut-off will be most felt by the 
United States and the partners whose interests we defend across the 
spectrum of the U.N. system.
    Question. What action has the State Department taken to free Pastor 
Saeed Abedini, a U.S. citizen jailed in Iran because of his Christian 
faith? Can you verify reports that he has been tortured and beaten?
    Answer. Mr. Saeed Abedini has been unjustly imprisoned in Iran on 
charges related to his religious beliefs and activities.
    I share your concern about reports that Mr. Abedini has suffered 
physical abuse by Iranian authorities, and of his deteriorating health 
condition while in prison. We have called for the Iranian Government to 
allow Mr. Abedini access to independent medical attention. Regrettably, 
to date the Iranian Government has not permitted consular access by 
Swiss authorities--the United States' protecting power in Iran. 
Therefore, we are unable to verify reports regarding Mr. Abedini's 
medical condition.
    We have reached out to numerous partners in foreign governments and 
civil society to urge them to press the Iranian Government to release 
Mr. Abedini.
    On March 22, I issued the following public statement on this case:

        ``I am deeply concerned about the fate of U.S citizen Saeed 
        Abedini, who has been detained for nearly 6 months and was 
        sentenced to 8 years in prison in Iran on charges related to 
        his religious beliefs. I am disturbed by reports that Mr. 
        Abedini has suffered physical and psychological abuse in 
        prison, and that his condition has become increasingly dire. 
        Such mistreatment violates international norms as well as 
        Iran's own laws. I am also troubled by the lack of due process 
        in Mr. Abedini's case and Iran's continued refusal to allow 
        consular access by Swiss authorities, the U.S. protecting power 
        in Iran. I welcome reports that Mr. Abedini was examined by a 
        physician and expect Iranian authorities to honor their 
        commitment to allow Mr. Abedini to receive treatment for these 
        injuries from a specialist outside the prison. The best outcome 
        for Mr. Abedini is that he be immediately released.''

    We raised this case at the United Nations Human Rights Council 
(HRC) in Geneva on March 22. We have also raised this case with the 
office of U.N. Special Rapporteur for Human Rights in Iran, Dr. Ahmed 
Shaheed, whose recent report to the HRC cites Mr. Abedini's case as an 
example of Iran's violation of human rights, including religious 
freedom. Acting Assistant Secretary for Democracy, Human Rights and 
Labor Uzra Zeya advocated on behalf of, and highlighted, the case of 
Mr. Abedini and others imprisoned for their beliefs when she and I held 
a press conference on April 19 to release the Country Reports on Human 
Rights Practices for 2012.
    We have been in frequent contact with Mrs. Abedini and her attorney 
since we became aware of this case last year. The Ambassador-at-Large 
for International Religious Freedom Suzan Johnson Cook and other senior 
State Department officials met with Mrs. Abedini on March 15 and 
conveyed our commitment to resolve this case and reunite Mr. Abedini 
with his family. We will remain in touch with Mrs. Abedini and her 
attorney as we work to achieve our common objective of securing Mr. 
Abedini's freedom.
    We will continue to make public statements and use diplomatic 
engagement to apply international pressure on Iran to grant him access 
to medical care and to secure his release.
    Question. Press reports have indicated that the P5+1 offered to 
ease sanctions on Iran if it demonstrated ``seriousness.'' In order for 
Iran to receive relief from U.S. sanctions what steps must Tehran take? 
Is it still the position of the U.S. that Iran must suspend all nuclear 
activity, as required by U.N. Security Council Resolutions?
    Answer. The P5+1 proposal is a balanced offer that would require 
Iran to take verifiable, confidence-building measures to begin to 
address the international community's concerns over its nuclear 
program. In return, the P5+1 would offer some initial easing of certain 
sanctions. This would be a first step to address some of our priority 
concerns and establish an environment for negotiations on further 
steps.
    The longer-term goal of the P5+1 is to conclude a comprehensive 
agreement with Iran that will provide the international community with 
confidence that Iran's nuclear activities are exclusively peaceful and 
ensure Iran's compliance with its international obligations.
    Question. When do we make the judgment that Iran is in fact just 
stalling?
    Answer. The window for a diplomatic solution to international 
concerns over Iran's nuclear program remains open, but it will not 
remain so indefinitely. The United States will use all necessary 
elements of American power and influence to prevent Iran from acquiring 
a nuclear weapon. The onus is on Iran and it knows time is not 
unlimited. The pressure on Iran will continue to increase, providing a 
growing incentive for Iran to negotiate seriously.
    Question. What are your expectations for the upcoming Iranian 
elections? Is anything being done to provide support to the opposition?
    Answer. Iranian authorities have since 2009 engaged in a systematic 
campaign to stifle all forms of dissent, oppressing nearly all elements 
of civil society, including leaders and members of the Green Movement. 
Such repression has also targeted students, labor leaders, journalists 
and bloggers, ethnic and religious minorities, human rights defenders, 
and environmental activists. After years of such tactics, which has 
included arbitrary detentions, unfair trials lacking due process, 
harassment, and intimidation, Iran's civil society has been greatly 
oppressed.
    We have also witnessed Iranian efforts to curtail freedom of 
expression prior to the election. Authorities have arrested nearly two 
dozen journalists since the beginning of the year, closed several 
newspapers, and blocked Internet sites and jammed satellite signals. We 
anticipate that such activities will continue and likely increase in 
severity until the June 14 election.
    The administration will be closely monitoring Iran's presidential 
elections, mindful of the violence against peaceful demonstrators in 
2009. It is too soon to judge the outcome of the contest, as the final 
slate of candidates is not yet known. However, we and our international 
partners will urge authorities to conduct a free and fair electoral 
process that not only conforms to internationals standards of 
transparency and accountability, but also reflects the will of the 
Iranian people.
    We do not provide assistance to opposition figures in Iran. We do, 
however, provide capacity building training to Iranian civil society 
activists to preserve and expand political space where free thought and 
expression can flourish. Since 2004, the administration has supported 
projects to help Iranian civil society make its voice heard in calling 
for greater freedoms, accountability, transparency, and rule of law 
from its government.
    Supporting fundamental principles such as freedom of speech and 
freedom of assembly is one of the core values of the United States. We 
support democratic voices in countries across the globe, and Iran is no 
exception. This is why we continue to draw attention to Iran's 
deplorable human rights record using a wide range of diplomatic tools, 
including:
  --Providing capacity-building training and new media tools to help 
        Iranian civil society to amplify its calls for greater 
        freedoms, accountability, transparency, and rule of law;
  --Leading an international effort to establish and renew the mandate 
        of the Special Rapporteur at U.N. Human Rights Council;
  --Co-sponsoring the Canadian-led resolution on Iran's human rights 
        situation for the past 9 years;
  --Designating 30 Iranian officials and entities for serious human 
        rights abuses and censorship activities that limit freedom of 
        expression; and
  --Detailing Iran's human rights abuses in both our annual Country 
        Report on Human Rights Practices and International Religious 
        Freedom Report, and issuing high level statements.
    Question. Please describe actions taken by the State Department to 
update and upgrade military-to-military relations with Egypt in the 
post-Mubarak period.
     Answer. A more professional Egyptian military better equipped to 
counter emerging threats such as terrorism and weapons smuggling is a 
key U.S. goal, important to our own national security interests and to 
the future of Egypt's transition. We have already begun working with 
the Egyptian military to redirect assistance to confront the security 
challenges Egypt currently faces, including border security and 
counterterrorism. This included not only the redirection of a portion 
of prior year Foreign Military Financing (FMF) toward border security, 
but also using State Department funding to bring a delegation from 
Egypt's Border Guard Force to the United States to view our own border 
management methods. An in-country assessment to determine the Force's 
border management deficiencies is planned for later this year, with 
targeted State assistance to support improved Egyptian border 
management integration to follow. Additionally, State is financing 
border security training for Egyptian military personnel in Egypt and 
in the United States, including courses in Maritime Border Security, 
Commodity Identification, Counter Proliferation Investigations, 
International Seaport Interdiction, Search and Seizure Training, 
Counterterrorism, and International Legal Aspects of Border Security. 
Egyptian leadership has made clear that it wants our help with what it 
considers a very sensitive security area. This trust and cooperation is 
a product of--and a testament to--the long-standing military-to-
military relationship between our two countries developed over many 
years.
    The Egyptian military is also a strong advocate for our shared 
interests within Egypt. Bilateral dialogue on these issues and our 
strategic military relationship is continuous, allowing us to take 
advantage of every regular exchange to further align resources and 
plans to enhance cooperation on shared goals. We make clear to our 
Egyptian counterparts that our partnership is made stronger through 
continual stewardship and affirmation of joint aims. Our Ambassador and 
the Office of Military Cooperation at our Embassy in Cairo reinforce 
this message in every meeting, so that even ``regular business'' means 
reviewing our relationship to make sure it is best serving U.S. and 
Egyptian interests.
    Question. How are President Morsy and his government protecting the 
rights of minorities and women in Egypt, particularly Coptic 
Christians?
    Answer. We're watching the situation closely and are concerned by 
instances of violence, corresponding impunity, and lack of inclusion of 
these groups in government. While President Morsy has made some 
promising statements, the overall picture is troubling. The Egyptian 
Government has announced investigations into incidents of sectarian and 
sexual violence, but few of these investigations have rendered justice 
effectively. I have repeatedly called on the government to 
expeditiously conduct credible, transparent investigations and to hold 
the perpetrators accountable. We have made clear that, in addition to 
holding private citizens accountable, the conduct of the security 
forces must be investigated and any wrongdoing on their part should be 
prosecuted with full due process. Private citizens must be tried in 
court rather than handled in ``reconciliation sessions,'' which 
regularly fail to hold perpetrators accountable.
    We are also watching closely how the government implements the new 
constitution. Human rights activists have raised concerns concerned 
about provisions in the constitution that may limit both freedom of 
religion and women's rights. We continue to highlight the importance of 
equal protection under the law, and urge the Egyptian Government to 
include women and minorities in conversations impacting the ongoing 
transition process.
    We remain in regular contact with Egypt's religious communities and 
civil society organizations, both at senior levels in Washington and 
through our diplomatic mission. We reiterate at the highest level the 
U.S. Government's commitment to the people of Egypt and to pushing 
their elected government to represent their interests in accordance 
with Egypt's international commitments. The U.S. Government also 
supports numerous programs designed to improve the status of women and 
religious freedom in Egypt.
    Question. What is the status of the non-governmental organizations 
(NGO) trial in Cairo? What actions are the State Department and USAID 
taking to ensure that justice is provided to Americans and Egyptians 
unfairly ensnared by this political theater?
    Answer. A verdict in the NGO trial is expected June 4. We continue 
to make clear to President Morsy and the Egyptian Government that we 
view the ongoing NGO trials as politically motivated. We have also 
urged the highest levels of the Egyptian Government to pass a new NGO 
law consistent with international standards and have reiterated that 
this is a fundamental requirement for Egypt's democratic transition. We 
continue to provide consular assistance; Embassy staff have attended 
every session of the trial; and the administration is committed to 
covering legal fees. We view the passing of a fair NGO law as a test of 
the Egyptian Government's commitment to democracy. Our officials in 
both Washington and Cairo are in regular contact with Egyptian civil 
society activists over their concerns about current draft laws, and we 
have consistently raised their concerns and our own in our diplomatic 
engagement with the government.
    Question. In your opinion, is Egypt taking sufficient and credible 
actions to mitigate smuggling in the Sinai that directly benefits 
Hamas? What more can and should the Egyptian Government and military be 
doing?
    Answer. The August 5 terrorist attack against an Egyptian military 
Sinai outpost that killed 16 soldiers made clear to Egyptian civilian 
and military leadership the threats in Sinai, not just to its 
neighbors, but also to Egypt itself. Under President Morsy, attention 
to the Sinai has increased. This has included multiple high-level 
Egyptian visits to the Sinai, including President Morsy; plans to 
better develop the Sinai; and greater Egyptian outreach to Sinai 
residents.
    As part of this addressing of Sinai threats, Egypt has also been 
focusing more on border security and weapons interdictions in the Sinai 
and beyond. This has been especially true since the Egypt-brokered 
November 21 Gaza ceasefire, as reflected in increased reports of 
smuggling tunnel closures and weapons seizures. We are encouraging this 
focus, in particular by working with Egypt on border security 
improvements that directly target the movement of illicit goods and 
people in and out of Sinai. This includes not only training, but also a 
reprogramming of some of the Foreign Military Financing (FMF) provided 
to Egypt. Working with us, the Egyptian military has asked to use this 
FMF to augment its border protection. This augmentation and improved 
border management represents one of the most direct means Egypt has of 
mitigating Sinai smuggling and directly serves our regional security 
and counterterrorism goals.
    Question. What is the status of Dr. Shakeel Afridi, and is his 
release a talking point in bilateral relations?
    Answer. Dr. Afridi remains in jail in Peshawar awaiting a decision 
on his appeal. Afridi's lawyers are scheduled to appear before the 
Frontier Crimes Regulation Commissioner on June 13.
    We have made our views very well known to the Pakistanis both in 
public and private. As you know, we are in the midst of a series of 
high level discussions with the Pakistani Government on a range of 
issues that are important to both countries. We certainly consider Dr. 
Afridi's conviction and treatment to be among these issues.
    Question. What is the U.S. Government doing to ensure other donors 
are stepping up to the plate to reaffirm their commitment and provide 
robust funding to match the U.S. contribution to the Global Fund?
    Answer. The fiscal year 2014 budget request, which includes $1.65 
billion to the Global Fund, marks our continued strong support for 
reforms and challenges other donors to match the U.S. contribution 2 to 
1, with no more than 33 percent of donations coming from the United 
States at the Global Fund's replenishment in fall 2013.
    The U.S. Government is strongly committed to strengthening the 
Fund's position as the global choice for donor governments to support 
an evidence-based, high-impact response to HIV/AIDS, tuberculosis, and 
malaria. The U.S. Government will push the Global Fund to sustain the 
significant steps it has taken towards reform and use diplomatic 
channels with our partners to promote our shared global responsibility 
of financially supporting this reinvigorated Global Fund. Senior 
Administration officials are actively meeting with other donors to 
reinforce the need for a robust replenishment for 2014-2016. These 
actions are in addition to the U.S. Government's efforts to encourage 
recipient countries to step up their investments in their own people.
    The U.S. Government is encouraging all current donors to consider 
increases to their contributions, calling upon new donors to support 
the Fund, and requesting that implementing countries amplify their 
commitment to their disease responses through increased leadership and 
domestic financing. The Global Fund's Fourth Replenishment sets an 
ambitious resource target of $15 billion to be mobilized for 2014-2016, 
an increase against the approximately $11 billion contributed globally 
for 2011-2013. Collectively meeting this goal will require robust 
monetary support from current and new donors.
    Question. Should the State Department be the primary coordinator 
for global rule of law programs, and how important do you view rule of 
law programs in our development efforts and strategies overseas?
    Answer. The rule of law is a critical foundation for the 
development of democracy and is central to each foreign assistance 
program we undertake at the State Department.
    Each government that we assist has unique challenges that must be 
addressed. We understand the necessity for developing the rule of law 
to ensure that appropriate rule of law assistance is being provided to 
fit the need.
    Just as there is no one-size-fits-all solution to the range of rule 
of law challenges around the globe, there is also not one single U.S. 
agency that can or should undertake this job alone. Our Chiefs of 
Mission are charged with coordinating rule of law programs at the 
Embassy level. Similarly, the State Department, as the lead agency for 
foreign policy and foreign assistance, should serve as the primary 
coordinator for these activities in Washington.
    Question. Are credible and competitive elections possible in 
Cambodia, absent the full and unfettered participation of the political 
opposition, including Sam Rainsy?
    Answer. The July 28 national elections will be an important 
indicator of Cambodia's commitment to true multi-party democracy. 
Additional electoral preparations and reforms are needed now to ensure 
that the July elections meet international standards. In the 2008 
national elections, most observers assessed that the election process 
had improved over previous elections, but failed to fully meet 
international standards.
    Building strong democratic institutions and regulations to effect 
systemic change are the key indicators of credible elections. We urge 
the National Election Committee to address concerns raised by NGOs, the 
international community, and the U.N. Special Rapporteur for Human 
Rights in Cambodia.
    The participation of Sam Rainsy would be one indicator of 
Cambodia's willingness to allow for the unfettered participation of the 
opposition. We have urged the Cambodian Government to address 
inconsistencies in the voter registration list, prohibit campaigning by 
military and civil servants while in uniform or in their official 
capacity, and mandate state-run television to provide equal coverage 
and airtime for all political parties. Efforts by the Cambodian 
National Election Committee to make these reforms and other steps 
ensuring an equal playing field for the opposition would factor into 
the determination if the elections are credible and competitive.
    Question. How does the State Department intend to respond to less 
than credible and competitive polls?
    Answer. The State Department continues to actively engage with the 
Royal Government of Cambodia on the necessity for electoral reforms in 
the lead-up to the July national elections. Additional electoral 
preparations and changes are needed now to ensure that the elections 
meet international standards. We urge the National Election Committee 
to address concerns raised by NGOs, the international community, and 
the U.N. Special Rapporteur for Human Rights in Cambodia.
    We will continue to closely monitor electoral preparations and 
processes to evaluate the credibility of the elections. Based on that 
assessment, we will take steps that are consistent with our goal of 
supporting the democratic aspirations of the Cambodian people.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
    Question. (a) The fiscal year 2013 National Defense Authorization 
Act expressed the sense of Congress that the United States should (1) 
deny the Government of Iran the ability to continue to oppress the 
people of Iran and to use violence and executions against pro-democracy 
protestors and regime opponents; (2) fully and publicly support efforts 
made by the people of Iran to promote the establishment of basic 
freedoms that build the foundation for the emergence of a freely 
elected, open, and democratic political system; (3) help the people of 
Iran produce, access, and share information freely and safely via the 
Internet and through other media; and (4) defeat all attempts by the 
Government of Iran to jam or otherwise obstruct international satellite 
broadcast signals. Can you tell us what the State Department is doing 
now to achieve each of these four objectives?
    (b) Can you detail what support, if any, the Department is 
providing to opposition groups or activists inside Iran--or to groups 
capable of training opposition groups or activists inside Iran--to help 
them organize politically?
    Answer. (a)(1) What is the State Department doing to deny the 
Government of Iran the ability to continue to oppress the people of 
Iran and to use violence and executions against pro-democracy 
protestors and regime opponents?
  --The State Department and the U.S. Agency for International 
        Development (USAID) are helping Iranians overcome government 
        suppression by providing them with the tools and training 
        necessary to advocate for their interests and protect citizens' 
        rights, to communicate securely and freely with each other and 
        the outside world, to increase the free flow of information, to 
        decrease the capability of the government to censor, disrupt 
        and monitor communications for the purpose of perpetrating 
        human rights abuses.
  --The administration is also committed to holding accountable those 
        who facilitate such capabilities through high-level statements, 
        as well as sanctions and human rights designations.
  --For example, since President Obama signed the Comprehensive Iran 
        Sanctions, Accountability, and Divestment Act in 2010, the 
        administration has sanctioned 13 senior Iranian officials and 
        four Iranian entities--including the Iranian Revolutionary 
        Guard Corps (IRGC) and the Intelligence Ministry--for their 
        involvement or complicity in serious human rights abuses.
  --The administration has sanctioned four Iranian entities for 
        providing the Governments of Iran or Syria with information and 
        communications technology that could assist in serious human 
        rights abuses.
  --Since the President signed into law the Iran Threat Reduction Act 
        last year, the administration has imposed asset freezes and 
        visa bans on an additional five individuals and nine entities 
        for activities involving censorship or other limitations on 
        freedom of expression, including Iran's Cyber Police, the 
        Islamic Republic of Iran Broadcasting company (IRIB), and the 
        IRIB director, Ezzatollah Zarghami.
  --The administration announced in 2011 that it was imposing visa 
        restrictions on 52 Iranian officials who had engaged in human 
        rights abuses, and we continue to update that list. Due to the 
        confidentiality of visa records, we cannot share the name of 
        those individuals subject to such restrictions.
    (2) What is the State Department doing to fully and publicly 
support efforts made by the people of Iran to promote the establishment 
of basic freedoms that build the foundation for the emergence of a 
freely elected, open, and democratic political system?
  --The administration has publicly and privately raised its concerns 
        about the human rights situation in Iran on numerous occasions 
        and in multiple international fora.
  --For 10 consecutive years, the United States has supported a 
        successful resolution at the United Nations that condemns 
        Iran's human rights practices. The United States also helped 
        lead efforts in 2011 at the U.N. Human Rights Council to create 
        the mandate of the U.N. Special Rapporteur for Iran, whose 
        exhaustive reports have documented the extent of regime 
        oppression.
  --The administration has also issued its own reports on Iran's human 
        rights practices, including the most recent annual Human Rights 
        Report. We have also designated Iran again as a Country of 
        Particular Concern regarding its disregard for religious 
        freedom.
  --We have spoken out publicly against certain regime abuses. In the 
        last year, this administration has joined the international 
        community in calling for the release of human rights defender 
        Nasrin Sotoudeh, and Christian pastor Youcef Nadarkhani. We 
        also condemned the reported torture of blogger Sattar Beheshti 
        while in police custody. And more recently, we highlighted 
        Iranian attempts to stifle freedom of expression in 
        commemoration of world Press Freedom Day.
    (3) What is the State Department doing to help the people of Iran 
produce, access, and share information freely and safely via the 
Internet and through other media?
  --Since 2008, State and USAID have devoted more than $100 million in 
        grants to support Internet freedom around the world, including 
        in Iran. U.S. Government efforts to counter Iranian censorship 
        include support for the development of technologies that 
        facilitate access to blocked information, and tools for safe 
        communications, as well as training on how to safely and 
        securely use this technology.
    (4) What is the United States Government (USG) doing to defeat all 
attempts by the Government of Iran to jam or otherwise obstruct 
international satellite broadcast signals?
  --State, the Broadcasting Board of Governors (BBG), and others are 
        undertaking efforts to counter Iranian broadcast jamming 
        efforts by raising awareness of Iran's role in the 
        proliferation of satellite jamming activity at international 
        meetings, including at the International Telecommunication 
        Union (ITU), to which the USG is a full member and which 
        regulates the international satellite communications sector, 
        and the Asia-Pacific Broadcasting Union, in which the USG holds 
        observer status.
  --In addition, State and the BBG are in regular communication with 
        contacts at major international and regional satellite 
        providers, including Eutelsat and Intelsat, to discuss efforts 
        to counter Iranian interference. As a result, Iran has been 
        increasingly identified within the international community as a 
        proliferator of illicit broadcast jamming.
    (b) Can you detail what support, if any, the Department is 
providing to opposition groups or activists inside Iran--or to groups 
capable of training opposition groups or activists inside Iran--to help 
them organize politically?
  --We do not provide direct assistance to any political movement, 
        party or faction in Iran. We do, however, provide capacity 
        building training to Iranian civil society activists to 
        preserve and expand political space where free thought and 
        expression can flourish. Since 2004, the administration has 
        supported projects to help Iranian civil society make its voice 
        heard in calling for greater freedoms, accountability, 
        transparency, and rule of law from its government.
    Question. Do you believe the Iranian Government is legitimate?
    Answer. It is ultimately up to the Iranian people to decide whether 
their government is legitimate and fully represents its views. We have 
repeatedly expressed our concerns about the lack of fairness and 
transparency of the Iranian electoral process.
    Question. Do you believe that any trade with the Government of 
Iran--a state sponsor of terrorism responsible for ordering the murders 
of American citizens--can be characterized as legitimate trade?
     Answer. As we significantly increase pressure on the Iranian 
regime, we remain committed to ensuring that humanitarian trade can 
continue for the benefit of the Iranian people. U.S. regulations 
contain an explicit exception from sanctions for transactions for the 
sale of agricultural commodities, food, medicine, or medical devices to 
Iran as long as the transactions do not involve a designated entity or 
otherwise proscribed conduct. Supporting trade in humanitarian items is 
critical to maintaining international unity on Iran and bolstering ties 
with the Iranian people.
    Question. Do you believe the upcoming election in Iran will be 
open, free or fair?
    Answer. Iranian authorities have since 2009 engaged in a systematic 
campaign to stifle all forms of dissent, oppressing nearly all elements 
of civil society, including leaders and members of the Green Movement. 
Such repression has also targeted students, labor leaders, journalists 
and bloggers, ethnic and religious minorities, human rights defenders, 
and environmental activists. After years of such tactics, which has 
included arbitrary detentions, unfair trials lacking due process, 
harassment, and intimidation, Iran's civil society has been greatly 
oppressed.
    We have also witnessed Iranian efforts to curtail freedom of 
expression prior to the election. Authorities have arrested nearly two 
dozen journalists since the beginning of the year, closed several 
newspapers, and blocked Internet sites and jammed satellite signals. We 
anticipate that such activities will continue and likely increase in 
severity until the June 14 election.
    The Administration will be closely monitoring Iran's presidential 
elections, mindful of the violence against peaceful demonstrators in 
2009. It is too soon to judge the outcome of the contest, as the final 
slate of candidates is not yet known. However, we and our international 
partners will urge authorities to conduct a free and fair electoral 
process that not only conforms to internationals standards of 
transparency and accountability, but also reflects the will of the 
Iranian people.
    Question. Will you appoint a Special Representative or Special 
Envoy for human rights and democracy in Iran?
    Answer. The Department has numerous officials dedicated to 
addressing human rights and democracy in Iran both in the Bureau of 
Democracy, Human Rights, and Labor and the Bureau of Near Eastern 
Affairs, as well as at USAID. I have also spoken out publicly on Iran's 
human rights record, most recently in condemning the regime's 
mistreatment of U.S.-Iranian dual national Saeed Abedini. Our 
Ambassador-at-Large for International Religious Freedom regularly meets 
with members of Iranian religious minority communities and has spoken 
out frequently on religious freedom issues in Iran. Department 
officials at the United Nations in New York, as well as at the U.N. 
Human Rights Council in Geneva, are also actively engaged on these 
issues, supporting the annual U.N. General Assembly resolution 
condemning Iran's human rights practices and helping create and renew 
the mandate of the U.N. Special Rapporteur for Human Rights in Iran.
    The administration as a whole has also been actively engaged in 
using the authorities given to us by Congress to impose sanctions on 
Iranian human rights abusers. To date, we have imposed asset freezes 
and visa bans on 30 Iranian officials and entities, including the 
Islamic Revolutionary Guard Corps, the Intelligence Ministry, Iran's 
Cyber Police, and the Islamic Republic of Iran Broadcasting. We will 
continue to collect and assess information as it becomes available to 
impose sanctions on additional human rights abusers. We regularly 
highlight cases of imprisoned activists and we will continue to engage 
with our international partners and non-governmental organizations 
(NGOs) on how best to promote human rights and democracy in Iran.
    In addition, we continue to provide tools and training to Iranian 
civil society activists to preserve and expand political space where 
free thought and expression can flourish, and to help Iranians hold 
their government accountable. We will also continue to work with 
activists and civil society members to help strengthen their capacity 
to hold the government accountable by amplifying their calls for 
greater freedom, accountability, rule of law, and by documenting and 
spotlighting human rights abuses. We are also helping activists access 
filtered content, and improve their ability to communicate securely 
with each other and the outside world.
    Question. (a) I believe the recent P5+1 offer of gold sanctions 
relief in exchange for minimal concessions by Iran on its nuclear 
program represents a policy of appeasement.
  --If Iran accepted the P5+1 offer and immediately hoarded gold, can 
        you provide an estimate of the date by which the reserves of 
        the Central Bank of Iran will be insufficient for the 
        Government of Iran to avoid a severe balance of payments crisis 
        that prevents it from maintaining a functioning economy, as 
        measured by--
    --the inflation rate, exchange rates, unemployment rate, and budget 
            deficits in Iran; and
    --other leading macroeconomic indicators used by the International 
            Monetary Fund, professional rating agencies, and other 
            credible sources to assess the economic health of a 
            country?
    (b) Was the economic assessment of the P5+1 offer requested in 
subquestion (a) above completed before the offer was made in Almaty? If 
not, why not?
    (c) If Iran accepted the P5+1 offer, can you provide an estimate of 
the period of time it would take Iran to produce enough weapons-grade 
uranium for a single implosion-type nuclear weapon, taking into account 
all known relevant technical data and taking into account the P5+1 
offer would not require Iran to halt the installation of advanced IR-2 
centrifuges and would not require Iran to halt any other low-level 
uranium enrichment at other facilities?
    (d) Was the nuclear breakout assessment of the P5+1 offer requested 
in subquestion (c) above completed before the offer was made in Almaty? 
If not, why not?
    Answer. The P5+1 proposal is a balanced offer that would require 
Iran to take verifiable, confidence-building measures to begin to 
address the international community's concerns over its nuclear 
program. In return, the P5+1 would offer some initial easing of certain 
sanctions. This would be a first step to address some of our priority 
concerns and establish and environment for negotiations on further 
steps.
    The longer-term goal of the P5+1 is to reach a comprehensive 
agreement with Iran that will provide the international community with 
confidence that Iran's nuclear activities are exclusively peaceful and 
ensure Iran's compliance with its international obligations.
    We will continue to increase pressure on Iran as we seek a 
diplomatic solution. Sanctions are having a strong impact on the 
Iranian economy, as demonstrated by its rapidly declining oil exports, 
precipitous depreciation of the national currency, and significant 
upticks in inflation, unemployment, and the budget deficit. Until Iran 
addresses the international community's concerns over its nuclear 
program, we will continue to aggressively implement all existing 
authorities on Iran, and seek further areas to increase the pressure.
    We continue to closely monitor all aspects of Iran, including its 
nuclear program, economy, and internal dynamics, and incorporate our 
analysis into our approach to the Iranian nuclear issue.
    Question. (a) In fiscal year 2012, approximately how many people 
who received the United Nations Relief and Works Agency (UNRWA) 
services were people whose place of residence was Palestine between 
June 1946 and May 1948 and who were personally displaced as a result of 
the 1948 Arab-Israeli conflict?
    (b) Of those individuals identified in question (a) above, how many 
were residing in the West Bank and Gaza?
    (c) Of those individuals identified in question (a) above, how many 
were citizens of other countries?
    Answer. UNRWA's mandate, as approved by the U.N. General Assembly, 
is to provide assistance to Palestinian refugees as well as those 
displaced by the 1967 conflict in Jordan, Lebanon, Syria, Gaza, and the 
West Bank. UNRWA provides essential services for approximately 5 
million Palestinian refugees, including education for over 476,000 
school children, primary healthcare in 138 clinics, and social services 
for the most vulnerable, particularly in Lebanon and Gaza.
    UNRWA began its operations in 1951 with 860,000 registered 
Palestinian refugees. We are working with UNRWA to refine this number 
to reflect beneficiaries referenced in your question.
    The status of Palestinian refugees is one of the most sensitive 
issues confronting Israel and the Palestinians; it strikes a deep, 
emotional chord among Palestinians and their supporters, including our 
regional partners such as Jordan and Lebanon, which host large 
Palestinian refugee populations.
    United States policy has been consistent for decades, in both 
Republican and Democratic administrations: final status issues can and 
must only be resolved between Israelis and Palestinians in direct 
negotiations. Any unilateral attempts to alter the status of 
Palestinian refugees would run counter to our efforts to support final 
status negotiations and would undercut our ability to act as a mediator 
and peace facilitator, and generate very strong negative reaction from 
the Palestinians and our partners in the region, particularly Jordan.
    Question. (a) Do you believe the Japanese or South Korean 
Governments may consider developing independent nuclear deterrents in 
response to further North Korean aggression?
    (b) Would you support a Japanese or South Korean decision to 
develop such an independent deterrent capability?
    (c) Are you concerned by reports of growing nuclear cooperation 
between North Korea and Iran?
    (d) Are you concerned by the continued diversion of U.S.-exported 
dual-use items through China to both North Korea and Iran?
    (e) If the United State found evidence that Iran had tested a 
nuclear weapon in North Korea, what would be the U.S. response toward 
Iran?
    Answer. The Republic of Korea (ROK) and Japan are committed 
partners and global leaders on strengthening and maintaining the 
integrity of the global nonproliferation regime, including the Treaty 
on the Non-Proliferation of Nuclear Weapons (NPT). The United States 
supports the strong ROK and Japanese commitments to the NPT.
    The United States is firmly committed to the defense of the ROK and 
Japan. The U.S. nuclear umbrella--along with our robust conventional 
weapons capabilities--assures the ROK and Japan of our defense 
commitment, including to a strong response to any threat from North 
Korea.
    China is an integral member of P5+1 negotiations with Iran, and 
shares our goals of preventing Iran from acquiring a nuclear weapon and 
achieving the verifiable denuclearization of the Korean Peninsula in a 
peaceful manner. We continue to urge China to fully implement all U.N. 
Security Council resolutions on North Korea and Iran, and to prevent 
the export or transshipment through its territory of any item that 
could contribute to the development of Iran and North Korea's 
proscribed nuclear activities.
    If Iran and North Korea were to cooperate on a nuclear weapons 
program, it would be an unacceptable violation of the NPT and multiple 
U.N. Security Council resolutions and would demand a strong response 
from the international community. We continue our dual-track approach--
including the use of strong international and national sanctions--to 
press Iran and North Korea to comply with their obligations under all 
relevant U.N. Security Council resolutions.
    Question. Thank you for your statement calling for the immediate 
exoneration and unconditional release of American citizen Saeed Abedini 
from Evin Prison in Tehran, Iran. What comprehensive efforts, 
including, to the extent possible, those made through intermediary 
diplomatic channels, have been made to secure Mr. Abedini's release?
    Answer. I share your deep concern about U.S. citizen Saeed Abedini, 
unjustly imprisoned in Iran on charges related to his religious beliefs 
and activities. I am also concerned about reports that Mr. Abedini has 
suffered physical abuse by Iranian authorities, and of his 
deteriorating health condition while in prison.
    As you noted, on March 22, I issued a public statement on this case 
noting that I am troubled by the lack of due process in his case, 
Iran's continued refusal to allow consular access by Swiss 
authorities--the United States' protecting power in Iran--and calling 
for his immediate release.
    We raised this case at the United Nations Human Rights Council 
(HRC) in Geneva on March 22. We have also raised this case with the 
office of U.N. Special Rapporteur for Human Rights in Iran, Dr. Ahmed 
Shaheed, whose recent report to the HRC cites Mr. Abedini's case as an 
example of Iran's violation of human rights, including religious 
freedom.
    Acting Assistant Secretary for Democracy, Human Rights, and Labor 
Uzra Zeya highlighted the case of Mr. Abedini and others imprisoned for 
their beliefs when she and I held a press conference April 19 to 
release the Country Reports on Human Rights Practices for 2012.
    We appreciate H. Res. 147 calling for Mr. Abedini's release. We 
commend you and other Members of Congress for elevating this case, and 
we want to work closely and constructively with you to raise awareness 
and secure his release.
    The Department of State's highest priority is the safety and 
welfare of U.S. citizens overseas, and we remain deeply concerned about 
Mr. Abedini's detention and the conditions he faces in prison. We are 
committed to doing all we can to ensure Mr. Abedini receives the 
medical attention he urgently needs. We will continue to use diplomatic 
engagement to apply international pressure on Iran to secure his 
release. We have reached out to numerous allies and our friends in 
civil society to urge them to press the Iranian Government to release 
Mr. Abedini. Moreover, I will continue to use all the appropriate tools 
at the Department's disposal to promote and protect human rights, 
including freedom of religion, for all people in Iran and around the 
world.
    The Ambassador-at-Large for International Religious Freedom Suzan 
Johnson Cook and other senior State Department officials met with Mrs. 
Abedini and her attorney March 15 and conveyed our commitment to 
resolving this case and reuniting Mr. Abedini with his family. We have 
been in frequent contact with Mrs. Abedini and her attorney since we 
became aware of this case last year, and we will remain in touch with 
them as we work to achieve our common objective of securing his 
freedom.
    Question. President Obama has identified genocide prevention as a 
``core national security interest and core moral responsibility'' of 
the United States. As Secretary of State, are you committed to 
condemning any known instance of genocide, including the Armenian 
Genocide?
    Answer. The U.S. Government clearly acknowledges as historical fact 
and mourns that 1.5 million Armenians were massacred or marched to 
their deaths in the final days of the Ottoman Empire. These horrific 
events resulted in one of the worst atrocities of the 20th century, and 
the United States recognizes that they remain a great source of pain 
for the people of Armenia and of Armenian descent as they do for all of 
us who share basic universal values. As President Obama said in his 
April 24 statement, on Armenian Remembrance Day, we remind ourselves of 
our commitment to ensure that such dark chapters of history are not 
repeated.
    Question. As you are aware, Azerbaijan's leaders regularly allude 
to the use of force against Armenia and engage in other provocative 
actions to stoke anti-Armenian aggression. In his February 28, 2012 
national address, Azerbaijan's President Aliyev announced that ``our 
main enemies are Armenians of the world.'' In August 2012, Azerbaijan's 
President pardoned Ramil Safarov, who was convicted of murdering an 
Armenian soldier at a 2005 NATO English language training program in 
Hungary. In light of these troubling developments, does the 
Administration continue to support providing U.S. military assistance 
to Azerbaijan?
    Answer. Mr. Safarov was tried and convicted of a brutal murder. The 
United States was extremely troubled to learn that he would not serve 
the remainder of his sentence, as were many of our Allies. Immediately 
after learning of Azerbaijani President Aliyev's pardon of Ramil 
Safarov, the United States raised its concerns directly and forcefully 
with the highest levels of the Government of Azerbaijan. In addition, 
both the White House and the State Department released strong public 
statements of concern over Mr. Safarov's transfer and subsequent 
pardon.
    We are closely following developments in conflicts around the 
world. Based on current assessments, our budget request includes the 
funding needs we anticipate for fiscal year 2014. Security assistance 
for Azerbaijan is carefully reviewed to ensure it does not undermine 
efforts for a peaceful settlement in Nagorno-Karabakh. Such assistance 
is currently focused on counterterrorism and maritime security.
    Question. Last year, the U.S. Commission of International Religious 
Freedom (USCIRF) listed Turkey as a ``Country of Particular Concern.'' 
USCIRF found that ``longstanding policies continue to threaten the 
survivability and viability of minority religious communities in 
Turkey.'' What meaningful progress has Turkey made to address the 
recommendations in the USCIRF report to ``bring its laws and practices 
into compliance with international standards on freedom of religion or 
belief?'' What will you do to ensure Turkey's return of all Armenian, 
Greek, Assyrian, and Christian minority properties?
    Answer. While the U.S. Commission of International Religious 
Freedom (USCIRF), a Congressionally-mandated independent commission 
separate from the Department of State, makes recommendations on which 
countries should be designated as Countries of Particular Concern 
(CPCs), only the President has the authority to do so. He has delegated 
this legal authority to the Secretary of State, which did not designate 
Turkey a CPC in 2012.
    In its 2013 report, USCIRF assessed the Turkish Government had 
taken positive steps to improve religious freedom. We agree with that 
assessment. The Turkish Government continued to return property that 
was previously seized from minority religious communities, including 47 
acres of property surrounding Halki Seminary, the pre-eminent 
institution of religious learning for Orthodox Christians worldwide. 
Turkey also allowed the opening of several new religious minority 
foundations. The current constitutional redrafting process is 
encouraging an unprecedented dialogue on individual rights and 
religious freedom. In November 2012, the government also relaxed its 
ban on headscarves in primary and secondary schools when it announced 
new regulations, to take effect in 2013, permitting female students to 
wear headscarves in elective Quran classes and at Islamic schools. 
Finally, Deputy Prime Minister Arinc announced in parliament this May 
that religious foundations that were closed by the state in the 1990s 
may reopen and have their assets returned.
    We will encourage the Government of Turkey to follow through on the 
return of religious minority properties and to take additional steps to 
promote religious freedom, such as allowing more religious communities 
to own property, register their places of worship, and train their 
clergy. We will also continue to urge the government at the highest 
levels to work cooperatively with the Ecumenical Patriarchate to pass 
legislation and overcome political roadblocks that are hindering the 
reopening of Halki Seminary.
    Question. The Nagorno-Karabakh Republic (NKR) was one of the three 
parties to negotiate and sign the cease-fire agreement, which stopped 
the war in 1993 and they were full parties to the Minsk Group 
negotiations until 1998, when Azerbaijan succeeded in excluding them. 
Do you support the reinstatement of the NKR as a full participant in 
the Minsk Group peace process? If yes, what is the administration doing 
to reinstate NKR into the negotiations?
    Answer. As a Co-Chair of the OSCE Minsk Group along with Russia and 
France, the United States remains committed to helping the sides find a 
peaceful solution to the Nagorno-Karabakh conflict. As part of that 
effort, the Co-Chairs routinely meet with senior officials from the 
Armenian and Azerbaijani Governments, as well as the de facto 
authorities in Nagorno-Karabakh. The United States, Russia, and France 
are actively working to help the sides reach agreement on a way 
forward.
                                 ______
                                 
              Questions Submitted by Senator John Boozman
    Question. I am highly supportive of the Millennium Challenge 
Corporation (MCC), an innovative approach to foreign assistance that 
demands measurable results. For the last few years though, MCC's budget 
has been flatlined at $898.2 million. In addition to the many worthy 
countries contending for compacts this year--including four in sub-
Saharan Africa--MCC also dedicates substantial resources towards 
evaluations; 100 percent of its programs are evaluated. I'm concerned 
that the ``MCC effect''--recently proved by the College of William and 
Mary--is at risk if MCC's funding continues to be flat-lined. I realize 
the budget environment we are in, but will MCC have adequate funding 
for its evaluation needs as well as new programs in well-deserving 
countries?
    Answer. Thank you for your support of the Millennium Challenge 
Corporation (MCC), a critical component of U.S. Government 
international programs. I share your view of the value of MCC's focus 
on measurable results, as well as its focus on broad-based economic 
growth and democratic governance; MCC is able to advance countries 
along the path to reliance on domestic resources, foreign investment, 
and trade rather than foreign aid. And the entire U.S. Government 
development community is learning and applying broader lessons from MCC 
about economic analysis, growth, evaluation, the cost-effectiveness of 
development investments, monitoring and evaluation, and data-driven 
approaches to decisions. I also share your view of the value of the 
``MCC Effect''--that developing countries have been motivated to make 
significant policy changes, particularly in areas of corruption and 
fiscal reform, in order to become eligible for MCC funding.
    All development agencies face a very constrained budget 
environment. While MCC's work is important, the administration sought 
to address many development priorities in its budget request, including 
humanitarian assistance, aid to support post-crisis transitions from 
armed conflict, and security assistance. Given overall budget 
constraints, the request for MCC funding broadly reflects the size of 
its program, which is limited by the standards MCC must apply in 
selecting countries to assist. It currently funds active compacts and 
threshold programs in 21 of the 144 countries where U.S. foreign 
assistance is budgeted. The administration will continue to support MCC 
and the unique skills and strengths it provides.
    Question. Over the past 5 years, many African countries have 
reported substantial progress in reducing deaths from malaria. The 
United States, through the President's Malaria Initiative, has played a 
key role in this success. However, despite significant progress, there 
is still more work to be done. In the President's fiscal year 2014 
budget, PMI received a proposed increase in funding. How do increases 
in critical U.S. global health programs like PMI serve the United 
States' interests abroad?
    Answer. Continued U.S. funding for malaria control is a smart, 
efficient investment for both helping those in greatest need and 
advancing U.S. national security priorities. These investments 
accelerate economic growth and create conditions for greater stability 
through the development of a healthy population and workforce, 
safeguarding American security--an investment in a strong America and 
free world.
    The fiscal year 2014 request for $670 million in malaria funding 
will continue to support the comprehensive strategy of the President's 
Malaria Initiative (PMI), which combines prevention and treatment 
approaches and integrates these interventions with other priority 
health services. The World Health Organization estimated there were 219 
million malaria cases in 2010 and 660,000 malaria deaths worldwide. 
Ninety percent of all malaria deaths occur in sub-Saharan Africa, and 
the vast majority of these deaths are among children under 5 years of 
age. Since PMI began, it has distributed more than 136 million 
artemisinin-based combination treatments, more than 62 million 
insecticide-treated mosquito nets, and more than 13 million 
intermittent preventive treatments for pregnant women. In addition, 
during fiscal year 2012, PMI protected more than 30 million residents 
by spraying over seven million houses with insecticides. Since 2005, 
impressive gains in malaria control have been documented in PMI focus 
countries. To date, 12 of the original 15 PMI focus countries have data 
from paired nationwide surveys that show a decline in mortality rates 
among children under 5--these declines range from 16 percent in Malawi 
to 50 percent in Rwanda.
    USAID will continue to scale-up malaria prevention and control 
activities and invest in strengthening delivery platforms in up to 24 
African countries, as well as support the scale-up of efforts to 
contain the spread of multidrug-resistant malaria in the Greater Mekong 
region of Southeast Asia and the Amazon Basin of South America. PMI 
will support host countries' national malaria control programs and 
strengthen local capacity to expand the use of four highly effective 
malaria prevention and treatment measures, including indoor residual 
spraying, long-lasting insecticide-treated mosquito nets, artemisinin-
based combination therapies to treat acute illnesses, and interventions 
to prevent malaria in pregnancy. Funding will also continue to support 
the development of new malaria vaccine candidates, antimalarial drugs, 
and other malaria-related research with multilateral donors. These 
efforts directly support the global goal to end preventable maternal 
and child deaths.
    Question. We've seen impressive progress over the past year in U.S. 
efforts to help stop Joseph Kony's Lord's Resistance Army (LRA), and I 
was happy to work with you on the Rewards for Justice legislation that 
recently led to the $5 million reward announcement made by the State 
Department. I know you understand that U.S. investments have helped 
lead to a spike in defections among LRA soldiers, as well as the 
capture or killing of two of the group's top leaders in the past year. 
Can you comment about your commitment to sustaining these efforts to 
ensure they can succeed in removing Kony and ending this longstanding 
crisis?
    Answer. The governments of the region, in coordination with the 
African Union, are leading efforts to end the Lord's Resistance Army's 
(LRA) terror and protect civilians. The United States continues to 
provide cross-cutting support to bolster these regional efforts, build 
partner capacity, and assist the communities terrorized by the LRA. We 
agree that regional forces, with U.S. support, have made clear, 
measurable progress to weaken the LRA and reduce its ability to wreak 
havoc. Nevertheless, finding and apprehending Joseph Kony and the LRA's 
remaining leadership is extremely challenging because the LRA operates 
in one of the world's poorest, least governed, and most inaccessible 
regions. The United States is committed to continuing to support 
regional efforts to bring the LRA's top leaders to justice, promote 
defections from the LRA's ranks, and assist the affected communities.
    Question. Do you expect discussions with Iran over its nuclear 
program to resume in the near future and do you have any confidence 
that new talks can lead anywhere? When do we make the judgment that 
Iran is in fact just stalling? While sanctions are having a broad 
impact on the Iranian economy, do you see any evidence that sanctions 
are beginning to impact the regime's thinking on its nuclear program? 
Finally, what are your expectations for the upcoming Iranian elections? 
Is anything being done to provide support to opposition figures?
    Answer. European Union High Representative Catherine Ashton is 
meeting with Iran lead negotiator Saeed Jalili May 15 in Istanbul to 
follow-up on the latest round of negotiations and discuss the way 
forward. The window for a diplomatic solution to international concerns 
over Iran's nuclear program remains open, but it will not remain so 
indefinitely. The United States will use all necessary elements of 
American power and influence to prevent Iran from acquiring a nuclear 
weapon. The onus is on Iran and it knows time is not unlimited. The 
pressure on Iran will continue to increase, providing a growing 
incentive for Iran to negotiate seriously.
    Question. Can you please outline the efforts that the State 
Department is taking to ensure the safe and quick resettlement of the 
residents at Camp Liberty? I understand that the process is moving 
quite slow, which is especially concerning given the recent attacks 
there.
    Answer. Following the February 9 rocket attack targeting Camp 
Hurriya, the Government of Iraq (GOI) has taken steps to enhance 
security in and around the camp. We continue to urge the government to 
take all possible measures to ensure the safety of Camp Hurriya 
residents. The United Nations Assistance Mission for Iraq (UNAMI) and 
the GOI are trying to work with the Mujahedin-E Khalq (MEK) camp 
leadership on security enhancements and we continue to firmly support 
the many efforts of the GOI and UNAMI in this endeavor. As we have seen 
from other terrorist incidents, no amount of physical structures can 
guarantee the safety and security of Camp Hurriya or Camp Ashraf, which 
clearly underscores the urgency of resettlement of residents outside of 
Iraq.
    We join UNAMI and other nations in urging the permanent 
resettlement of former Ashraf residents outside Iraq. Resettlement is 
the only sustainable solution to ensure the safety of the residents. We 
remain firmly committed to supporting and assisting UNAMI, the United 
Nations High Commissioner for Refugees (UNHCR) and the Government of 
Iraq in their efforts to facilitate resettlement. The resettlement of 
Camp Hurriya residents outside Iraq requires immediate and urgent 
attention. We have made known to the MEK leadership and Camp Hurriya 
residents that Camp Hurriya remains a target and further delays in 
resettlement jeopardizes the safety and security of residents.
    Question. The conflict in eastern Congo has been the world's 
deadliest conflict since World War II, yet now has the best chance for 
real peace in a decade following significant international pressure in 
2012. In February, the Peace, Security and Cooperation Framework for 
the Democratic Republic of the Congo (DRC) and the Region was signed by 
Congo and 11 regional governments and in March, the U.N. appointed Mary 
Robinson as the Special Envoy to the Great Lakes region of Africa. What 
concrete steps will the State Department take to work with African 
partners and U.N. envoy Robinson to build a comprehensive peace process 
to operationalize the commitments made in the U.N. Framework?
    Answer. The United States sees the Framework as a unique and 
significant opportunity to promote sustainable peace, security, and 
accountability in the Great Lakes region. We continue to urge all 
parties--including the 11 signatory countries and, as witnesses, the 
African Union, the International Conference on the Great Lakes Region, 
the Southern African Development Community, and the United Nations--to 
fully and promptly implement the commitments they made in the 
Framework. The DRC's national commitments to accelerate domestic 
reforms and the regional signatories' commitments to play a 
constructive role in the region are both vital.
    As the U.N. Special Envoy to the Great Lakes Region of Africa, Mary 
Robinson will play a central role in this process. With our strong 
support, the Security Council has given Special Envoy Robinson a 
mandate to ``lead, coordinate, and assess the implementation of 
national and regional commitments'' under the Framework, including 
through ``the swift establishment of benchmarks and appropriate follow-
up measures.'' We support her plan for sustained engagement with civil 
society groups in the signatory countries.
    As Special Envoy Robinson conducts her preliminary consultations 
with key heads of state, other officials, and civil society in the 
region, the United States is ready to support her efforts through our 
bilateral diplomatic engagement and has offered to consider any other 
suggestions she may have as to how we can support her work. Secretary 
Kerry has announced his intention to appoint a U.S. Special Envoy to 
the Great Lakes.
    We are also taking steps to discourage the M23 and other abusive 
rebel groups from serving as spoilers in the process. The United States 
strongly supported U.N. Security Council Resolution 2098 (2013), which 
renewed the U.N. peacekeeping operation in the DRC (MONUSCO) and 
authorized the deployment of an Intervention Brigade charged with 
targeted offensive operations to contain and disarm armed groups. We 
plan to help troop contributing countries prepare for their challenging 
mandate. We continue to impose targeted sanctions as appropriate and to 
take steps to deter any outside support to rebels.
    Question. As a Senator and Chair of the Senate Foreign Relations 
Committee, you were very supportive of reforming the Foreign Assistance 
Act (FAA), which hasn't been significantly revamped in decades. Is it 
still your opinion that reforming the FAA should be a major 
administration priority, and are you ready to work with Congress to get 
this done in the 113th Congress?
    Answer. Adapting the FAA to better enable the U.S. Government to 
advance U.S. national security, further America's economic interests, 
maximize sustainable development, deliver real results for the American 
people, and use all the tools and capabilities of the U.S. Government 
to advance these goals, would be welcome. The Department of State and 
USAID stand ready to work with Congress on this endeavor.

                          SUBCOMMITTEE RECESS

    Senator Harkin. The subcommittee will stand recessed.
    [Whereupon, at 4:09 p.m., Thursday, April 18, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
